No. A-____

IN THE

Supreme Court of the United States
TRADING TECHNOLOGIES INTERNATIONAL, INC.,
v.
IBG LLC, INTERACTIVE BROKERS, LLC,
UNITED STATES,

Petitioner,

Respondents,
Intervenor.

PETITIONER’S APPLICATION TO EXTEND TIME TO
FILE PETITION FOR A WRIT OF CERTIORARI
LEIF R. SIGMOND, JR.

Counsel of Record

BAKER & HOSTETLER LLP
ONE NORTH WACKER DRIVE
SUITE 4500
CHICAGO, ILLINOIS 60606
TEL.: (312) 416-6200
FAX: (312) 416-6201
EMAIL: lsigmond@bakerlaw.com

Counsel for Applicant-Petitioner
Trading Technologies International,
Inc.

To the Honorable John G. Roberts, Jr., Chief Justice of the United States, as
Circuit Justice for the Federal Circuit:
Pursuant to this Court’s Rule 13.5, Petitioner Trading Technologies
International, Inc. (“TT”) respectfully requests an extension of 60 days, to and
including September 16, 2019, to file a Petition for a Writ of Certiorari in this matter.
The United States Court of Appeals for the Federal Circuit issued its judgment
affirming the decisions of the Patent Trial and Appeal Board on April 18, 2019 (App.
A). Absent an extension of time, the Petition would be due on July 17, 2019. TT is
filing this application more than 10 days before that date. This Court has jurisdiction
pursuant to 28 U.S.C. § 1254(1).
Background
TT owns U.S. Patent Nos. 7,904,374 (“the ’374 patent”), 7,533,056 (“the ’056
patent”), and 7,212,999 (“the ’999 patent”). Respondents IBG LLC and Interactive
Brokers LLC (collectively, “IB”) filed petitions requesting Covered Business Method
(“CBM”) Review of the ’374, ’056, and ’999 patents. The Patent Trial and Appeal
Board (the “Board”) instituted CBM Review for all three patents and issued Final
Written Decisions (“FWD”) invalidating all of the claims (App. B; App. C; App. D). TT
appealed all three decisions.
On September 27, 2017, the Federal Circuit docketed an appeal (17-2621) from
the Board’s FWD in CBM2016-00051, involving the ’374 patent. TT appealed the
Board’s erroneous conclusions that: (1) it had jurisdiction to institute CBM Review
based on its mistaken belief that the ’374 invention is not a technological invention,

and (2) the ’374 invention is not patent-eligible under 35 U.S.C. § 101. TT also raised
the issue of whether the America Invents Act (“AIA”), through CBM Review, violates
the U.S. Constitution.
On July 3, 2017, the Federal Circuit docketed an appeal (17-2257) from the
Board’s FWD in CBM2015-00179, involving the ’056 patent. TT appealed the Board’s
erroneous conclusions that: (1) it had jurisdiction to institute CBM Review based on
its mistaken belief that the ’056 invention is not a technological invention, (2) the ’056
invention is not patent-eligible under 35 U.S.C. § 101, and (3) the ’056 invention is
obvious under 35 U.S.C. § 103. TT also raised the issue of whether the AIA, though
CBM Review, violates the U.S. Constitution.
On October 16, 2017, the Federal Circuit docketed an appeal (18-1063) from the
Board’s FWD in CBM2016-00032, involving the ’999 patent. TT appealed the Board’s
erroneous conclusions that: (1) it had jurisdiction to institute CBM Review based on
its mistaken belief that the ’999 invention is not a technological invention, and (2) the
’999 invention is not patent-eligible under 35 U.S.C. § 101. TT also raised the issue of
whether the AIA, though CBM Review, violates the U.S. Constitution.
On November 20, 2017, Appeal Nos. 17-2621, 17-2257, and 18-1063 were
designated as companion cases, to be assigned to the same merits panel. On July 9,
2018, the United States filed a motion for leave to intervene in all three cases in order
to address TT’s constitutionality challenges, and on July 31, 2018, those motions were
granted.

2

On April 18, 2019, the United States Court of Appeals for the Federal Circuit
issued its judgment affirming the Board’s decisions (App. A). It held that the patents
were subject to CBM Review and invalid under 35 U.S.C. § 101. It declined to address
TT’s constitutionality challenges or the obviousness of the claims of the ’056 patent
under 35 U.S.C. § 103.
Reasons for Granting the Extension
A 60-day extension is necessary and appropriate for several reasons:
1.

In addition to the three patents at issue here, ten of TT’s other patents

are the subject of appeals before the Federal Circuit between the same parties.1
Additionally, four of TT’s patents are currently being litigated in the Northern District
of Illinois. That matter is scheduled to go to trial on February 3, 2020. As TT is
involved in several other matters, an extension will enable TT to coordinate petition
filings across the other TT proceedings, and also account for counsel’s obligations in
other matters to other courts. TT does not seek any unnecessary delay from the
extension requested here, but only to insure fully developed and appropriate
arguments in these multiple pending appeals.
2.

Based on TT’s extension requests before the Federal Circuit, TT’s

petitions for panel rehearing and rehearing en banc are currently due to be filed with
the Federal Circuit on July 22, 2019. Five of the other TT appeals have the same
Federal Circuit petition deadline. TT’s Petition for a Writ of Certiorari before this

Respondent IB is a party to all of those appeals except for one, which involves
only TT and the United States.
1

3

Court is currently due five days before, on July 17, 2019. Because TT would like to
decide on whether to file petitions for panel rehearing or rehearing en banc with the
Federal Circuit before deciding on whether to file a Petition for a Writ of Certiorari,
TT believes an extension is necessary in this case.
3.

This case presents several extraordinarily important and complex issues

warranting a carefully prepared Petition. The issues described above are
fundamental to the operation the AIA and CBM Review proceedings. As such, it is
important that the issues be properly framed to best assist the Court in its task of
clarifying the law.
4.

On July 1, 2019, counsel for TT discussed extending the deadline for a

Petition in this matter by 60 days with counsel for IB and counsel for the United
States. Counsel for the United States indicated that it did not oppose an extension,
and accordingly, will not be prejudiced by an extension. Although counsel for IB
indicated that it did oppose this motion, it also will not be prejudiced by an extension.
Under either the current or the extended filing date, the Court would be able to hear
TT’s appeal, were it to grant a writ of certiorari, in its October 2019 term.
Conclusion
For the foregoing reasons, TT respectfully requests that the time to file a
Petition for a Writ of Certiorari be extended by 60 days, to and including September
16, 2019.

4

Respectfully submitted,
Date: July 5, 2019

__________________________
LEIF R. SIGMOND, JR.

Counsel of Record

BAKER & HOSTETLER LLP
ONE NORTH WACKER DRIVE
SUITE 4500
CHICAGO, ILLINOIS 60606
TEL.: (312) 416-6200

Counsel for Applicant-Petitioner
Trading Technologies, International, Inc.

5

CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rule 29, I hereby certify that on July 5, 2019, I
caused a copy of the foregoing Petitioner’s Application To Extend Time To File
Petition For A Writ of Certiorari (1) to be served via first-class mail, postage prepaid,
on and (2) to be transmitted electronically to:
STERNE, KESSLER, GOLDSTEIN & FOX,
P.L.L.C.
ROBERT E. SOKOHL
JON WRIGHT
BYRON L. PICKARD
RICHARD M. BEMBEN
1100 NEW YORK AVENUE, NW
WASHINGTON, DC 20005
TEL.: (202) 772-8825
WILSON SONSINI GOODRICH &
ROSATI, PC
Michael T. Rosato
701 Fifth Avenue, Suite 5100
Seattle, WA 98104
206-883-2529

Counsel for Respondents

ACTING SOLICITOR
JOSEPH MATAL
USPTO, OFFICE OF THE SOLICITOR
PO BOX 1450, MAIL STOP 8
ALEXANDRIA, VA 22313
TEL.: (571) 272-9035
DEPUTY SOLICITOR
THOMAS W. KRAUSE
USPTO, OFFICE OF THE SOLICITOR
PO BOX 1450, MAIL STOP 8
ALEXANDRIA, VA 22313
TEL.: (571) 272-9035
SENIOR COUNSEL FOR PATENT LAW AND
LITIGATION, USPTO
FARHEENA RASHEED
USPTO, OFFICE OF THE SOLICITOR
PO BOX 1450, MAIL STOP 8
ALEXANDRIA, VA 22313
TEL.: (571) 272-9035
ASSISTANT ATTORNEY GENERAL
JOSEPH H. HUNT
U.S. DOJ, PO BOX 146
BEN FRANKLIN STATION
WASHINGTON, DC 20044
APPELLATE STAFF CIVIL DIVISION
MARK R. FREEMAN
SCOTT R. MCINTOSH
KATHERINE TWOMEY ALLEN
U.S. DOJ, ROOM 7325

950 PENNSYLVANIA AVENUE NW
WASHINGTON, DC 20530
TEL.: (202) 514-5048

Counsel for the United States

Leif R. Sigmond, Jr.

2

APPENDICES
App. A

Slip Opinion, Trading Techs. Int’l Inc. v. IBG LLC, No. 17-2257, 17-2621,
18-1063 (Fed. Cir. Apr. 18, 2019)

App. B

Final Written Decision, IBG LLC v. Trading Techs. Int’l Inc., CBM201600051 (P.T.A.B. Aug. 7, 2017)

App. C

Final Written Decision, IBG LLC v. Trading Techs. Int’l Inc., CBM201500179 (P.T.A.B. Feb. 17, 2017)

App. D

Final Written Decision, IBG LLC v. Trading Techs. Int’l Inc., CBM201600032 (P.T.A.B. Aug. 14, 2017)

Appendix

Case: 17-2257

2

Document: 111

Page: 2

Filed: 04/18/2019

TRADING TECHNOLOGIES INT'L v. IBG LLC

UNITED STATES,
Intervenor
______________________
2017-2621
______________________
Appeal from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in No. CBM201600051.
-------------------------------------------------TRADING TECHNOLOGIES INTERNATIONAL,
INC.,
Appellant
v.
IBG LLC, INTERACTIVE BROKERS LLC,
Appellees
UNITED STATES,
Intervenor
______________________
2018-1063
______________________
Appeal from the United States Patent and Trademark
Office, Patent Trial and Appeal Board in No. CBM201600032.
______________________
Decided: April 18, 2019
______________________

Case: 17-2257

Document: 111

Page: 3

Filed: 04/18/2019

TRADING TECHNOLOGIES INT'L v. IBG LLC

3

MICHAEL DAVID GANNON, Baker & Hostetler LLP, Chicago, IL, argued for appellant. Also represented by LEIF R.
SIGMOND, JR., JENNIFER KURCZ; ALAINA J. LAKAWICZ, Philadelphia, PA; COLE BRADLEY RICHTER, McDonnell,
Boehnen, Hulbert & Berghoff, LLP, Chicago, IL; STEVEN
BORSAND, JAY QUENTIN KNOBLOCH, Trading Technologies
International, Inc., Chicago, IL.
BYRON LEROY PICKARD, Sterne Kessler Goldstein &
Fox, PLLC, Washington, DC, argued for appellees. Also
represented by ROBERT EVAN SOKOHL, RICHARD M.
BEMBEN, JON WRIGHT; MICHAEL T. ROSATO, Wilson, Sonsini, Goodrich & Rosati, PC, Seattle, WA.
KATHERINE TWOMEY ALLEN, Appellate Staff, Civil Division, United States Department of Justice, Washington,
DC, argued for intervenor. Also represented by MARK R.
FREEMAN, SCOTT R. MCINTOSH, JOSEPH H. HUNT; THOMAS
W. KRAUSE, JOSEPH MATAL, FARHEENA YASMEEN RASHEED,
Office of the Solicitor, United States Patent and Trademark Office, Alexandria, VA.
______________________
Before MOORE, MAYER, and LINN, Circuit Judges.
MOORE, Circuit Judge.
Trading Technologies International, Inc., (“TT”) is the
owner of U.S. Patent Nos. 7,533,056, 7,212,999, and
7,904,374. Each patent relates generally to a graphical
user interface (“GUI”) for electronic trading. The ’056 and
’999 patents, which share a specification, disclose “a user
interface for an electronic trading system that allows a remote trader to view trends in the orders for an item, and
provides the trading information in an easy to see and interpret graphical format.” ’999 patent at 1:3–6. The ’374
patent, which is from a different patent family, discloses “a
display and trading method to ensure fast and accurate execution of trades by displaying market depth on a vertical

Case: 17-2257

4

Document: 111

Page: 4

Filed: 04/18/2019

TRADING TECHNOLOGIES INT'L v. IBG LLC

or horizontal plane, which fluctuates logically up or down,
left or right across the plane as the market prices fluctuate[].” ’374 patent at 3:54–58.
IBG LLC and Interactive Brokers LLC (collectively,
“Petitioners”) petitioned for review of claims 1–15 of the
’056 patent, claims 1–35 of the ’999 patent, and claims 1–
36 of the ’374 patent pursuant to the Transitional Program
for Covered Business Method Patents (“CBM review”).
Leahy-Smith Am. Invents Act, Pub. L. No. 112-29, § 18(a)
125 Stat. 284, 329–31 (2011) (“AIA”). In each case, the Patent Trial and Appeal Board instituted CBM review and
issued final written decisions holding that the patents
meet the criteria to be eligible for CBM review and the
claims are ineligible under 35 U.S.C. § 101. The Board additionally held that the claims of the ’056 patent would
have been obvious.
TT appeals from each decision. We have jurisdiction
under 28 U.S.C. § 1295(a)(4)(A). For the following reasons,
we affirm.
DISCUSSION
I. CBM Eligibility
Pursuant to § 18(a)(1)(E) of the AIA, the Board may
only institute CBM review for a patent that is a CBM patent. A CBM patent is “a patent that claims a method or
corresponding apparatus for performing data processing or
other operations used in the practice, administration, or
management of a financial product or service, except that
the term does not include patents for technological inventions.” Id. § 18(d)(1) (emphasis added). Pursuant to its authority under § 18(d)(2), the Patent and Trademark Office
(“PTO”) promulgated 37 C.F.R. § 42.301(b), which requires
the Board to consider the following on a case-by-case basis
in determining whether a patent is for a technological invention: “whether the claimed subject matter as a whole
recites a technological feature that is novel and unobvious

Case: 17-2257

Document: 111

Page: 5

Filed: 04/18/2019

TRADING TECHNOLOGIES INT'L v. IBG LLC

5

over the prior art” and whether it “solves a technical problem using a technical solution.” We review the Board’s reasoning “under the arbitrary and capricious standard and
its factual determinations under the substantial evidence
standard.” SightSound Techs., LLC v. Apple Inc., 809 F.3d
1307, 1315 (Fed. Cir. 2015).
The only issue of CBM eligibility that TT contests is
whether its patents are for technological inventions.
A. The ’999 and ’056 Patents
The Board relied on claim 1 of the ’999 patent and
claim 1 of the ’056 patent to determine that those patents
are directed to a covered business method. Claim 1 of the
’999 patent recites:
1. A computer based method for facilitating the
placement of an order for an item and for displaying transactional information to a user regarding
the buying and selling of items in a system where
orders comprise a bid type or an offer type, and an
order is generated for a quantity of the item at a
specific value, the method comprising:
displaying a plurality of bid indicators,
each corresponding to at least one bid for a
quantity of the item, each bid indicator at a
location along a first scaled axis of prices
corresponding to a price associated with
the at least one bid;
displaying a plurality of offer indicators,
each corresponding to at least one offer for
a quantity of the item, each offer indicator
at a location along the first scaled axis of
prices corresponding to a price associated
with the at least one offer;
receiving market information representing
a new order to buy a quantity of the item

Case: 17-2257

6

Document: 111

Page: 6

Filed: 04/18/2019

TRADING TECHNOLOGIES INT'L v. IBG LLC

for a specified price, and in response to the
received market information, generating a
bid indicator that corresponds to the quantity of the item bid for and placing the bid
indicator along the first scaled axis of
prices corresponding to the specified price
of the bid;
receiving market information representing
a new order to sell a quantity of the item
for a specified price, and in response to the
received market information, generating
an offer indicator that corresponds to the
Quantity of the item for which the offer is
made and placing the offer indicator along
the first scaled axis of prices corresponding
to the specified price of the offer;
displaying an order icon associated with an
order by the user for a particular quantity
of the item;
selecting the order icon and moving the order icon with a pointer of a user input device to a location associated with a price
along the first scaled axis of prices; and
sending an order associated with the order
icon to an electronic trading exchange,
wherein the order is of a bid type or an offer
type and the order has a plurality of order
parameters comprising the particular
quantity of the item and the price corresponding to the location at which the order
icon was moved.
Claim 1 of the ’056 patent is similar. It recites:
1. A method of operation used by a computer for
displaying
transactional
information
and

Case: 17-2257

Document: 111

Page: 7

Filed: 04/18/2019

TRADING TECHNOLOGIES INT'L v. IBG LLC

facilitating trading in a system where orders comprise a bid type or an offer type, the method comprising:
receiving bid and offer information for a
product from an electronic exchange, the
bid and offer information indicating a plurality of bid orders and a plurality of offer
orders for the product;
displaying a plurality of bid indicators representing quantity associated with the plurality of bid orders, the plurality of bid
indicators being displayed at locations corresponding to prices of the plurality of bid
orders along a price axis;
displaying a plurality of offer indicators
representing quantity associated with the
plurality of offer orders, the plurality of offer indicators being displayed at locations
corresponding to prices of the plurality offer orders along the price axis;
receiving a user input indicating a default
quantity to be used to determine a quantity
for each of a plurality of orders to be placed
by the user at one or more price levels;
receiving a user input indicating a desired
price for an order to be placed by the user,
the desired price being specified by selection of one of a plurality of locations corresponding to price levels along the price
axis; and
sending the order for the default quantity
at the desired price to the electronic exchange.

7

Case: 17-2257

8

Document: 111

Page: 8

Filed: 04/18/2019

TRADING TECHNOLOGIES INT'L v. IBG LLC

We agree with the Board that these claims are directed
to a covered business method and thus CBM review was
appropriate. These claims are directed to a financial trading method used by a computer. We see no technological
invention in this software method for trading. The claims
require receiving bid and offer information from an electronic exchange, displaying such information (“bid indicators” and “offer indicators”), and sending an order to the
electronic exchange based on a user input. The two claims
differ mainly in the way the user places the order (clicking
and dragging an “order icon” to a location on the price axis
versus selecting a point on the price axis). In each case, the
Board applied the considerations of § 42.301(b) and found
that the claims do not recite a technological feature that is
novel and unobvious over the prior art and do not solve a
technical problem with a technical solution for essentially
the same reasons.
TT argues the Board erred in applying the first consideration of § 42.301(b) based on our decision in Versata Development Group Inc. v. SAP America, Inc., 793 F.3d 1306
(Fed. Cir. 2015). According to TT, Versata set aside the
novelty and nonobviousness language of the regulation,
leaving the definition of a technological invention as one
having a technological feature that solves a technical problem using a technical solution. E.g., Appellant Br. 24–25,
No. 18-1063 (citing 793 F.3d at 1326). We need not decide
this issue because we agree with the Board that the considered claims do not solve a technical problem using a technical solution. See Apple, Inc. v. Ameranth, Inc., 842 F.3d
1229, 1240 (Fed. Cir. 2016) (“We need not address this argument regarding whether the first prong of 37 C.F.R.
§ 42.301(b) was met, as we affirm the Board’s determination on the second prong of the regulation . . . .”).
TT argues the inventions addressed technical problems
in the way prior art GUI tools were constructed and operated. It claims the ’999 patent addressed problems related
to speed, efficiency, and usability, and the ’056 patent

Case: 17-2257

Document: 111

Page: 9

TRADING TECHNOLOGIES INT'L v. IBG LLC

Filed: 04/18/2019

9

addressed problems related to intuitiveness, visualization,
and efficiency. We agree with the Board that the patents
relate to the practice of a financial product, not a technological invention. The specification states that a successful
trader anticipates the market to gain an advantage, ’999
patent at 1:20–26, but doing so is difficult because it requires assembling data from various sources and processing that data effectively, id. at 1:51–54. The invention
solves this problem by displaying trading information “in
an easy to see and interpret graphical format.” Id. at 2:3–
6. The specification makes clear that the invention simply
displays information that allows a trader to process information more quickly. Id. at 1:59–62 (“[A] system is needed
in which trend information of market demand for an individual item is provided to traders in an intuitive format
which allows traders to quickly interpret how market demand is changing to an item.”); id. at 2:39–41 (“The user
interface of the present invention presents this information
in an intuitive format, allowing the trader to make informed decisions quickly.”); id. at 2:57–62 (noting that displaying the user’s trades in a different color “allows the
trader to quickly determine his or her relative position in
the marketplace”); id. at 3:37–44 (noting that “the trader is
able to make instantaneous decisions regarding an item
while receiving critical information about other items or
the past performance of the current item and other indices,” which “is a major advantage over conventional methods of trading in which this information is not provided
concurrently, and if presented at all, is difficult to process
quickly”). This invention makes the trader faster and more
efficient, not the computer. This is not a technical solution
to a technical problem.
TT argues that the Board erred in the CBM review of
the ’999 patent when it declined to consider the testimony
of its expert Mr. Christopher Thomas. Even if TT was correct, the error would be harmless as Mr. Thomas’ declaration acknowledges that conventional GUIs for electronic

Case: 17-2257

10

Document: 111

Page: 10

Filed: 04/18/2019

TRADING TECHNOLOGIES INT'L v. IBG LLC

trading dynamically displayed trading information and
permitted users to trade directly from the interface.
J.A. 8610–12, No. 18-1063. Nothing in his declaration asserts that the claimed interface did anything other than
present information in a new and more efficient way to
traders. Even if the Board had considered this testimony,
it could not have reached a different conclusion.
Accordingly, we agree that the ’999 and ’056 patents
are not for a technological invention and thus are eligible
for CBM review.
B. The ’374 Patent
The Board relied on claim 1 of the ’374 patent to determine that the patent is directed to a covered business
method. Claim 1 of the ’374 patent recites:
1. A method for facilitating trade order entry, the
method comprising:
receiving, by a computing device, market
data for a commodity, the market data comprising a current highest bid price and a
current lowest ask price available for the
commodity;
identifying, by the computing device, a plurality of sequential price levels for the commodity based on the market data, where
the plurality of sequential price levels includes the current highest bid price and the
current lowest ask price;
displaying, by the computing device, a plurality of graphical locations aligned along
an axis, where each graphical location is
configured to be selected by a single action
of a user input device to send a trade order
to the electronic exchange, where a price of

Case: 17-2257

Document: 111

Page: 11

Filed: 04/18/2019

TRADING TECHNOLOGIES INT'L v. IBG LLC

11

the trade order is based on the selected
graphical location;
mapping, by the computing device, the plurality of sequential price levels to the plurality of graphical locations, where each
graphical location corresponds to one of the
plurality of sequential price levels, where
each price level corresponds to at least one
of the plurality of graphical locations, and
where mapping of the plurality of sequential price levels does not change at a time
when at least one of the current highest bid
price and the current lowest ask price
changes; and
setting a price and sending the trade order
to the electronic exchange in response to receiving by the computing device commands
based on user actions consisting of: (1) placing a cursor associated with the user input
device over a desired graphical location of
the plurality of graphical locations and (2)
selecting the desired graphical location
through a single action of the user input device.
The Board determined that claim 1 of the ’374 patent
does not recite a novel and unobvious technical feature and
does not solve a technical problem with a technical solution. For purposes of our technological invention analysis,
we see no meaningful difference between the ’374 claims
and the ’999 and ’056 claims.
TT argues the ’374 invention solves a technical problem
with the design of conventional electronic trading GUIs.
According to TT, this GUI solves a problem that might
cause the trader to submit an order at a price he did not
intend.

Case: 17-2257

12

Document: 111

Page: 12

Filed: 04/18/2019

TRADING TECHNOLOGIES INT'L v. IBG LLC

We agree with the Board that claim 1 does not solve
the alleged technical problem of missing an intended price.
Claim 1 recites “displaying . . . a plurality of graphical locations aligned along an axis” and “mapping, by the computing device, the plurality of sequential price levels to the
plurality of graphical locations.” The only information required to be displayed are the plurality of graphical locations. The Board explained that its institution decision set
forth its understanding that claim 1 “provide[s] no indication to a user of market information, such as price, order
quantity, or order type[,] and the graphical locations
simply could be ‘black boxes’ with price values associated
with them, and no information provided to the user indicating that price value, the order quantity, or the order type.”
J.A. 14–15, No. 17-2621 (internal quotation marks omitted). TT did not dispute this characterization of the claim.
Even if the specification recites an embodiment that solves
this problem, as TT alleges, claim 1 does not.
Claim 1 also recites that “mapping of the plurality of
sequential price levels does not change at a time when at
least one of the current highest bid price and the current
lowest ask price changes.” This limitation differs from
what is stated in the specification when discussing Figures
3 and 4, where it explains that “[t]he values in the price
column are static,” i.e., “they do not normally change positions unless a re-centering command is received.” ’374 patent at 7:32–34. We are not convinced that maintaining
the same mapping “at a time” when the price changes
solves the purported problem, as it does not specify what
happens immediately after the price changes.
TT also argues that the claimed invention improves
speed, accuracy, and usability compared to prior art GUI
tools, which are necessarily rooted in computer technology.
As discussed, these purported improvements are not technological. The specification states that the invention “provide[s] the trader with improved efficiency and versatility
in placing, and thus executing, trade orders for

Case: 17-2257

Document: 111

Page: 13

TRADING TECHNOLOGIES INT'L v. IBG LLC

Filed: 04/18/2019

13

commodities in an electronic exchange.” ’374 patent at
3:21–24. This is focused on improving the trader, not the
functioning of the computer. Indeed, the specification
acknowledges that the invention “can be implemented on
any existing or future terminal with the processing capability to perform the functions described,” id. at 4:4–6, and
“is not limited by the method used to map the data to the
screen display,” which “can be done by any technique
known to those skilled in the art,” id. at 4:64–67.
We conclude that the Board’s reasoning that claim 1
did not solve a technical problem with a technical solution
was not arbitrary and capricious.
II. PATENT ELIGIBILITY
We review the Board’s legal conclusions de novo and its
factual findings for substantial evidence. Ameranth, 842
F.3d at 1236.
“Whoever invents or discovers any new and useful process, machine, manufacture, or composition of matter, or
any new and useful improvement thereof,” may obtain a
patent. 35 U.S.C. § 101. As a judicially created exception
to this provision, “[l]aws of nature, natural phenomena,
and abstract ideas are not patent eligible.” Alice Corp. Pty.
Ltd. v. CLS Bank Int’l, 573 U.S. 208, 216 (2014) (quoting
Assoc. for Molecular Pathology v. Myriad Genetics, Inc., 569
U.S. 576, 589 (2013)). All inventions at some level “embody, use, reflect, rest upon, or apply” these concepts, but
if an invention applies these concepts to a new and useful
end, it is patent eligible. Id. at 217. The Supreme Court
has established a two-step framework for “distinguishing
patents that claim laws of nature, natural phenomena, and
abstract ideas from those that claim patent-eligible applications of those concepts. Id. “First, we determine whether
the claims at issue are directed to” a patent-ineligible concept. Id. If so, “we consider the elements of each claim both
individually and ‘as an ordered combination’ to determine
whether the additional elements ‘transform the nature of

Case: 17-2257

14

Document: 111

Page: 14

Filed: 04/18/2019

TRADING TECHNOLOGIES INT'L v. IBG LLC

the claim’ into a patent-eligible application.” Id. (quoting
Mayo Collaborative Servs. v. Prometheus Labs., Inc., 566
U.S. 66, 78–79 (2012)).
A. The ’999 Patent
At Alice step one, we must “determine whether the
claims at issue are directed to a patent-ineligible concept.”
Alice, 573 U.S. at 218. Under this inquiry, we evaluate “the
focus of the claimed advance over the prior art” to determine if the character of the claim as a whole, considered in
light of the specification, is directed to excluded subject
matter. Intellectual Ventures I LLC v. Capital One Fin.
Corp., 850 F.3d 1332, 1338 (Fed. Cir. 2017) (quoting Affinity Labs of Tex., LLC v. DIRECTV, LLC, 838 F.3d 1253,
1257 (Fed. Cir. 2016)).
The parties treat claim 1 of the ’999 patent as representative. The Board determined claim 1 is directed to “the
abstract idea of graphing (or displaying) bids and offers to
assist a trader to make an order.” J.A. 22, No. 18-1053. We
agree. The claim’s preamble states that it is a “computer
based method for facilitating the placement of an order for
an item and for displaying transactional information to a
user regarding the buying and selling of items.” The
method steps require “displaying” a plurality of bid and offer indicators along a “scaled axis of prices,” “receiving
market information,” displaying that information along the
axis, and “displaying” information pertaining to a user’s order. This essentially describes receiving information,
which the specification admits was already available to
“market makers,” ’999 patent at 1:35–41, and displaying
that information. “[W]e have treated collecting information, including when limited to particular content
(which does not change its character as information), as
within the realm of abstract ideas.” Electric Power Grp.,
LLC v. Alstom S.A., 830 F.3d 1350, 1353 (Fed. Cir. 2016).
Claim 1 also recites sending an order by “selecting” and
“moving” an order icon to a location along the price axis.

Case: 17-2257

Document: 111

Page: 15

TRADING TECHNOLOGIES INT'L v. IBG LLC

Filed: 04/18/2019

15

This does not change our determination that the claims are
directed to an abstract idea. As the Board determined,
placing an order based on displayed market information is
a fundamental economic practice. J.A. 23–24, No. 18-1063
(citing J.A. 3379–80, No. 18-1063). The fact that the claims
add a degree of particularity as to how an order is placed
in this case does not impact our analysis at step one. See
Ultramercial, Inc. v. Hulu, LLC, 772 F.3d 709, 715 (Fed.
Cir. 2014) (“Although certain additional limitations, such
as consulting an activity log, add a degree of particularity,
the concept embodied by the majority of the limitations describes only the abstract idea of showing an advertisement
before delivering free content.”).
The fact that this is a “computer-based method” does
not render the claims non-abstract. The specification indicates the claimed GUI is displayed on any computing device. ’999 patent at 4:34–37, 6:6–8. As a general rule, “the
collection, organization, and display of two sets of information on a generic display device is abstract.” Interval
Licensing LLC v. AOL, Inc., 896 F.3d 1335, 1345 (Fed. Cir.
2018). Relying principally on Core Wireless Licensing
S.A.R.L. v. LG Electronics, Inc., 880 F.3d 1356 (Fed. Cir.
2018), TT argues the claimed invention provides an improvement in the way a computer operates. We do not
agree. The claims of the ’999 patent do not improve the
functioning of the computer, make it operate more efficiently, or solve any technological problem. Instead, they
recite a purportedly new arrangement of generic information that assists traders in processing information more
quickly. E.g., ’999 patent at 2:39–41. We conclude that the
claims are directed to the abstract idea of graphing bids
and offers to assist a trader to make an order.
At step two, we “consider the elements of each claim
both individually and ‘as an ordered combination’ to determine whether the additional elements ‘transform the nature of the claim’ into a patent eligible application.” Alice,
573 U.S. at 218 (quoting Mayo, 566 U.S. at 78–79). Step

Case: 17-2257

16

Document: 111

Page: 16

Filed: 04/18/2019

TRADING TECHNOLOGIES INT'L v. IBG LLC

two “looks more precisely at what the claim elements add”
to determine if “they identify an inventive concept in the
application of the ineligible matter to which . . . the claim
is directed.” SAP Am., Inc. v. InvestPic, LLC, 898 F.3d
1161, 1167 (Fed. Cir. 2018) (internal quotation marks omitted). The abstract idea itself cannot supply the inventive
concept, “no matter how groundbreaking the advance.” Id.
at 1171.
The Board held that the claims do not contain an inventive concept. It determined that receiving market information is simply routine data gathering, and displaying
information as indicators along a scaled price axis is wellunderstood, routine, conventional activity that does not
add something significantly more to the abstract idea.
J.A. 28, No. 18-1063 (citing, e.g., J.A. 2804, 3301, 3379–80,
No. 18-1063). It likewise determined that selecting and
moving an icon is well-understood, routine, conventional
activity. J.A. 28–29, No. 18-1063 (citing J.A. 3871–73, No.
18-1063). It considered the elements both individually and
as an ordered combination and concluded they did not
transform the claim into a patent eligible application of the
abstract idea. We agree.
B. The ’056 Patent
The parties treat claim 1 of the ’056 patent as representative except as to dependent claims 5–7. Like the ’999
patent, the Board at step one determined claim 1 is directed to “the abstract idea of graphing (or displaying) bids
and offers to assist a trader to make an order.” J.A. 20–21,
No. 17-2257. We agree. In claim 1 of the ’056 patent, the
preamble states the claim is a “method of operation used
by a computer for displaying transactional information and
facilitating trading.” The method steps require “receiving
bid and offer information,” “displaying” bid and offer indicators associated with the information, “receiving a user
input indicating a default quantity,” “receiving” a selection
of a price along the price axis, and “sending” the order.

Case: 17-2257

Document: 111

Page: 17

TRADING TECHNOLOGIES INT'L v. IBG LLC

Filed: 04/18/2019

17

We see no meaningful difference between these limitations and the similar limitations of claim 1 in the ’999 patent and thus reach the conclusion that it too is directed to
an abstract idea. While the claims disclose different ways
of submitting orders and use slightly different terminology,
these differences have no effect on our eligibility determination at step one.
At step two, the Board held the elements, both individually and as an ordered combination, do not recite an inventive concept. TT argues the claims improve computer
functionality by improving on the intuitiveness and efficiency of prior GUI tools. The specification makes clear
that this invention helps the trader process information
more quickly. This is not an improvement to computer
functionality, as alleged by TT. We see no merit to TT’s
argument and affirm the Board’s conclusion that claims 1–
4 and 8–15 are patent ineligible.
TT separately argues that the additional limitations of
dependent claims 5–7 render the claims eligible. Claim 5
depends from claim 1 and further recites “displaying an order icon at a location that corresponds to the desired price
level along the price axis, the order icon indicating the
user’s order at the electronic exchange.” Claims 6 and 7
each depend from claim 5 and recite further details about
the bid and offer indicators and the order icon. TT argues
the “order icon” of claim 5 must be a distinct icon from the
bid and offer indicators. These limitations do not change
our analysis, as simply displaying all the bids and offers in
the aggregate, including the user’s bids and offers, is not
enough.
We have considered TT’s arguments and find them to
be without merit.
C. The ’374 Patent
At step one, the Board held that claim 1 of the ’374 patent is directed to the abstract idea of receiving user input

Case: 17-2257

18

Document: 111

Page: 18

Filed: 04/18/2019

TRADING TECHNOLOGIES INT'L v. IBG LLC

to send a trade order. It explained that “claim 1 only minimally requires collecting and analyzing information and
includes no requirement that any of that information is displayed. J.A. 16, No. 17-2621. This is because the claims
require “displaying . . . graphical locations along an axis”
but do not require the graphical locations to display the
price levels that are mapped to them. Based on the Board’s
understanding, the graphical locations need not provide
any information to the user. This understanding of claim
1 was laid out in the institution decision, and TT did not
dispute it.
Much of TT’s argument at step one is the same as its
argument that the patent is for a technological invention.
It argues claim 1 recites a specific, structured GUI that
solves the price-flipping problem of prior art interfaces. It
argues that such an improvement over prior art interfaces
inherently improves the functioning of a computer. These
arguments are unavailing.
TT had an opportunity to dispute the Board’s characterization of the claims after institution but chose not to do
so. We agree with the Board that claim 1 is directed to the
abstract idea of receiving a user input to send a trade order.
At step two, the Board held the elements of claim 1,
individually or as an ordered combination, do not add an
inventive concept. It noted that the specification discloses
that the invention can be implemented “on any existing or
future terminal or device” and describes the programming
as insignificant. J.A. 20, No. 17-2621 (citing ’374 patent at
4:4–7, 4:60–67). It also noted that TT acknowledged that
conventional GUIs for electronic trading permitted a
trader to send an order electronically. J.A. 20, No. 17-2621
(citing J.A. 269, No. 17-2621).
TT repeats its argument that claim 1 improves computer functionality by solving technological problems with
prior art electronic trading interfaces. But as previously
explained, claim 1 does not solve any purported

Case: 17-2257

Document: 111

Page: 19

Filed: 04/18/2019

TRADING TECHNOLOGIES INT'L v. IBG LLC

19

technological problem. We have considered TT’s remaining
arguments with regard to claim 1 and the dependent
claims and find them to be without merit.
III. Prior Decisions
TT argues that because non-precedential decisions of
this court held that other TT patents were for technological
inventions or claimed eligible subject matter, we should
too. We are not bound by non-precedential decisions at all,
much less ones to different patents, different specifications,
or different claims. Each panel must evaluate the claims
presented to it. Eligibility depends on what is claimed, not
all that is disclosed in the specification. See Data Engine
Techs. LLC v. Google LLC, 906 F.3d 999, 1011–12 (Fed. Cir.
2018) (holding a claim from one patent ineligible and
claims from other patents that shared a specification eligible).
IV. Constitutionality of CBM Review
TT argues the decisions should all be vacated because
CBM review is unconstitutional. In a total of four sentences in each of its opening briefs, TT raises challenges
based on a right to a jury under the Seventh Amendment,
separation of powers under Article III, the Due Process
Clause, and the Taking Clause. Such a conclusory assertion with no analysis to the underlying challenge is insufficient to preserve the issue for appeal. See United States
v. Great Am. Ins. Co. of N.Y., 738 F.3d 1320, 1328 (Fed. Cir.
2013) (“It is well established that arguments that are not
appropriately developed in a party’s briefing may be
deemed waived.”); SmithKline Beecham Corp. v. Apotex
Corp., 439 F.3d 1312, 1320 (Fed. Cir. 2006) (holding that
“mere statements of disagreement . . . do not amount to a
developed argument” sufficient to preserve the issue). We
decline to address TT’s constitutional challenges.

Case: 17-2257

20

Document: 111

Page: 20

Filed: 04/18/2019

TRADING TECHNOLOGIES INT'L v. IBG LLC

CONCLUSION
We have considered TT’s other arguments and find
them unpersuasive. For the foregoing reasons, we conclude
that the patents at issue are CBM eligible and that claims
1–15 of the ’056 patent, claims 1–35 of the ’999 patent, and
claims 1–36 of the ’374 patent are ineligible. In light of this
conclusion, we need not address Petitioners’ separate
ground that the claims of the ’056 patent would have been
obvious.
AFFIRMED

Appendix

Trials@uspto.gov
Tel: 571-272-7822

Paper 44
Entered: August 7 2017

UNITED STATES PATENT AND TRADEMARK OFFICE
__________________
BEFORE THE PATENT TRIAL AND APPEAL BOARD
__________________
IBG LLC,
INTERACTIVE BROKERS LLC, TRADESTATION GROUP, INC., and
TRADESTATION SECURITIES, INC.,
Petitioner,
v.
TRADING TECHNOLOGIES INTERNATIONAL, INC.,
Patent Owner.
__________________
Case CBM2016-00051
Patent 7,904,374 B2
_______________
Before SALLY C. MEDLEY, MEREDITH C. PETRAVICK, and
JEREMY M. PLENZLER, Administrative Patent Judges.
PLENZLER, Administrative Patent Judge.

FINAL WRITTEN DECISION
Covered Business Method Patent Review
35 U.S.C. § 328(a) and 37 C.F.R. § 42.73

CBM2016-00051
Patent 7,904,374 B2
INTRODUCTION
A. Background
IBG LLC, Interactive Brokers LLC, TradeStation Group, Inc., and
TradeStation Securities, Inc. (collectively, “Petitioner”) filed a Petition on
March 29, 2016 requesting covered business method patent review of claims
1–36 (the “challenged claims”) of U.S. Patent No. 7,904,374 B2 (Ex. 1001,
“the ’374 patent”). Paper 3 (“Pet.”). On July 5, 2016, Trading Technologies
International, Inc. (“Patent Owner”) filed a Preliminary Response. Paper 8
(“Prelim. Resp.”). On August 17, 2016, we instituted a covered business
method patent review (Paper 11, “Institution Decision” or “Inst. Dec.”)
based upon Petitioner’s assertion that claims 1–36 are directed to patent
ineligible subject matter under 35 U.S.C. § 101. Inst. Dec. 22. Subsequent
to institution, Patent Owner filed a Patent Owner Response (Paper 18, “PO
Resp.”) and Petitioner filed a Reply (Paper 23, “Pet. Reply”) to Patent
Owner’s Response. Pursuant to our authorization, Patent Owner filed an
additional submission addressing the Federal Circuit’s holding in
Technologies International, Inc., v. CQG, Inc., No. 2016-1616, 2017 WL
192716 (Fed. Cir. Jan. 18, 2017) (“CQG”) (Paper 29, “PO Add’l Sub.”), and
Petitioner filed a reply to that submission (Paper 30). Petitioner filed a
Motion to Exclude Evidence (Paper 31), and Patent Owner also filed a
Motion to Exclude Evidence (Paper 34).
We held a joint hearing of this case and several other related cases on
May 3, 2017. Paper 43 (“Tr.”).
We have jurisdiction under 35 U.S.C. § 6. This Final Written
Decision is issued pursuant to 35 U.S.C. § 328(a) and 37 C.F.R. § 42.73.
For the reasons that follow, we determine that Petitioner has shown

2

CBM2016-00051
Patent 7,904,374 B2
sufficiently that claims 1–36 of the ’374 patent are directed to patent
ineligible subject matter under 35 U.S.C. § 101.
B. Related Proceedings
The parties indicate numerous related U.S. district court proceedings,
including at least one proceeding specifically directed to the ’374 patent.
Pet. 2; Paper 6, 1–5.
Numerous patents are related to the ’374 patent and the related patents
are or were the subject of numerous petitions for covered business method
patent review and reexamination proceedings. As noted above, the Federal
Circuit has issued a non-precedential decision, CQG, which addresses
whether claims of U.S. Patent Nos. 6,766,304 (“the ’304 patent”) and
6,772,132 (“the ’132 patent”) are patent eligible under § 101. The ’374
patent at issue in this case is related to the ’132 and ’304 patents via
continuation and divisional filings.
C. Asserted Grounds
Petitioner contends that the challenged claims are unpatentable under
35 U.S.C. § 101. Pet. 27–50.
D. The ’374 Patent
The ’374 patent is titled “Click Based Trading with Intuitive Grid
Display of Market Depth.” Ex. 1001, (54). The ’374 patent describes a
display, named the “Mercury” display, and method of using the display to
trade a commodity. Id. at Abstract, 3:5–10. The ’374 patent explains that
the Mercury display is a graphic user interface (“GUI”) that dynamically
displays the market depth of a commodity traded in a market and allows a
trader to place an order efficiently. Id. at 3:11–20. The Mercury display is
depicted in Figure 3, which is reproduced below.

3

CBM2016-00051
Patent 7,904,374 B2

Figure 3 of the ’374 patent illustrates an example of the Mercury display
with example values for trading a commodity, including prices, bid and ask
quantities relative to price, and trade quantities.
The Mercury display includes a plurality of columns. Column 1005 is
a static price axis, which includes a plurality of price values for the
commodity. See id. at 7:23–25. The ’374 patent explains that “[t]he column
does not list the whole prices (e.g. 95.89), but rather, just the last two digits
(e.g. 89).” Id. at 7:25–26. Columns 1003 and 1004 are aligned with the
static price axis and dynamically display bid and ask quantities, respectively,
for the corresponding price values of the static price axis. See id. at 7:23–37.
The ’374 patent explains that “[t]he exchange sends the price, order and fill
information to each trader on the exchange” and that “[t]he physical

4

CBM2016-00051
Patent 7,904,374 B2
mapping of such information to a screen grid can be done by any technique
known to those skilled in the art.” Id. at 4:59–66.
Column 1002 contains various parameters and information used to
execute trades, such as the default quantity displayed in cell 1016. See id. at
7:55–8:23. A trader executes trades using the Mercury display by first
setting the desired commodity and default parameters, such as default
quantity. See id. at 8:56–9:3; Fig. 6, step 1302. Then, a trader can send a
buy order or sell order to the market with a single action, such as clicking on
the appropriate cell in column 1003 or 1004. See id. at 8:60–9:48; Fig. 6,
steps 1306–1315.
E. Illustrative Claim
As noted above, Petitioner challenges claims 1–36. Claims 1 and 36
are independent, with claims 2–35 depending from claim 1. Claim 1 is
representative, and is reproduced below:
1. A method for facilitating trade order entry, the method
comprising:
receiving, by a computing device, market data for a
commodity, the market data comprising a current highest
bid price and a current lowest ask price available for the
commodity;
identifying, by the computing device, a plurality of sequential
price levels for the commodity based on the market data,
where the plurality of sequential price levels includes the
current highest bid price and the current lowest ask price;
displaying, by the computing device, a plurality of graphical
locations aligned along an axis, where each graphical
location is configured to be selected by a single action of
a user input device to send a trade order to the electronic
exchange, where a price of the trade order is based on the
selected graphical location;

5

CBM2016-00051
Patent 7,904,374 B2
mapping, by the computing device, the plurality of sequential
price levels to the plurality of graphical locations, where
each graphical location corresponds to one of the plurality
of sequential price levels, where each price level
corresponds to at least one of the plurality of graphical
locations, and where mapping of the plurality of sequential
price levels does not change at a time when at least one of
the current highest bid price and the current lowest ask
price changes; and
setting a price and sending the trade order to the electronic
exchange in response to receiving by the computing
device commands based on user actions consisting of:
(l) placing a cursor associated with the user input device
over a desired graphical location of the plurality of
graphical locations and (2) selecting the desired graphical
location through a single action of the user input device.
Ex. 1001, 11:39–12:5.

ANALYSIS
A. Claim Construction
In a covered business method patent review, claim terms are given
their broadest reasonable interpretation in light of the specification in which
they appear and the understanding of others skilled in the relevant art. See
37 C.F.R. § 42.300(b).
Applying that standard, we interpret the claim terms of the ’374 patent
according to their ordinary and customary meaning in the context of the
patent’s written description. See In re Translogic Tech., Inc., 504 F.3d 1249,
1257 (Fed. Cir. 2007). Any special definitions for claim terms must be set
forth with reasonable clarity, deliberateness, and precision. In re Paulsen,
30 F.3d 1475, 1480 (Fed. Cir. 1994). Petitioner proposes constructions for
several terms (Pet. 24–27), and Patent Owner does not propose any explicit
6

CBM2016-00051
Patent 7,904,374 B2
claim construction. We determine that no term requires explicit construction
in order to conduct properly our analysis of the asserted challenge.
B. Covered Business Method Patent
Section 18 of the AIA 1 provides for the creation of a transitional
program for reviewing covered business method patents. A “covered
business method patent” is a patent that “claims a method or corresponding
apparatus for performing data processing or other operations used in the
practice, administration, or management of a financial product or service,
except that the term does not include patents for technological inventions.”
AIA § 18(d)(1); see 37 C.F.R. § 42.301(a). A patent need have only one
claim directed to a covered business method to be eligible for review. See
Transitional Program for Covered Business Method Patents—Definitions of
Covered Business Method Patent and Technological Invention, 77 Fed. Reg.
48,734, 48,736 (Aug. 14, 2012) (“CBM Rules”) (Comment 8).
Based on the record before us, we are apprised of no reason to change
the determination in our Institution Decision that at least claim 1 of the ’374
patent is directed to a covered business method. Inst. Dec. 11–16.
1. Data Processing or Other Operations used in a Financial
Product or Service
Petitioner contends that “the ’374 patent claims expressly require the
performance of a financial transaction, e.g., by ‘facilitating trade order entry’
through steps including ‘receiving market data for a commodity,’ and
‘setting a price and sending the trade order to the electronic exchange.’” Pet.

1

Leahy-Smith America Invents Act, Pub. L. No. 112–29, 125 Stat. 284, 329
(2011) (“AIA”).
7

CBM2016-00051
Patent 7,904,374 B2
17 (citing claim 1 of the ’374 patent). Based on this record, we agree with
Petitioner that these activities are financial in nature.
Patent Owner does not dispute that the claims are directed to a
financial product or service and, instead, contends that the claims are not
directed to “data processing” or “other operations” of the financial product
or service. PO Resp. 62–70. Patent Owner’s contentions are unpersuasive.
Claim 1 encompasses processing financial data associated with a
commodity and processing financial data for sending a trade order for a
commodity to an exchange. See Ex. 1001, 4:60–64 (“The present invention
processes this information and maps it . . . to a screen.”); 10:52–54 (“[t]he
process for placing trade orders using the Mercury display”). This
processing of financial data is used in the practice, administration, or
management of a commodity, which is a financial product, and in the
practice, administration, or management of electronic trading with an
exchange, which is a financial service or activity.
Even if there is some disagreement as to whether claim 1 includes
“data processing,” there appears to be no disagreement that at least the steps
noted above are operations used in the practice, administration, or
management of a commodity or trading a commodity on an electronic
exchange. See PO Resp. 66–70 (discussing only whether the ’374 patent
claims “data processing”). The ’374 patent, therefore, at least claims “other
operations used in the practice, administration, or management of a financial
product or financial service” (AIA § 18(d)(1)).
Patent Owner additionally contends that the Legislative History
confirms that the claimed invention is not a covered business method. PO
Resp. 74–77. We are not persuaded by Patent Owner’s argument. The

8

CBM2016-00051
Patent 7,904,374 B2
language of the AIA, as passed, does not include an exemption for all user
interfaces for trading commodities from covered business method patent
review. See Unwired Planet, LLC v. Google Inc., 841 F.3d 1376, 1381–82
(Fed. Cir. 2016) (extra-statutory sources are not persuasive when the plain
words of the statute do not support such additional interpretive phrases).
Each patent has to be evaluated individually to determine if it is eligible for
a covered business method patent review. A determination of whether a
patent is eligible for a covered business method patent review under the
statute is made on a case-by-case basis on the facts of each case. 37 C.F.R.
§ 42.301(b).
For the reasons stated above, and based on the particular facts of this
proceeding, we conclude that the ’374 patent “claims a method or
corresponding apparatus for performing data processing or other operations
used in the practice, administration, or management of a financial product or
service” and meets that requirement of § 18(d)(1) of the AIA.
2. Exclusion for Technological Inventions
To determine whether a patent is for a technological invention, we
consider “whether the claimed subject matter as a whole recites a
technological feature that is novel and unobvious over the prior art; and
solves a technical problem using a technical solution.” 37 C.F.R.
§ 42.301(b).
The following claim drafting techniques, for example, typically do not
render a patent a “technological invention”:
(a) Mere recitation of known technologies, such as computer
hardware, communication or computer networks, software,
memory, computer-readable storage medium, scanners, display
devices or databases, or specialized machines, such as an ATM
or point of sale device.
9

CBM2016-00051
Patent 7,904,374 B2
(b) Reciting the use of known prior art technology to accomplish
a process or method, even if that process or method is novel and
non-obvious.
(c) Combining prior art structures to achieve the normal,
expected, or predictable result of that combination.
Office Patent Trial Practice Guide, 77 Fed. Reg. 48,756, 48,763–64 (Aug.
14, 2012).
Both prongs must be satisfied in order for the patent to be excluded as
a technological invention. See Versata Dev. Grp., Inc. v. SAP Am., Inc.,
793 F.3d 1306, 1326–27 (Fed. Cir. 2015).
Petitioner contends that rather than reciting a technical feature that is
novel or unobvious over the prior art, the claims of the ’374 patent generally
recite trading software that is implemented on a conventional computer.
Pet. 19–22. Petitioner additionally asserts that the claims of the ’374 patent
do not fall within § 18(d)(1)’s exclusion for “technological inventions”
because the ’374 patent does not solve a technical problem using a technical
solution. Pet. 22–24. Patent Owner disagrees (PO Resp. 71–74), but fails to
explain how the claimed subject matter recites a technological feature that is
novel and unobvious over the prior art or solves a technical problem using a
technical solution.
We are persuaded by Petitioner’s contentions that at least claim 1 of
the ’374 patent does not recite a novel and non-obvious technological
feature. The specification of the ’374 patent treats as well-known all
potentially technological aspects of the claims. For example, the ’374 patent
discloses that its system can be implemented “on any existing or future
terminal or device” (Ex. 1001, 4:4–7), each of which is known to include a
display, and discloses that the input device can be a mouse (id. at 4:8–11),

10

CBM2016-00051
Patent 7,904,374 B2
which is a known input device. The ’374 patent further discloses that “[t]he
scope of the present invention is not limited by the type of terminal or device
used.” Id. at 4:7–8. The ’374 patent explains that the programming
associated with the GUI is insignificant. See, e.g., Ex. 1001, 4:60–67
(explaining that the “present invention processes [price, order, and fill]
information and maps it through simple algorithms and mapping tables to
positions in a theoretical grid program” and “[t]he physical mapping of such
information to a screen grid can be done by any technique known to those
skilled in the art”).
Petitioner notes that the ’374 patent “purports to minimize the risk of
the market price changing before the trade is executed, such that the trader
‘misses the price.’” Pet. 22 (citing Ex. 1001, 2:57–59; 3:2–4). Petitioner
argues that “contending with price fluctuations in a market is not a
technological problem.” Id. Petitioner contends that “the ’374 patent does
not offer a technical solution” because “[i]t does not claim a more accurate
mouse or a computer that responds faster.” Id. at 23.
We are persuaded that the ’374 patent does not solve a technical
problem with a technical solution. As written, claim 1 requires the use of
only known technology. Moreover, we do not see how claim 1, for example,
even solves the problem alleged by Patent Owner (i.e., missing an intended
price). See, e.g., Ex. 2169 ¶ 77. Given this, we determine that at least claim
1 does not solve a technical problem using a technical solution and at least
claim 1 does not satisfy the second prong of 37 C.F.R. § 42.301(b).

11

CBM2016-00051
Patent 7,904,374 B2
3. Conclusion
In view of the foregoing, we conclude that the ’374 patent is a covered
business method patent under AIA § 18(d)(1) and is eligible for review
using the transitional covered business method patent program.
C. Section 101 Patent-Eligible Subject Matter
Petitioner challenges claims 1–36 as directed to patent-ineligible
subject matter under 35 U.S.C. § 101. Pet. 28–50. Patent Owner disagrees.
PO Resp. 12–62.
Under 35 U.S.C. § 101, we must first identify whether an invention
fits within one of the four statutorily provided categories of patenteligibility: “processes, machines, manufactures, and compositions of
matter.” Ultramercial, Inc. v. Hulu, LLC, 772 F.3d 709, 713–14 (Fed. Cir.
2014).
There is no dispute that claims 1–35 fit within one of the categories of
patent-eligibility. Petitioner asserts, however, that “claim 36 of the ’374
patent is invalid because it encompasses subject matter that does not fall into
any of the four statutory classes of § 101.” Pet. 48. Claim 36 recites a
“computer readable medium having stored therein instructions.” Petitioner
contends that “the BRI of ‘medium,’ as used in claim 36 of the ’374 patent
. . . is broad enough to cover substances ‘such as wires, air, or a vacuum’
through which transitory electrical signals can propagate.” Pet. 49 (citing In
re Nuijten, 550 F.3d 1346, 1352 (Fed. Cir. 2007)); Pet. Reply 24.
Patent Owner responds that there is no evidence to support
Petitioner’s contention that one skilled in the art would have understood
“computer readable medium having stored therein instructions” to
encompass a signal at the time of the invention. PO Resp. 61–62. Petitioner

12

CBM2016-00051
Patent 7,904,374 B2
responds to Patent Owner’s contentions by simply asserting that “the Board
correctly found that the BRI of a ‘computer readable medium’ encompasses
transitory media” and “[n]othing in the specification limits a broad
application of this definition.” Pet. Reply 24.
Petitioner’s response is unhelpful. In our Institution Decision, we
explicitly noted that our construction was preliminary and specifically
indicated that “[t]he broadest reasonable interpretation, in light of the
specification, of ‘stored’ is an issue that requires further development of the
record.” Inst. Dec. 9. In its Reply, Petitioner cites no evidence to rebut
Patent Owner’s contentions regarding how one skilled in the art would have
understood the claim language at issue at the time of the invention. In fact,
Petitioner does not even acknowledge those contentions. At oral hearing,
when asked why no evidence was provided in this regard, Petitioner had no
explanation other than “it would be difficult . . . because this is a term of art
in the patent field” and “you can[not] go to an IEEE dictionary and find
necessarily a dictionary definition that would be helpful here.” Tr. 71:4–10.
Accordingly, on this record, which is absent any further evidence or
meaningful argument from Petitioner, we are not persuaded that at the time
of the invention one skilled in the art would have understood “computer
readable medium having stored therein instructions” as encompassing
transitory, propagating signals.
Nevertheless, we are persuaded that claims 1–36 do not recite patenteligible subject matter for the reasons that follow.
1. Abstract Idea
Section 101 “contains an important implicit exception [to subject
matter eligibility]: Laws of nature, natural phenomena, and abstract ideas

13

CBM2016-00051
Patent 7,904,374 B2
are not patentable.” Alice Corp. Pty. Ltd. v. CLS Bank. Int’l, 134 S. Ct.
2347, 2354 (2014) (quoting Assoc. for Molecular Pathology v. Myriad
Genetics, Inc., 133 S. Ct. 2107, 2116 (2013)). In Alice, the Supreme Court
reiterated the framework set forth previously in Mayo Collaborative Services
v. Prometheus Labs., Inc., 566 U.S. 66, 70–71 (2012), “for distinguishing
patents that claim laws of nature, natural phenomena, and abstract ideas
from those that claim patent-eligible applications of those concepts.” Alice,
134 S. Ct. at 2355. The first step in the analysis is to “determine whether the
claims at issue are directed to one of those patent-ineligible concepts.” Id.
Claim 1 is “[a] method for facilitating trade order entry” and recites
“receiving . . . market data,” “identifying . . . sequential price levels,”
“displaying . . . graphical locations along an axis,” “mapping . . . the . . .
sequential price levels to the . . . graphical locations,” and “setting a price
and sending the trade order.” 2 In our Institution Decision, we specifically
set forth our understanding of the limitations noted above, explaining that
claim 1 “do[es] not require that the graphical locations display the price
levels that are mapped to them, any other information, or even any
indication as to which of those graphical locations correspond to bids and
which correspond to asks.” Inst. Dec. 10–11. We further explained that,
based on our understanding of the claim language, the “claims provide [no]
indication to a user of market information, such as price, order quantity, or
order type” and “the graphical locations simply could be ‘black boxes’ with
price values associated with them, and no information provided to the user
2

The following discussion addresses claim 1, with the understanding that
the discussion applies equally to claim 36, which recites a computer readable
medium having instructions to execute a method substantially the same as
the method of claim 1.
14

CBM2016-00051
Patent 7,904,374 B2
indicating that price value, the order quantity, or the order type.” Id. Patent
Owner does not dispute our understanding of the claims, which, as noted
above, was set forth explicitly in our Institution Decision.
“The ‘abstract idea’ step of the inquiry calls upon us to look at the
‘focus of the claimed advance over the prior art’ to determine if the claim’s
‘character as a whole’ is directed to excluded subject matter.’” Affinity Labs
of Texas v. DirectTV, LLC, 838 F.3d 1253, 1257 (Fed. Cir. 2016) (citations
omitted). There is no definitive rule to determine what constitutes an
“abstract idea.” Rather, the Federal Circuit has explained that “both [it] and
the Supreme Court have found it sufficient to compare claims at issue to
those claims already found to be directed to an abstract idea in previous
cases.” Enfish, LLC v. Microsoft Corp., 822 F.3d 1327, 1334 (Fed. Cir.
2016); see also Amdocs (Israel) Ltd. v. Openet Telecom, Inc., 841 F.3d 1288,
1294 (Fed. Cir. 2016) (explaining that, in determining whether claims are
patent-eligible under § 101, “the decisional mechanism courts now apply is
to examine earlier cases in which a similar or parallel descriptive nature can
be seen—what prior cases were about, and which way they were decided”).
As explained in our Institution Decision, “these claims are drafted at such a
high level of abstraction that it is difficult to imagine the bounds of their
application.” Inst. Dec. 11.
Petitioner argues that the challenged claims “are directed to the
abstract, fundamental economic practice of trading based on displayed
market information and user input.” Pet. 29. In our Institution Decision, we
specifically indicated that “the concept embodied by the majority of the
limitations appears to be even broader than that suggested by Petitioner,”
stating that independent claims 1 and 36 are directed to “the abstract idea of

15

CBM2016-00051
Patent 7,904,374 B2
receiving user input and placing a trade order.” Inst. Dec. 19. Patent Owner
responds to our characterization of the claims by alleging, generally, and
without meaningful explanation, that “the ’374 patent does not simply claim
its invention to be the concept of . . . ‘receiving user input and placing a
trade order,’ the PTAB’s purported abstract idea.” PO Resp. 2 (citing Inst.
Dec. 19); see also id. at 51 (“Nor are the claims directed to ‘receiving user
input and placing a trade order,’ the PTAB’s purported abstract idea.”
(citing Inst. Dec. 19)).
As noted above, claim 1 only minimally requires collecting and
analyzing information and includes no requirement that any of that
information is displayed. Even collecting, analyzing, and displaying
information, by itself, however, does not remove claims from abstraction.
See, e.g., Elec. Power Grp., LLC v. Alstom S.A., 830 F.3d 1350, 1353–54
(Fed. Cir. 2016). To the extent claim 1 requires a GUI, it does so in the most
basic sense, only requiring generic graphical locations that are selectable by
a user. Claims that require a GUI are not automatically patent eligible.
Affinity Labs, 838 F.3d at 1255–56; Apple, Inc., v. Ameranth, Inc., 842 F.3d
1229, 1234 (Fed. Cir. 2016). In both Affinity Labs and Ameranth, the court
determined that the claims were not directed to a particular way of
programming or designing the software, but instead merely claim the
resulting systems, and determined that the claims are not directed to a
specific improvement in the way computers operate. Affinity Labs, 838 F.3d
at 1260–61; Ameranth, 842 F.3d at 1241. The same is true here in that the
claims are not directed to any particular way of programming or designing
software, but merely claim the resulting system and not any specific
improvement in the way a computer operates.

16

CBM2016-00051
Patent 7,904,374 B2
Patent Owner only discusses, generally, patent eligibility requirements
under § 101, without explaining how that discussion applies to the specific
claim limitations of the ’374 patent. See, e.g., PO Resp. 1–17, 23–33.
Patent Owner, instead, continually alleges that the claims are directed to a
specific graphical user interface. See, e.g., PO Resp. 1 (“The claims of the
’374 patent are patent eligible because they are not directed to an “abstract
idea,” but are instead directed to the specific structure, makeup, and
functionality of a technological graphical user interface (“GUI”) tool that
can be used for electronic order entry.”), 10 (“TT’s claims are directed to a
specific implementation—that is, a specific GUI.”), 12 (“[T]he ’374 patent
claims are patent eligible because they claim the construction of a specific
GUI . . . .”), 23 (“TT’s claims set forth a particular way to construct a
specific GUI with specific structure, makeup, and functionality.”), 27 (“The
claims here are directed to constructing a GUI with a specific structure,
makeup, and functionality that is both a specific means or method and a
particular, practical implementation of an order entry interface.”).
The only reference to specific claim limitations in the Patent Owner
Response related to whether the claim 1 is directed to an abstract idea is a
reproduction of the claim language (PO Resp. 18–22), followed by
conclusory statements, such as “because of this structure, makeup, and
functionality, the mapping of the plurality of sequential price levels does not
change at a time when at least one of the current highest bid price and the
current lowest ask price changes, providing the benefits described in the
specification” (id. at 22). Patent Owner alleges that “[t]his specific
combination of display elements and features differed from the conventional
GUIs at the time of the invention and addressed a specific problem created

17

CBM2016-00051
Patent 7,904,374 B2
by these conventional GUIs, namely, improving accuracy without sacrificing
speed and improving usability.” Id. at 28.
Although Patent Owner provides a table allegedly illustrating how
claim 1 “is constructed to display and function,” that characterization of the
“structure, makeup, and functionality” of the claims is conclusory and
inaccurate. PO Resp. 19–21 (citing Ex.1001, 11:39–12:5; Ex. 2168 ¶ 42).
For example, Patent Owner contends that “[t]he structure of each graphical
location is aligned along the price axis structure on the visual display” and
“[e]ach graphical location functions such that it is selectable . . . to send a
trade order . . . at the price aligned with the selected graphical location.” Id.
at 20 (emphasis added). The testimony from Mr. Gould Bear cited by Patent
Owner is simply a reproduction of the table spanning pages 19–22 of the
Patent Owner Response. Ex. 2168 ¶ 42. Claim 1, however, recites “an
axis,” not “a price axis,” and does not require any display of price
information or any other specific type of information. 3
As for Patent Owner’s arguments that we should follow the Federal
Circuit’s guidance in CQG (See PO Add’l Sub. 1–5), comparing the claims
of the patents involved in CQG with those in the ’374 patent is not
particularly helpful here. Although the ’374 patent shares a specification
with the patents at issue in CQG, the claims at issue in the ’374 patent are
much broader. In its additional submission, Patent Owner contends that “the
’374 patent claims are in some respects narrower than the claims of the ’132
and ’304 patents,” which were at issue in CQG. PO Add’l Sub. 5. Patent
3

Patent Owner clearly knew how to claim a price axis, but chose not to
limit the claims in that manner in the ’374 patent. See Ex. 2111, 12:44
(earlier filed patent claiming a “price axis” in the same chain of continuation
filings that resulted in the ’374 patent).
18

CBM2016-00051
Patent 7,904,374 B2
Owner reproduces portions of claim 1 from the ’374 patent that recite the
features of “setting a price and sending the trade order to the electronic
exchange” in that claim. Id. Patent Owner offers no explanation, however,
as to how that claim language makes claim 1 of the ’374 patent narrower, in
a meaningful way, than what is recited in the ’132 or ’304 patent claims.
The ’304 patent, for example, recites a similar limitation (“setting a plurality
of parameters for a trade order . . . and sending the trade order to the
electronic exchange”) as well as numerous other limitations not found in
claim 1 of the ’374 patent.
Accordingly, comparing the claims at issue in this proceeding with
those addressed in CQG is not particularly helpful here, particularly when
the court implied that even those narrower claims of the ’132 and ’304
patents are on the line between patent eligibility and ineligibility (see CQG,
2017 WL 192716, at *4 (noting the “close question[] of eligibility”)).
As explained above, claim 1 is simply directed to receiving user input
to send a trade order. There is no dispute that receiving user input and
placing a trade order, a fundamental economic practice, is an abstract idea.
2. Inventive Concept
Next we turn to “the elements of each claim both individually and ‘as
an ordered combination’ to determine whether the additional elements
‘transform the nature of the claim’ into a patent-eligible application.” Alice,
134 S. Ct. at 2355 (quoting Mayo, 566 U.S. at 78–79). The additional
elements must be more than “well-understood, routine, conventional
activity.” Id. at 1298. On this record, we are persuaded that the challenged
claims of the ’374 patent do not add an inventive concept sufficient to ensure

19

CBM2016-00051
Patent 7,904,374 B2
that the patent in practice amounts to significantly more than a patent on the
abstract idea itself. See Pet. 33–44.
As noted above, the specification of the ’374 patent treats as wellknown all potentially technological aspects of the claims. For example, the
’374 patent discloses that its system can be implemented “on any existing or
future terminal or device” (Ex. 1001, 4:4–7), each of which is known to
include a display, and discloses that the input device can be a mouse (id. at
4:8–11), which is a known input device. The ’374 patent further discloses
that “[t]he scope of the present invention is not limited by the type of
terminal or device used.” Id. at 4:7–8. The ’374 patent also describes the
programming associated with the GUI as insignificant. See, e.g., id. at 4:60–
67 (explaining that “present invention processes [price, order, and fill]
information and maps it through simple algorithms and mapping tables to
positions in a theoretical grid program” and “[t]he physical mapping of such
information to a screen grid can be done by any technique known to those
skilled in the art”).
Patent Owner acknowledges that “prior art GUIs provided the ability
to enter and send order messages to an electronic exchange using . . . order
entry screens,” and specifically references the Figure 2 “conventional GUI
tool” described in the ’374 patent. PO Resp. 13. Patent Owner does not
appear to contend that anything in the claim is unconventional other than,
perhaps, that the “mapping of the plurality of sequential price levels does not
change at a time when at least one of the current highest bid price and the
current lowest ask price changes.” 4 See, e.g., Ex. 2169 ¶¶ 43–69. That,
4

Patent Owner explicitly acknowledges that the combination of other
features recited in the claim are conventional in related proceedings
20

CBM2016-00051
Patent 7,904,374 B2
however, does not add an inventive concept, as it simply maintains the
previous association between a given graphical location and its price level.
That limitation simply requires that nothing changes, other than the data that
is received.
Patent Owner argues, however, that “[t]he claims recite an inventive
concept (and thus pass prong II under Alice) at least because they are an
unconventional and revolutionary combination of features” and “the claimed
GUI tool is constructed to provide the claimed structure, function, and
makeup for displaying, mapping, and order entry.” PO Resp. 34. Again, we
note that Patent Owner’s arguments do not address the elements recited in
the claim. Patent Owner discusses DDR Holdings, LLC v. Hotels.com, L.P.,
773 F.3d 1245 (Fed. Cir. 2014), for example, but offers no specific
explanation as to how the claims of the ’374 patent are like those that were
at issue in that case. PO Resp. 38–41. Unlike claim 1 of the ’374 patent, the
court in DDR Holdings determined those claims were not directed to “a
fundamental economic or longstanding commercial practice” or “an
invention that is . . . merely the routine or conventional use of the Internet.”
DDR Holdings, 773 F.3d at 1257, 1259. Rather, the claims in DDR
Holdings were characterized as providing “a result that overrides the routine
and conventional sequence of events ordinarily triggered by the click of a
addressing patents in the same family of continuation filings that resulted in
the ’374 patent. For example, when discussing the Figure 2 “conventional
GUI tool” referenced in the ’374 patent, Patent Owner acknowledged that
“these types of tools permitted ‘single action’ order entry that consisted of a
trader presetting a default quantity and then clicking on a cell in the screen
(i.e., pressing a button on the tool) to cause a trade order message to be sent
to the exchange at the preset quantity and at the price value associated with
that cell.” CBM2014-00136, Paper 18, 7.
21

CBM2016-00051
Patent 7,904,374 B2
hyperlink.” Id. at 1258. As explained above, we see nothing other than
routine and conventional features in claim 1.
Patent Owner fails to identify, and we are not apprised of, an
inventive concept in the claims. Patent Owner does not allege that a specific
claim limitation, or combination of limitations, provides an inventive
concept. As explained above, we are persuaded that the claim does not
include elements that “transform the nature of the claim” into a “patenteligible application.”
Given the above, we determine that the combination of elements of
the claim does not transform the nature of the claim into a patent-eligible
application of the abstract idea. They do not add significantly more to the
abstract idea.
3. Dependent Claims
Petitioner contends that the additional elements recited by dependent
claims 2–35 do not add significantly more to the abstract idea so as to render
the claims patent-eligible. Pet. 39–44. Based on our review of the record
before us, we are persuaded by Petitioner’s contentions regarding claims 2–
35. Those claims further define, for example, the information mapped to the
graphical locations (claims 2–11), the orientation of the graphical locations
on the screen (claims 12, 33, and 34), displaying additional information
(claims 13–18), and features associated with receiving and executing the
user’s command (claims 19, 20, 23–27, and 35). Nothing in those claims
removes them from abstraction or provides an inventive concept sufficient to
save the claims from ineligibility.
Patent Owner addresses only claims 13–15 specifically, noting that
“dependent claims 13–15 recite, inter alia, a first indicator and second

22

CBM2016-00051
Patent 7,904,374 B2
indicator that move relative to the graphical locations” and “[t]his relative
movement provided a significant unexpected improvement over the
preexisting technology.” PO Resp. 29. Patent Owner fails to offer any
persuasive explanation, however, as to why displaying this additional
information makes the claims any less abstract or provides an inventive
concept sufficient to save the claims from ineligibility.
4. Conclusion
Having considered the record before us, we are persuaded that
Petitioner has shown sufficiently that claims 1–36 of the ’374 patent are not
directed to patent eligible subject matter under 35 U.S.C. § 101.
D. Motions to Exclude Evidence
Petitioner moves to exclude Exhibits 2211, 2220, 2222, 2287, and
2292–2296 (the eSpeed/CQG Transcripts); Exhibit 2223 (the Electronic
Trader Declarants Exhibit); Exhibit 2214 (Animation); Exhibit 2169 ¶¶ 71,
79, 80, 83–86, 92–95, and 100–102 (Confidential Declaration of Christopher
Thomas); and Exhibits 2206, 2207, 2415, 2416, 2250, and 2279–2282
(Documents from District Court Cases). Paper 31, 2–10. Patent Owner
moves to exclude Exhibit 1003 (TSE) and Exhibit 1009 (the transcript of
Mr. Kawashima’s testimony). Paper 34, 1.
Petitioner’s Motion to Exclude Evidence and Patent Owner’s Motion
to Exclude Evidence are dismissed because we do not rely on the Exhibits or
portions of the Exhibits addressed by those motions in reaching our
Decision.

23

CBM2016-00051
Patent 7,904,374 B2
ORDER
For the reasons given, it is:
ORDERED that claims 1–36 of the ’374 patent are unpatentable;
FURTHER ORDERED that Petitioner’s Motion to Exclude Evidence
is dismissed;
FURTHER ORDERED that Patent Owner’s Motion to Exclude
Evidence is dismissed; and
FURTHER ORDERED that, because this is a Final Written Decision,
parties to the proceeding seeking judicial review of the Decision must
comply with the notice and service requirements of 37 C.F.R. § 90.2.

PETITIONER:
John C. Phillips
Kevin Su
Michael T. Rosato
FISH & RICHARDSON P.C.
CBM41919-0013CP1@fr.com
PTABInbound@fr.com
mrosato@wsgr.com

PATENT OWNER:
Leif Sigmond
Cole Richter
MCDONNELL, BOEHNEN, HULBERT & BERGHOFF LLP
sigmond@mbhb.com
richter@mbhb.com

24

Appendix

Trials@uspto.gov
Tel: 571-272-7822

Paper 143
Entered: February 17, 2017

UNITED STATES PATENT AND TRADEMARK OFFICE
_______________
BEFORE THE PATENT TRIAL AND APPEAL BOARD
_______________
IBG LLC, INTERACTIVE BROKERS LLC,
TRADESTATION GROUP, INC., TRADESTATION SECURITIES, INC.,
TRADESTATION TECHNOLOGIES, INC., and IBFX, INC.,
Petitioner,
v.
TRADING TECHNOLOGIES INTERNATIONAL, INC.,
Patent Owner.
____________
CBM 2015-00179
Patent 7,533,056 B2
_______________

Before SALLY C. MEDLEY, MEREDITH C. PETRAVICK, and
JEREMY M. PLENZLER, Administrative Patent Judges.
MEDLEY, Administrative Patent Judge.

FINAL WRITTEN DECISION
35 U.S.C. § 328(a) and 37 C.F.R. § 42.73

CBM2015-00179
Patent 7,533,056 B2
I. INTRODUCTION
IBG LLC, Interactive Brokers LLC, TradeStation Group, Inc.,
TradeStation Securities, Inc., TradeStation Technologies, Inc., and IBFX,
Inc. (collectively, “Petitioner”) filed a Petition requesting a covered business
method patent review of claims 1–15 of U.S. Patent No. 7,533,056 B2 (Ex.
1001, “the ’056 patent”). Paper 9 (“Pet.”). 1 In response, Trading
Technologies International, Inc. (“Patent Owner”) filed a Patent Owner
Preliminary Response. Paper 21 (“Prelim. Resp.”). Upon consideration of
the Petition and Preliminary Response, we instituted trial as to claims 1–15 of
the ’056 patent. Paper 23 (“Dec.”).
Subsequent to institution, Patent Owner filed a Corrected Patent
Owner Response (Paper 81 (“PO Resp.”)) and Petitioner filed a Reply (Paper
110 (“Pet. Reply”)). Petitioner filed a Motion to Exclude (Paper 116 (“Pet.
Mot. to Exclude”)) Exhibits 2300, 2301, 2304–2316, 2318–2324, 2326–
2330, 2030, and 2032. Patent Owner filed an Opposition to the Motion to
Exclude (Paper 117 (“PO Exclude Opp.”)), and Petitioner filed a Reply
(Paper 120 (“Pet. Exclude Reply”)).
Patent Owner filed a Motion to Exclude (Paper 114 (“PO Mot. to
Exclude”)) Exhibits 1003, 1007, and portions of Exhibits 1059 and 1060.
Petitioner filed an Opposition to the Motion to Exclude (Paper 118 (“Pet.
Exclude Opp.”)), and Patent Owner filed a Reply (Paper 121 (“PO Exclude
Reply”)).
1

CQG, Inc. and CQGT, LLC, originally part of “Petitioner,” settled with
Patent Owner. The proceeding was terminated with respect to CQG, Inc. and
CQGT, LLC. Paper 27.
2

CBM2015-00179
Patent 7,533,056 B2
An oral hearing was held on October 19, 2016, and a transcript of the
hearing is included in the record (Paper 134 (“Tr.”)). 2
For the reasons that follow, we determine that Petitioner has shown by
a preponderance of the evidence that claims 1–15 of the ’056 patent are
unpatentable.
A. Related Matters
The ’056 patent is involved in the following lawsuit: TT v. BGC
Partners, Inc., et al., No. 1:10-cv-00715 (N.D. Ill.). Pet. 3. In compliance
with 37 C.F.R. § 42.302(a), Petitioner certifies that it has been sued for
infringement of the ’056 patent. Id. Patent Owner does not challenge
Petitioner’s certification that it has been sued for infringement of the ’056
patent.
B. The ’056 Patent
The Specification of the ’056 patent describes a user interface for an
electronic trading system that allows a remote trader to view trends for an
item, which assists the trader to anticipate demand for an item. Ex. 1001,
2:8–26.

2

After oral hearing, the Federal Circuit issued a decision, Trading
Technologies International, Inc., v. CQG, INC., No. 2016-1616, 2017 WL
192716 (Fed. Cir. Jan. 18, 2017), determining that the subject matter claimed
in two other tangentially related patents to the ’056 patent are patent-eligible
under § 101. Petitioner and Patent Owner, with authorization (Paper 137),
each filed supplemental briefing addressing the impact of that decision on
this proceeding. Paper 138 (“PO Br.”); Paper 140 (“Pet. Br.”).
3

CBM2015-00179
Patent 7,533,056 B2
C. Illustrative Claim
Claim 1 of the ’056 patent is the only independent claim:
1.

A method of operation used by a computer for displaying
transactional information and facilitating trading in a system
where orders comprise a bid type or an offer type, the
method comprising:
receiving bid and offer information for a product from an
electronic exchange, the bid and offer information
indicating a plurality of bid orders and a plurality of offer
orders for the product;
displaying a plurality of bid indicators representing
quantity associated with the plurality of bid orders, the
plurality of bid indicators being displayed at locations
corresponding to prices of the plurality of bid orders
along a price axis;
displaying a plurality of offer indicators representing
quantity associated with the plurality of offer orders, the
plurality of offer indicators being displayed at locations
corresponding to prices of the plurality of offer orders
along the price axis;
receiving a user input indicating a default quantity to be
used to determine a quantity for each of a plurality of
orders to be placed by the user at one or more price
levels;
receiving a user input indicating a desired price for an
order to be placed by the user, the desired price being
specified by selection of one of a plurality of locations
corresponding to price levels along the price axis; and
sending the order for the default quantity at the desired
price to the electronic exchange.
4

CBM2015-00179
Patent 7,533,056 B2
D. Grounds of Unpatentability
We instituted review of claims 1–15 on the following grounds:
References

Basis

n/a
TSE 3, Togher 4, Schott 5, and Cooper 6
Silverman 7, Togher, Cooper, and
Hogan 8

Challenged Claims

§ 101
§ 103

1–15
1–15

§ 103

1–15

E. Covered Business Method Patent
A covered business method patent is “a patent that claims a method or
corresponding apparatus for performing data processing or other operations
used in the practice, administration, or management of a financial product or
service, except that the term does not include patents for technological
inventions.” Leahy-Smith America Invents Act, Pub. L. No. 112-29, 125
Stat. 284, 329 (2011) (“AIA”) § 18(d)(1); see 37 C.F.R. § 42.302. To
determine whether a patent is for a technological invention, we consider
“whether the claimed subject matter as a whole recites a technological feature
that is novel and unobvious over the prior art; and solves a technical problem
using a technical solution.” 37 C.F.R. § 42.301(b). For purposes of
3

TOKYO STOCK EXCHANGE OPERATION SYSTEM DIVISION, FUTURES/OPTION
PURCHASING SYSTEM TRADING TERMINAL OPERATION GUIDE (1998) (Ex.
1004) (“TSE”).
4
U.S. Patent No. 5,375,055, issued Dec. 20, 1994 (Ex. 1008) (“Togher”).
5
U.S. Patent No. 5,619,631, issued Apr. 8, 1997 (Ex. 1009) (“Schott”).
6
Alan Cooper, ABOUT FACE: THE ESSENTIALS OF USER INTERFACE DESIGN,
First Edition (1995) (Ex. 1015) (“Cooper”).
7
U.S. Patent No. 5,136,501, issued Aug. 4, 1992 (Ex. 1010) (“Silverman”).
8
U.S. Patent No. 5,414,809, issued May 9, 1995 (Ex. 1011) (“Hogan”).
5

CBM2015-00179
Patent 7,533,056 B2
determining whether a patent is eligible for a covered business method patent
review, the focus is on the claims. A patent need have only one claim
directed to a covered business method to be eligible for review.
1.

Financial Product or Service

Petitioner argues that the ’056 patent is a patent that claims a method
for performing data processing or other operations used in the practice,
administration, or management of a financial product or service. Pet. 4–5. In
particular, Petitioner argues that claim 1 requires receiving bid and offer
information of a product from an electronic exchange, displaying the bid and
offer information to a user, receiving a user input indicating a default
quantity and price for an order(s), and sending the order(s) to an electronic
exchange. Id. Petitioner asserts that each of these activities are inherently
financial in nature, such as receiving bid and offer information and
displaying it to a trader. Displaying market information, Petitioner asserts, is
a financial activity. Id. Receiving trader inputs for a trade and sending a
trade order to an exchange, Petitioner asserts, involves trading on an
exchange, a financial activity. Id. (citing Ex. 1044, 324–325).
Notwithstanding Patent Owner’s arguments, which we address below,
we are persuaded by Petitioner’s showing, which we adopt as our own, that
the ’056 patent is directed to a method for performing data processing or
other operations used in the practice, administration, or management of a
financial service. Here, Petitioner asserts, and we agree, that claim 1 is
directed to a method for displaying (e.g., “other operations”) market
information to a trader, which is a financial activity. Petitioner further
6

CBM2015-00179
Patent 7,533,056 B2
asserts, and we agree, that claim 1 also is directed to receiving trader inputs
for a trade and sending a trade order to an exchange (e.g., trading on an
exchange, which also lies under the “other operations” prong of CBM),
which is a financial activity.
Patent Owner argues that neither the Petitioner nor this panel has
proposed any definition of the CBM “data processing,” and that the claims of
the ’056 patent are directed to a specific GUI tool, and not directed to data
processing. PO Resp. 33. Patent Owner’s argument is misplaced because the
definition for a covered business method patent is “a patent that claims a
method or corresponding apparatus for performing data processing or other
operations used in the practice, administration, or management of a financial
product or service . . . .” See, e.g., 37 C.F.R. § 42.301(a), (emphasis added).
It is clear to us that Petitioner relies on the “other operations” part of the
definition to make its case. This is exemplified in showing that it is the
displaying and trading on an exchange elements of claim 1 that Petitioner
relies on as showing “other operations” which are used in the practice of a
financial service (trading on an exchange). Patent Owner does not rebut this
showing.
In any event, we are not persuaded by Patent Owner’s argument that
the claims are directed to a specific GUI tool that displays information on a
computer in a specified manner, but not concerned with processing the
information that is displayed. PO Resp. 33–34 (citing Ex. 2168 ¶¶ 25–28).
Claim 1 is directed to “[a] method of operation used by a computer for
displaying transactional information and facilitating trading in a system.”
Patent Owner has not explained why a method of operation used by a
7

CBM2015-00179
Patent 7,533,056 B2
computer does not include data processing. Rather, the argument, and the
testimony to which we are directed (e.g., Ex. 2168 ¶¶ 25–28) are not
commensurate in scope with the claims. Indeed, neither Patent Owner nor
Eric Gould-Bear account for or discuss the specific claim language. For all
of these reasons, we are not persuaded by Patent Owner’s arguments. We
determine that Petitioner has shown sufficiently that claim 1 claims a method
for performing data processing or other operations used in the practice,
administration, or management of a financial product or service.
2.

Exclusion for Technological Inventions

As indicated above, even if a patent includes claims that would
otherwise be eligible for treatment as a covered business method, review of
the patent is precluded if the claims cover only “technological invention[s],”
as defined by 37 C.F.R. § 42.301(b). Petitioner asserts that the ’056 patent
claims fail to recite any technological feature that is novel and unobvious
over the prior art, and do not solve a technical problem with a technical
solution. Pet. 5–9. In particular, Petitioner argues that the claims recite
trading software that is implemented using conventional computer hardware,
servers, and networks, directing attention to a description in the ’056 patent
that generically refers to “personal computers, terminals as part of a network,
or any other computing device” and no specific hardware to carry out the
invention. Id. at 6–7 (citing Ex. 1001, 4:34–36). Petitioner also argues that
electronic trading was well known as of the filing date. Id. (citing Ex. 1006,
1).

8

CBM2015-00179
Patent 7,533,056 B2
Notwithstanding Patent Owner’s arguments, which we address below,
we are persuaded by Petitioner’s showing, which we adopt as our own, that
the claimed subject matter as a whole does not recite a technological feature
that is novel and unobvious over the prior art. We agree with Petitioner that
claim 1 is directed to well-understood, routine, and conventional steps of
receiving market information and displaying it graphically to a trader, who
uses the information to facilitate trading a commodity. Id.
For example, the “BACKGROUND OF THE INVENTION” section
of the ’056 patent explains that it was well known for an exchange to record
all transactions for a particular item and to replay or post to the individual
traders outstanding bids with the highest values and outstanding offers with
the lowest value, along with a quantity specified for each order, to facilitate
trading a commodity. Ex. 1001, 1:37–41. There is no indication in the ’056
patent that the inventors invented gathering market information, displaying it
to a trader, and using the information to facilitate trading a commodity. The
use of a computer to perform these functions also was known in the art at the
time of the invention, and the ’056 patent does not claim any improvement of
a computing device.
Patent Owner argues that the ’056 patent is for a technological
invention because the claims, previously allowed by the Office, are directed
to a novel and nonobvious GUI tool. PO Resp. 29–30. Patent Owner argues
that it is irrelevant that the claimed invention can be implemented on a
conventional computer and that use of known technologies does not render
claims non-technical. Id. at 29–30, 31–32. Rather the inquiry, Patent Owner
argues, relates to the claimed software solution (e.g., an improved GUI tool),
9

CBM2015-00179
Patent 7,533,056 B2
which here is “technology that improves, even transforms, the computer so it
performs functions it previously could not.” Id. at 29–30. Patent Owner
argues that Petitioner ignores the claimed GUI improvement. Id.
We disagree with Patent Owner that Petitioner ignored the claimed
GUI improvement. Petitioner need not have addressed what is not present in
the claims. As explained above, claim 1 is directed to gathering market
information, displaying it to a trader, and the trader using the information to
facilitate trading a commodity, features that were well known at the time of
the invention. Moreover, there is no specific computer, program, or
processing described in the ’056 patent beyond what was known in the art at
the time of the invention. Conversely, Patent Owner does not explain how
broad claim 1 recites a GUI improvement. Our reviewing court has held that
“the presence of a general purpose computer to facilitate operations through
uninventive steps” does not render a claim a technological invention within
the meaning of the statute. See Versata dev. Grp., Inc. v. SAP Am., Inc., 793
F.3d 1306, 1327 (Fed. Cir. 2015); SightSound Techs., LLC v. Apple Inc., 809
F.3d 1307, 1315 (Fed. Cir. 2015). So it is here.
Petitioner also argues that the claimed subject matter does not solve a
technical problem using a technical solution, because the problem is a
financial one and the solution is to rearrange available market data on a
display. Pet. 8–9. Notwithstanding Patent Owner’s arguments, which we
address below, we are persuaded by Petitioner’s showing, which we adopt as
our own, that the problem noted in the Specification of the ’056 patent is not
a technical one and no technical solution is used. The ’056 patent
Specification highlights the problem and importance of informing a trader of
10

CBM2015-00179
Patent 7,533,056 B2
certain stock market events so that the trader may use such information to
facilitate trading a commodity. Ex. 1001, 2:19–26. However, informing a
trader of certain stock market trends or events is more of a financial problem
than a technical problem to which there is not a technical solution.
Patent Owner argues that the problem solved was with existing
computer-trader interfaces, which is a technical problem. PO Resp. 31.
Patent Owner argues that the claims recite a new GUI design addressing the
problem with the old GUI design and that the claimed GUI improvement
necessarily claims a technical solution to a technological problem. Id. We
are not persuaded by Patent Owner’s arguments that the claims are directed
to solving a technical problem using a technical solution because Patent
Owner’s arguments are not commensurate in scope to the breadth of the
claims.
For all of the foregoing reasons, the subject matter of at least claim 1 is
not a “technological invention” under 37 C.F.R. § 42.301(b), and the ’056
patent is eligible for a covered business method patent review.
II. ANALYSIS
A. Claim Construction
In a covered business method patent review, claim terms in an
unexpired patent are given their broadest reasonable construction in light of
the specification of the patent in which they appear. 37 C.F.R. § 42.300(b);
Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct. 2131, 2142–46 (2016). Under
the broadest reasonable interpretation, claim terms are generally given their
ordinary and customary meaning, as would be understood by one of ordinary
11

CBM2015-00179
Patent 7,533,056 B2
skill in the art in the context of the entire disclosure. In re Translogic Tech.,
Inc., 504 F.3d 1249, 1257 (Fed. Cir. 2007). Any special definition for a
claim term must be set forth with reasonable clarity, deliberateness, and
precision. In re Paulsen, 30 F.3d 1475, 1480 (Fed. Cir. 1994). Only terms
which are in controversy need to be construed, and only to the extent
necessary to resolve the controversy. Vivid Techs., Inc. v. Am. Sci. & Eng’g,
Inc., 200 F.3d 795, 803 (Fed. Cir. 1999).
Petitioner proposes constructions for “(offer and bid) indicators
representing quantity” and “indicators, icons, and tokens.” Pet. 15–16, 18–
20. In our Decision to Institute, we determined that Petitioner’s proposed
interpretations for these terms were consistent with the broadest reasonable
construction, and, therefore, adopted Petitioner’s proposed interpretations.
Dec. 11. Neither party has indicated that our interpretations were improper
and we do not perceive any reason or evidence that now compels any
deviation from our initial determinations. Accordingly, the following
constructions apply to this Decision:
Claim Term
(offer and bid) indicators
representing quantity
indicators, icons, and tokens

Construction
includes alphanumeric and graphical
indicators
a symbol such as an alphanumeric
character or a graphic representation
of an item

For purposes of this decision, we find it necessary to construe “price
axis” (claim 1) and “order icon indicating the user’s order” (claim 5).

12

CBM2015-00179
Patent 7,533,056 B2
Price Axis
Claim 1 recites a price axis in several instances. For example, claim 1
recites bid and offer indicators being displayed along a price axis. Ex. 1001,
14:1–10. Petitioner proposes that “price axis” be interpreted to mean “a
reference line for plotting prices, including labeled, unlabeled, visible and
invisible reference lines.” Pet. 14–15. Patent Owner does not disagree with
Petitioner’s proposed interpretation. Rather, Patent Owner argues that
Petitioner’s proposed interpretation requires clarification “that a price axis
cannot be a mere ordered list of prices that omits prices when there are no
orders at that price.” PO Resp. 5. 9
Patent Owner urges a “clarification” to Petitioner’s proposed
interpretation that would require a price axis to include intervening price
levels even when there are no bids/asks at those price levels. PO Resp. 4–7.
This clarification, Patent Owner argues, is supported by the Specification of
the ’056 patent and the prosecution history. Id. For the following reasons,
we are not persuaded that Patent Owner’s proposed “clarification” to
Petitioner’s proposed interpretation results in the broadest reasonable
interpretation of the term “price axis.”
We begin with the words of claim 1. Claim 1 recites a price axis, but
does not otherwise further expand on what constitutes a price axis. At the
9

In our Decision to Institute, and upon taking into consideration the parties’
arguments and supporting evidence, we interpreted “price axis” to mean “a
reference line for plotting prices, including labeled, unlabeled, visible and
invisible reference lines.” Dec. 11. Petitioner agrees with that interpretation,
while Patent Owner seeks to clarify the interpretation. Pet. Reply 11–12; PO
Resp. 4–7.
13

CBM2015-00179
Patent 7,533,056 B2
outset, it appears to us that Patent Owner does not dispute that a price axis is
a reference line for plotting prices, including labeled, unlabeled, visible and
invisible reference lines. PO Resp. 7, n.1. We agree with Petitioner and
Patent Owner that the broadest reasonable interpretation of “price axis” is a
reference line for plotting prices, including labeled, unlabeled, visible and
invisible reference lines for the reasons discussed in the Petition and
supported by record evidence. Pet. 14–15; Ex. 1032 ¶ 71; Ex. 1016, 123–
137. Patent Owner, however, would additionally add that a list of prices that
do not contain gaps in between prices is not a price axis. Id. at 5. In support
of its contentions, Patent Owner argues that the vertical axis (the “value
axis”) seen in Figures 3A, 3B, 3C, and 4 of the ’056 patent describes that
when there are no orders at a particular value or price, the value or price level
remains displayed. Id. at 5–6 (citing Ex. 2169 ¶¶ 37–43).
We do not agree with Patent Owner that the term “price axis” requires
reading into the claim the additional “clarification” that a list of prices that do
not contain gaps in between prices is not a price axis. There is nothing in the
claim language itself that describes gaps or how data is arranged along the
price axis or what contains a price axis. The passages and figures of the ’056
patent that Patent Owner (and Mr. Thomas) directs attention to are examples
or embodiments of what is claimed, and do not indicate that Patent Owner
disclaimed or limited price axis to consist of a list of prices that contains gaps
in between prices. Moreover, Mr. Thomas’ illustration of what constitutes a
price axis is conclusory and not supported by record evidence. Ex. 2169 ¶¶
41–42. He has not directed attention to any evidence in support of his
testimony as to what does and does not constitute a price axis as illustrated in
14

CBM2015-00179
Patent 7,533,056 B2
paragraph 41 of his declaration. As pointed out by Petitioner, an axis may be
represented by scale breaks or logarithmic scales, and thus, need not retain an
order of gaps as Patent Owner and Mr. Thomas contend. Pet. Reply 11–12;
Ex. 1058, 103–109.
We also have considered Patent Owner’s arguments and evidence that
remarks made by the then applicant during prosecution of the application that
matured into the ’056 patent amount to an express and clear disclaimer of the
meaning for price axis. PO Resp. 6–7 (citing Ex. 1002, 178–179; Ex. 2169 ¶
39). We are not persuaded by such arguments because the comments made
during prosecution have not been shown to amount to a disclaimer of having
a price axis without gaps in between prices. For example, Patent Owner
directs attention to page 178 of Exhibit 1002 from the prosecution file in
support of its disclaimer argument. On that page, however, is quoted
language from several lines of the claim with an argument just prior stating
that Silverman does not describe an axis of prices and all that is contained in
the quoted language. Patent Owner has not explained sufficiently why we
should construe such general remarks as a disclaimer. We also have
reviewed the remarks made by the then applicant that the applied prior art
displayed prices for which orders exist, but do not agree that Patent Owner
has shown why such comments amount to a clear disclaimer or disavowal of
the scope of the term “price axis.” To disavow claim scope, “the
specification or prosecution history [must] make clear that the invention does
not include a particular feature.” GE Lighting Sols., LLC v. AgiLight, Inc.,
750 F.3d 1304, 1309 (Fed. Cir. 2014) (internal citation, quotation, and
alterations omitted).
15

CBM2015-00179
Patent 7,533,056 B2
For all of these reasons, we are not persuaded by Patent Owner’s
arguments regarding the claimed price axis. Based on the record before us,
the broadest reasonable interpretation in light of the specification of a “price
axis” is a reference line for plotting prices, including labeled, unlabeled,
visible and invisible reference lines.
Order Icon Indicating the User’s Order
Claim 5 depends directly from claim 1 and recites “displaying an order
icon at a location that corresponds to the desired price level along the price
axis, the order icon indicating the user’s order at the electronic exchange.”
(Emphasis added). Patent Owner argues that an “order icon indicating the
user’s order at the electronic exchange” should be interpreted to mean “an
icon indicating to the user that the user has an order at a particular level along
the price axis, distinct from other orders at the same level.” PO Resp. 9.
Petitioner argues that no construction of the phrase is necessary and that
Patent Owner’s construction is inconsistent with Figure 3A, which shows the
user’s order aggregated with other users. Pet. Reply 12. Petitioner further
argues that any icon that indicates a user’s order, whether aggregated with
other orders or separate, meets the claim term. Id.
We agree with Petitioner. There is nothing in the language of claim 5
that requires indicating the specific user order (separating it out from all other
orders) or indicating to the user that it is his order. If an order is placed by a
user, resulting in the total quantity of orders placed at that same price to
increase, the total number would indicate an increase, and thus, indicate the
user’s order. Patent Owner argues that because claim 1 recites bid indicators
and offer indicators, an order icon must represent something distinct from the
16

CBM2015-00179
Patent 7,533,056 B2
bid/offer indicators. PO Resp. 7–8. But even Patent Owner does not explain
why an order icon cannot be one of the offer or bid indicators. Indeed, for
the embodiment that Patent Owner directs attention to there is no distinction
between offer and bid indicators with order icons (an order icon is one of the
indicators). Id. We agree with Petitioner that a person of ordinary skill in
the art would have understood the ’056 patent to use “icons” and “indicators”
interchangeably. See, e.g., Pet. 18–20. Thus, we disagree with Patent Owner
that the “order icon” of claim 5 cannot be one of the offer or bid indicators.
For all of the above reasons, we decline to interpret an “order icon
indicating the user’s order at the electronic exchange” to mean “an icon
indicating to the user that the user has an order at a particular level along the
price axis, distinct from other orders at the same level.”
B. The Level of Ordinary Skill in the Art
Notwithstanding the parties’ submissions of the level of ordinary skill
in the art 10, we find that the level of ordinary skill in the art is reflected by the
prior art of record. See Okajima v. Bourdeau, 261 F.3d 1350, 1355 (Fed. Cir.
2001); In re GPAC Inc., 57 F.3d 1573, 1579 (Fed. Cir. 1995); In re Oelrich,
579 F.2d 86, 91 (CCPA 1978).

10

The parties’ submissions focus primarily on the degrees, occupations, and
experience, as opposed to what the hypothetical person of ordinary skill in
the art would have known at the time of the invention. As such, and as the
triers of fact, based on the record before us, we do not find such information
particularly helpful.
17

CBM2015-00179
Patent 7,533,056 B2
C. 35 U.S.C. § 101 Asserted Ground of Unpatentability
Petitioner contends that claims 1–15 of the ’056 patent are
unpatentable under 35 U.S.C. § 101. Pet. 24–38. Patent Owner opposes.
PO Resp. 11–28.
Section 101 of Title 35, United States Code, provides: “Whoever
invents or discovers any new and useful process, machine, manufacture, or
composition of matter, or any new and useful improvement thereof, may
obtain a patent therefor, subject to the conditions and requirements of this
title.”
The Supreme Court recognizes three exceptions to these statutory
classes: laws of nature, natural phenomena, and abstract ideas. Alice Corp.
Pty. Ltd. v. CLS Bank Int’l, 134 S. Ct. 2347, 2354 (2014); Mayo
Collaborative Servs. v. Prometheus Labs., Inc., 132 S. Ct. 1289, 1293
(2012). Although an abstract idea by itself is not patentable, a practical
application of an abstract idea may be deserving of patent protection. Alice,
134 S. Ct. at 2355. We must “consider the elements of each claim both
individually and ‘as an ordered combination’ to determine whether the
additional elements ‘transform the nature of the claim’ into a patent-eligible
application.” Id. (citing Mayo, 132 S. Ct. at 1298, 1297). The claim must
contain elements or a combination of elements that are “‘sufficient to ensure
that the patent in practice amounts to significantly more than a patent upon
the [abstract idea] itself.’” Id. (citing Mayo, 132 S. Ct. at 1294).
1.

Abstract Idea

Petitioner argues that claim 1 encompasses the abstract idea of
graphing (or displaying) bids and offers to assist a trader to make an order,
18

CBM2015-00179
Patent 7,533,056 B2
which is a fundamental economic practice. Pet. 27. Petitioner further argues
that “[n]ot only is the abstract concept a fundamental economic practice, but
it is an abstract idea of itself because it can be performed using pen and
paper, or even in a trader’s mind.” Id. (citing CyberSource Corp. v. Retail
Decisions, 654 F.3d 1366, 1372 (Fed. Cir. 2011) (unpatentable mental
process performed with aid of pen and paper); Ex. 1032 ¶¶ 91, 205; Ex.
1010, Silverman at FIG. 4 (prior-art plot of same); Ex. 1029, 44–46 (showing
a page in a specialist’s book that plots bids and asks along a price axis)). In
further support of Petitioner’s arguments that the claims are directed to an
abstract idea because it can be performed in a trader’s mind, Petitioner directs
attention to a description in the background of the invention section of the
’056 patent stating that “the successful trader anticipates the rise or fall of the
value of an item and performs his or her own transaction before the rest of
the market is aware of the item’s potential gain or loss in value.” Ex. 1001,
1:28–33.
Petitioner further argues that the abstract idea analysis does not change
merely because the claims include details such as displaying bid and offer
indicators at locations corresponding to prices of bid and offer orders along
the price axis, because those limitations are equally abstract ideas or are
irrelevant because they merely provide a degree of particularity. Id. at 28
(citing Ultramercial, 772 F.3d at 715 (an abstract idea is not concrete merely
because the claims include a degree of particularity.)). Lastly, Petitioner
argues that the claims do not solve any technological problem but rather are
directed to solving a business problem, i.e., anticipating market movement by
19

CBM2015-00179
Patent 7,533,056 B2
providing a graphical representation of what a trader has done in his mind
since trading began. Id. at 29 (citing Ex. 1001, 1:56–60).
“The ‘abstract idea’ step of the inquiry calls upon us to look at the
‘focus of the claimed advance over the prior art’ to determine if the claim’s
‘character as a whole’ is directed to excluded subject matter.’” Affinity Labs
of Texas v. DirectTV, LLC, 838 F.3d 1253, 1257 (Fed. Cir. 2016) (quoting
Elec. Power Grp., LLC v. Alstom S.A., 830 F.3d 1350, 1353 (Fed. Cir. 2016);
see also Enfish, LLC v. Microsoft Corp., 822 F.3d 1327, 1335 (Fed. Cir.
2016). There is no definitive rule to determine what constitutes an “abstract
idea.” Rather, the Federal Circuit has explained that “both [it] and the
Supreme Court have found it sufficient to compare claims at issue to those
claims already found to be directed to an abstract idea in previous cases.”
Enfish, LLC v. Microsoft Corp., 822 F.3d 1327, 1334 (Fed. Cir. 2016); see
also Amdocs (Israel) Ltd. v. Openet Telecom, Inc., 841 F.3d 1288, 1294 (Fed.
Cir. 2016) (explaining that, in determining whether claims are patent-eligible
under § 101, “the decisional mechanism courts now apply is to examine
earlier cases in which a similar or parallel descriptive nature can be seen—
what prior cases were about, and which way they were decided”).
Notwithstanding Patent Owner’s arguments, which we address below,
we determine that Petitioner has shown 11 that claim 1 is directed to the

11

As explained above, determining whether a claim is directed to an abstract
idea calls upon us to look at the focus of the claimed advance over the prior
art. In order to do so, we must make findings of fact as to the prior art at the
time of the invention. Those facts must be supported by a preponderance of
the evidence. 35 U.S.C. § 326(e).
20

CBM2015-00179
Patent 7,533,056 B2
abstract idea of graphing (or displaying) bids and offers to assist a trader to
make an order, which is a fundamental economic practice.
Claim 1, the sole independent claim, recites in the preamble a method
for displaying transactional information and facilitating trading in a system.
The method steps include receiving bid and offer information of a product
from an electronic exchange, displaying the bid and offer information,
receiving a user input indicating a default quantity and price for an order, and
sending the order to the electronic exchange. In essence, all that claim 1
requires was well known in the prior art many years before the claimed
invention. We agree with Petitioner that claim 1 encompasses the abstract
idea of graphing (or displaying) bids and offers to assist a trader to make an
order, steps that can be performed using pen and paper, or even in a trader’s
mind. Pet. 27–28 (citing CyberSource Corp. v. Retail Decisions, 654 F.3d
1366, 1372 (Fed. Cir. 2011) (unpatentable mental process performed with aid
of pen and paper); Ex. 1032 ¶¶ 91, 205; Ex. 1010, Silverman at FIG. 4 (priorart plot of same); Ex. 1029, 44–46 (showing a page in a specialist’s book that
plots bids and asks along a price axis); Ex. 1001, 1:28–33. We further agree
with Petitioner that the ’056 patent claims simply provide a graphical
representation on a computer of what traders have done in their minds since
trading began. Pet. 29. Such a system also was well known in the art at the
time of the claimed invention. See, e.g., Ex. 1010 (Silverman); see also
infra, determining that Silverman in combination with other references
render obvious the challenged claims.
When we compare claim 1 at issue to those claims already found to be
directed to an abstract idea in previous cases, we are persuaded that claim 1 is
21

CBM2015-00179
Patent 7,533,056 B2
more similar to those claims found to encompass an abstract idea than those
determined not to encompass an abstract idea. 12 Claim 1 is similar to the
claims in Electric Power, which did “not go beyond requiring the collection,
analysis, and display of available information in a particular field, stating
those functions in general terms, without limiting them to technical means for
performing the functions that are arguably an advance over conventional
computer and network technology.” Elec. Power Grp., LLC v. Alstom S.A.,
830 F.3d 1350, 1353 (Fed. Cir. 2016).
In comparison, claim 1 is unlike the claims at issue in DDR Holdings,
LLC v. Hotels.com, L.P., 773 F.3d 1245 (Fed. Cir. 2014) and Enfish. In
DDR Holdings, the court determined that the claims did not embody a
fundamental economic principle or a longstanding commercial practice. The
claims at issue in DDR Holdings were directed to retaining website visitors,
which the court determined was a problem “particular to the Internet.” DDR
Holdings, 773 F.3d at 1257. The court also determined that the invention
was “necessarily rooted in computer technology in order to overcome a
12

The claims and specification before us are much broader than the patent
specifications and claims involved in Trading Technologies International,
Inc., v. CQG, INC., CQG, LLC, FKA CQGT, LLC, No. 2016-1616, 2017 WL
192716 (Fed. Cir. Jan. 18, 2017), where the court implied that even those
narrower claims are on the line between patent eligibility and ineligibility
(see id. at *4 (noting the “close question[] of eligibility”)). The Specification
of the ’056 patent is different, and does not claim priority to the applications
that matured into the patents involved in that decision. Thus, comparing the
claims of the patents involved in Trading Technologies is not particularly
helpful here, because the claims here are nothing more than “displaying, and
selecting data or information that is visible on the [graphical user interface]
device.” Trading Technologies, 2017 WL 192716 at *2.
22

CBM2015-00179
Patent 7,533,056 B2
problem specifically arising in the realm of computer networks,” and that the
claimed invention did not simply use computers to serve a conventional
business purpose. Id. In Enfish, the claim at issue was directed to a data
storage and retrieval system for a computer memory. Enfish, 822 F.3d at
1336–37. The court determined that the claims were directed to an
improvement in the functioning of a computer and were not simply adding
conventional computer components to well-known business practices. Id. at
1338. Here, claim 1 is directed to a fundamental economic principle or a
longstanding commercial practice and not directed to an improvement in the
computer.
We have considered all of Patent Owner’s arguments regarding why
the claims are not directed to an abstract idea but are not persuaded by such
arguments. PO Resp. 11–21. Patent Owner argues that Petitioner
oversimplifies the claims and ignores the structure and functionality recited
in the claims, such as the “bid indicators being displayed at locations
corresponding to prices of the plurality of bid orders” and the “offer
indicators being displayed at locations corresponding to prices of the
plurality of offer orders along the price axis,” elements that Patent Owner
deems to be “GUI elements.” Id. at 11–12. Here, bid and offer indicators are
broad terms, whereby an indicator can simply be an alphanumeric symbol.
Moreover, none of the claims recite a “GUI” or graphical user interface.
Arguably, the only claim 1 step that would be in the realm of requiring a
GUI, would be the step of “receiving a user input indicating a desired price
… the desired price being specified by selection of one of a plurality of
locations corresponding to price levels along the price axis.” (Emphasis
23

CBM2015-00179
Patent 7,533,056 B2
added). We disagree that Petitioner has oversimplified the claims and
ignores the structure and functionality recited in the claims. Petitioner’s
arguments are commensurate in scope with the breadth of the claims.
Nor are we persuaded by Patent Owner’s arguments that the claimed
GUI improves the computer because it allows the computer to be used in new
and inventive ways. PO Resp. 13–16. Patent Owner’s arguments are general
and not specific to the claim language before us. In any event, to the extent
that Patent Owner asserts that claims that require a GUI are automatically
patent eligible, that assertion is not commensurate with our reviewing court’s
holdings on the issue of patent eligibility. For example, the claim at issue in
Affinity Labs recited an application that enabled a cellular telephone to
present a GUI displaying a list of media sources that included selectable
items for selecting a regional broadcasting channel. Affinity, 838 F.3d at
1255–56. The claim also recited that the cellular telephone was enabled to
transmit a request for the selected regional broadcasting channel. Id. at 1256.
In Ameranth, the claim at issue recited a GUI that displayed menu items in a
specific arrangement, a hierarchical tree format. Menu items were selected to
generate a second menu from a first menu. Apple, Inc., v. Ameranth, Inc.,
842 F.3d 1229, 1234 (Fed. Cir. 2016). In both Affinity Labs and Ameranth,
the court determined that the claims were not directed to a particular way of
programming or designing the software, but instead merely claim the
resulting systems and determined that the claims are not directed to a specific
improvement in the way computers operate. Affinity Labs, 838 F.3d at 1260–
61, Ameranth, 842 F.3d at 1241. The same is true here in that the claims are
not directed to any particular way of programming or designing software, but
24

CBM2015-00179
Patent 7,533,056 B2
merely claim the resulting system and not any specific improvement in the
way a computer operates.
Patent Owner argues that the claims are not to an abstract idea because
they are not directed to a fundamental idea, longstanding commercial
practice, a business method, or a generic GUI. PO Resp. 16–20. Patent
Owner argues that in contrast to many other cited cases, the claims here are
directed to the specific structure, make-up, and functionality of a particular
GUI. Id. But the only specific feature that Patent Owner discusses is the
claimed price axis and even then Patent Owner fails to explain why the
recitation of a price axis takes the claim out of abstractness. A price axis is
nothing more than a reference line for plotting prices. It can include labeled,
unlabeled, visible, and invisible reference lines. There is nothing apparently
special about an axis, even a price axis, and Patent Owner has failed to
explain sufficiently why a price axis removes the abstractness from the
claims. This is true even if Patent Owner’s narrow proposed “clarification”
were adopted.
We have considered Patent Owner’s arguments regarding dependent
claims 5–7, and why those claims “recite even more structure and function of
the specific GUI tool and are even less directed to any abstract idea.” PO
Resp. 20–21. Patent Owner’s arguments are premised on a narrow
construction of claim 5 requiring “an additional indicator beyond the
bid/offer indicators to indicate to a user something about that user’s own
order.” Id. at 20. For reasons provided above, we decline to adopt Patent
Owner’s narrow construction. In any event, and even assuming the narrow
construction is the correct construction, Patent Owner has not shown how a
25

CBM2015-00179
Patent 7,533,056 B2
an indicator indicating to a user something about that user’s own order makes
claims 5–7 less abstract. Lastly, we disagree with Patent Owner that
Petitioner did not address sufficiently the dependent claims in the Petition.
Petitioner addressed all of the dependent claims. See, e.g., Pet. 37–38.
Inventive Concept
To be patent eligible, a claim to an otherwise abstract idea must recite
additional elements that constitute an inventive concept. Alice, 134 S. Ct. at
2357. One looks to “[t]he elements of each claim both individually and ‘as
an ordered combination’ to determine whether the additional elements
‘transform the nature of the claim’ into a patent-eligible application.” Mayo,
132 S. Ct. at 1297–98. The additional elements must be more than “wellunderstood, routine, conventional, activity.” Mayo, 132 S. Ct. at 1298.
Petitioner argues that the claim 1 steps of receiving bid and offer
information, receiving an order including a default quantity and a selected
price, and sending the order to an exchange to be executed were wellunderstood, routine, and conventional activity that adds nothing significant to
the abstract idea. Id. 30–31. Petitioner further argues that the claims are not
rooted in computer technology because they do not overcome a problem
specifically arising in the realm of computers or computer networks. Id. at
33 (citing DDR Holdings, 773 F.3d at 1257). Petitioner argues that the ’056
patent specification admits that the problem was business, financial or traderrelated, and not arising in computers or otherwise dependent upon computer
components, and to the extent that a computer is used it is used only for its
basic function such as displaying data and accepting user inputs. Id. at 34–
35; Ex. 1032 ¶ 205.
26

CBM2015-00179
Patent 7,533,056 B2
Lastly, Petitioner argues that dependent claims 2–15 add only wellunderstood, routine, conventional post-solution activity to the abstract idea of
claim 1, such as displaying a sent order (claim 5), displaying bids, offers, and
an order with different characteristics (claim 6), and displaying the quantity
of an order (claim 7). PO Resp. 37–38.
Notwithstanding Patent Owner’s arguments, which we address below,
we are persuaded that Petitioner has shown that none of the additional claim
elements in claim 1 or dependent claims 2–15 transforms the nature of the
claims into a patent-eligible application. Claim 1 recites “a method of
operation used by a computer for displaying transactional information and
facilitating trading in a system where orders comprise a bid type or an offer
type.” Ex. 1001, 13:60–62. The ’056 patent specification does not describe
any specific computer, program, or processing beyond what was known in
the art at the time of the invention for implementing the claimed system.
Moreover, and to the extent that the claims require a GUI, a mere recitation
of a GUI does not make the claim patent eligible. See Affinity Labs, 838 F.3d
at 1257–58, Ameranth, 842 F.3d at 1236–1242, Internet Patent Corp., 790
F.3d at 1348–1349. A recitation of a generic GUI merely limits the use of
the abstract idea to a particular technological environment. “Limiting the
field of use of the abstract idea to a particular existing technological
environment does not render any claims less abstract.” Affinity Labs, 838
F.3d at 1258 (citing Alice, 134 St. Ct. at 2358; Mayo, 132 S. Ct. at 1294).
Claim 1 also recites receiving bid and offer information for a product
from an electronic exchange, but does not specify any particular method for
doing so. The claim requires displaying a plurality of bid indicators and offer
27

CBM2015-00179
Patent 7,533,056 B2
indicators along a price axis. Essentially, these limitations require plotting
bids and offers for a product along a price axis. Plotting information along
an axis was a well-understood, routine, conventional, activity. Claim 1
further recites receiving a user input indicating a quantity to be used for each
of a plurality of orders to be placed, and indicating a desired price for an
order to be placed by selecting one of the locations corresponding to the price
along the price axis. Inputting data into a computer was also a wellunderstood, routine, conventional activity. Finally, the step of sending an
order for the quantity and price to the electronic exchange was conventional
and well known in the art. See, e.g., Ex. 1010. The additional elements must
be more than “well-understood, routine, conventional, activity.” Mayo, 132
S. Ct. at 1298.
We also agree with Petitioner that none of claims 2–15 transforms the
nature of the claims into a patent-eligible application. For example, claims
2–4 recite the further steps of accepting and sending additional orders in the
same manner as claim 1. We further agree that claims 5–15 relate to
conventional pre- or post-solution activity such as displaying of data (claims
5–9 and 14), basic GUI techniques (claims 11–13 and 15), or conventional
point and click technology as recited in claim 10. We agree that these claims
recite well-understood, routine, conventional extra-solution activity that are
not related to an inventive concept.
Patent Owner argues that the claims pass part two of Alice because
they recite an inventive concept. PO Resp. 21–28. But in making such
arguments, Patent Owner does not explain sufficiently what about the claims
qualifies as an inventive concept. For example, Patent Owner describes the
28

CBM2015-00179
Patent 7,533,056 B2
claims as reciting “structural details of a specific GUI that functions
differently from prior art GUIs to solve GUI-centric problems.” Id. at 24.
Patent Owner goes on to argue that the “solution to these problems is not
only rooted in computer technology, but is new computer technology itself; a
new GUI with the claimed structure, make-up, and functionality.” Id.
(emphasis added). In making similar arguments regarding features and
claims that are not before us in this proceeding (see, e.g., PO Resp. 25–28),
Patent Owner fails to focus on the claims before us or explain with respect to
the actual elements of these claims why such elements constitute an inventive
concept. We are not persuaded by Patent Owner’s arguments.
The individual elements of the claims do not transform the nature of
the claims into a patent-eligible application. They do not add significantly
more to the abstract idea or fundamental economic practice. Contrary to
Patent Owner’s argument, the claims simply recite the use of a generic
computer with routine and conventional functions. Further, considering all
of the elements as an ordered combination, we determine that the combined
elements also do not transform the nature of the claims into a patent-eligible
application.
For all of the above reasons, Petitioner has shown sufficiently that
claims 1–15 of the ’056 patent are not directed to patent eligible subject
matter under 35 U.S.C. § 101.
D. Obviousness of Claims 1–15 over TSE, Togher, Schott, and Cooper
Petitioner contends that claims 1–15 are unpatentable under 35 U.S.C.
§ 103 over TSE, Togher, Schott, and Cooper. To support its contentions,
29

CBM2015-00179
Patent 7,533,056 B2
Petitioner provides explanations as to how the prior art meets each claim
limitation. Pet. 38–60. Petitioner also cites the Declaration of Kendyl A.
Román for support. See Ex. 1032 ¶¶ 114–120.
Patent Owner argues that Petitioner fails to establish that TSE was
publically accessible, and, thus, prior art. PO Resp. 34–41. Patent Owner
also argues that it conceived of the invention prior to the TSE date, and
diligently reduced the invention to practice. Id. at 41–55. Patent Owner
submits arguments and objective evidence of nonobviousness. Id. at 55–64.
Lastly, Patent Owner separately argues for the patentability of claims 5–7.
Id. at 64–68.
TSE as prior art
Petitioner argues that TSE is prior art under 35 U.S.C. § 102(a).
Pet. 21–22. In support of its showing that TSE qualifies as prior art,
Petitioner relies on the November 21, 2005, deposition testimony of Atsushi
Kawashima taken during litigation between Patent Owner and a third party,
eSpeed, Inc. Id.; Ex. 1007.
Whether a document qualifies as a printed publication under 35 U.S.C.
§ 102(a) is a question of law based on underlying findings of fact. In re
Enhanced Sec. Research, LLC, 739 F.3d 1347, 1354 (Fed. Cir. 2014) (citing
In re Hall, 781 F.2d 897, 899 (Fed. Cir. 1986)). The Federal Circuit “has
interpreted § 102 broadly, explaining that even relatively obscure documents
qualify as prior art so long as the public has a means of accessing them.” Id.
(citing Hall, 781 F.2d at 899).
Our leading case on public accessibility is In re Hall, 781 F.2d 897
(Fed. Cir. 1986). In Hall we concluded that “a single cataloged
30

CBM2015-00179
Patent 7,533,056 B2
thesis in one university library” constitutes “sufficient accessibility
to those interested in the art exercising reasonable diligence.” Id. at
900. Thereafter, in Constant v. Advanced Micro–Devices, Inc., we
explained that “[a]ccessibility goes to the issue of whether
interested members of the relevant public could obtain the
information if they wanted to.” 848 F.2d 1560, 1569 (Fed. Cir.
1988). Therefore, “[i]f accessibility is proved, there is no
requirement to show that particular members of the public actually
received the information.” Id.
Enhanced Sec. Research, LLC, 739 F.3d at 1354. The determination of
whether a document is a “printed publication” under 35 U.S.C. § 102
involves a case-by-case inquiry into the facts and circumstances surrounding
its disclosure to members of the public. In re Klopfenstein, 380 F.3d 1345,
1350 (Fed. Cir. 2004).
TSE is entitled “Futures/Option Purchasing System Trading Terminal
Operation Guide” of the “Tokyo Stock Exchange Operation System
Division.” Ex. 1004, 1. 13 In the middle of page 5 is the annotation “August,
1998” above the words “Tokyo Stock Exchange Operation System Division.”
Id. at 5. Petitioner argues that TSE is prior art under 35 U.S.C. § 102(a)
because it was published in August of 1998 by giving two copies to each of
the about 200 participants in the Tokyo Stock Exchange, who were free to do
whatever they wanted with their copies of the publication. Pet. 21–22 (citing
Ex. 1007, 0012–33).
In support of its arguments regarding TSE as prior art, Petitioner
directs us to portions of Mr. Kawashima’s testimony. At the time of his

31

CBM2015-00179
Patent 7,533,056 B2
testimony, Mr. Kawashima testified that he was employed by the Tokyo
Stock Exchange and was so at the time of the TSE manual, August 1998. Ex.
1007, 0005–0011. He further testified that TSE “is the current TSE futures
options trading system terminal document, manual” that was prepared August
of 1998 by the Tokyo Stock Exchange and that he was in charge of preparing
the document. Ex. 1007, 0010–0011. Mr. Kawashima also testified that the
purpose of the manual was that “in 1998 we replaced the futures options
trading system and so this new manual was prepared because there were
changes to the way the trading terminals were operating.” Id. at 0012.
Kawashima further testified that the manual was distributed to “participants”
in August of 1998, who were “securities companies for banks who are able to
carry out futures options trading at the TSE” and that the “manual was given
to explain those changes” made with respect to the operation of the TSE
trading system and terminals. Id. at 0012, 0014. Mr. Kawashima testified
that the manual was given to around 200 “participant” companies—all
companies that conduct futures option trading on the Tokyo Stock Exchange.
Id. at 0013. 14 According to Mr. Kawashima, two copies were distributed to
each company, by having a person from each company come to the Tokyo
Stock Exchange operating system section to pick up their copies of the
manual, and that there was no restriction on what the participants could do
with the 1998 manual once they received it. Id. at 0014–0015. Mr.

13

References are to pages located at center bottom of the English translation
of TSE (Ex. 1004).
14
We understand the then “participants” included such companies as
Goldman Sachs Securities, Merrill Lynch, and Morgan Stanley. Ex. 2163,
32

CBM2015-00179
Patent 7,533,056 B2
Kawashima personally distributed the TSE manual to some of the
participants. Ex. 2163, 60:13–24.
Notwithstanding Patent Owner’s arguments, which we address below,
we are persuaded by Petitioner’s showing, which we adopt as our own, that
TSE qualifies as prior art under 35 U.S.C. § 102(a). Petitioner asserts, with
supporting evidence, that TSE was distributed to participants in the Tokyo
Stock Exchange. Pet. 21; Ex. 1007, 0012, 0014. Based on the evidence
before us, the participants were securities companies for banks. The purpose
of the distribution of the manual was to alert the securities companies of
changes to the way the trading terminals of the Tokyo Stock Exchange
operated. Ex. 1007, 0012, 0014. Indeed, TSE is a user manual that includes
for example, in Chapter 2, instructions for terminal system configuration to
enable a participant, such as a security company to connect to the Tokyo
Stock Exchange. Ex. 1004, 10–25. Chapter 15, entitled “Response To A
Problem” provides detailed explanations should a problem arise with
terminal equipment, communication circuit difficulties, central system
recovery difficulties, etc., along with in-house procured terminal problem
handling instructions. Id. at 5. Thus, TSE is more than a user manual for
how to trade on the Tokyo Stock Exchange, but also includes how to connect
electronically to the Tokyo Stock Exchange.
The evidence that is before us, both circumstantial and direct, supports
a finding that TSE was made accessible to securities companies and all of the
personnel in such a company, who would have employed technical support

58:5–17; Ex. 2169 ¶ 22.
33

CBM2015-00179
Patent 7,533,056 B2
personnel, such as computer scientists or engineers, who would have needed
a copy of the TSE manual to configure their own system to communicate
electronically, and to continue to trade securities, with the Tokyo Stock
Exchange. 15 Thus, the securities companies would have included computer
scientists or engineers, as well as traders. We find that all such persons who
worked at the securities companies would have been interested members of
the relevant public.
Patent Owner’s Contentions 16
Patent Owner argues that the evidence fails to prove TSE is prior art.
PO Resp. 34–41. We begin by addressing Patent Owner’s assertions that Mr.
Kawashima’s testimony should be given little or no weight because his
testimony is not corroborated and he is an interested witness. Id. at 39–41.
Patent Owner argues that Kawashima’s employer—the Tokyo Stock
Exchange—challenged Patent Owner’s Japanese counterpart to U.S. Patent
No. 6,766,304 by providing TSE to the Japanese Patent Office. Id. at 40.
Patent Owner further argues that the Tokyo Stock Exchange wanted the
Japanese Patent Office to rely on “these documents” to prevent TT from
obtaining the Japanese patent. Id. at 40–41 (citing Ex. 2163, 39:23–40:20,
42:14–43:10; Ex. 1007, 0110:10–14). Patent Owner concludes that because

15

We made a similar finding in our Decision to Institute (Dec. 19), thereby
putting Patent Owner on notice of such finding in support of our
determination that TSE was publically accessible. Patent Owner does not
address such finding or provide evidence to rebut our finding in that regard.
Cuozzo, 136 S. Ct. at 2141.
16
Patent Owner makes unpersuasive evidentiary arguments as well, which
we address in connection with Patent Owner’s Motion to Exclude TSE (Ex.
34

CBM2015-00179
Patent 7,533,056 B2
Kawashima’s employer tried to use TSE to prevent TT from obtaining the
6,766,304 patent, Kawashima is not disinterested. Id. at 41.
We are not persuaded that Kawashima is an interested witness and that
his testimony should be given little weight. First, the patent involved here is
not the same as the patent involved before the Japanese Patent Office and we
do not understand what Patent Owner means by “these documents.” In any
event, Patent Owner has not shown that what occurred in a proceeding before
the Japanese Patent Office involving a different patent is relevant to the facts
of this proceeding. Patent Owner has not shown sufficiently that Mr.
Kawashima had an interest, himself, regarding the outcome of the Japanese
Patent Office proceeding. Even assuming that the Tokyo Stock Exchange
had an interest in that earlier proceeding, it does not follow necessarily that
Mr. Kawashima himself had an interest in it as well. We have considered the
evidence to which we are directed, but do not find that evidence (passages
from Mr. Kawashima’s original and cross examination) to support Patent
Owner’s assertions that Mr. Kawashima is biased. Indeed, when asked if the
Tokyo Stock Exchange preferred that vendors like Trading Technologies not
have patents on trading screens, Mr. Kawashima testified, that that was “not
something I would know.” Ex. 2163, 41:6–12. Lastly, Patent Owner has not
demonstrated sufficiently that Mr. Kawashima’s meetings with Petitioners’
attorneys prior to his cross examination is demonstrative of “bias.” PO Resp.
41. Patent Owner has not shown why Mr. Kawashima’s meeting with
Petitioner’s counsel prior to his deposition would make him biased. For

1003), infra.
35

CBM2015-00179
Patent 7,533,056 B2
these reasons, we are not persuaded that Mr. Kawashima is an interested
witness.
We also are not persuaded by Patent Owner’s argument that because
Mr. Kawashima’s testimony is uncorroborated we should give it little weight.
PO Resp. 39–40. In support of the argument, Patent Owner cites to cases
regarding an interested witness. See, e.g., id. at 39. As explained above,
Patent Owner has not shown sufficiently that Mr. Kawashima is an interested
witness. The other arguments made, e.g., that there is no evidence of when
the manuals were picked up or by whom or what a person did with the
document once they received it, are factors to consider when determining
whether a document was publically accessible, which we address below.
For all of these reasons, we credit the testimony of Mr. Kawashima.
We find that the facts discussed above regarding Mr. Kawashima’s testimony
(Ex. 1007) are supported by a preponderance of the evidence and are
undisputed. 17 Although Mr. Kawashima was cross-examined during this
proceeding, Patent Owner does not direct attention to portions of his cross
examination testimony, or any other evidence, that would outweigh Mr.
Kawashima’s original testimony (Ex. 1007) regarding what the TSE manual
was, why it was distributed, how it was distributed, when it was distributed,
and to whom it was distributed.

17

The burden of showing something by a preponderance of the evidence
simply requires the trier of fact to believe that the existence of a fact is more
probable than its nonexistence. Concrete Pipe & Products of California, Inc.
v. Construction Laborers Pension Trust for Southern California, 508 U.S.
602, 622 (1993).
36

CBM2015-00179
Patent 7,533,056 B2
Patent Owner argues that Petitioner has not established that TSE was
publically available. In particular, Patent Owner argues that there is no
evidence that anyone actually received a copy of TSE or whether the
receivers of such document were persons of ordinary skill in the art. Id. at
35–36 (quoting Blue Calypso, LLC v. Groupon, Inc., 815 F.3d 1331, 1348
(Fed. Cir. 2016) (a reference will be considered publicly accessible if it was
“disseminated or otherwise made available to the extent that persons
interested and ordinarily skilled in the subject matter or art exercising
reasonable diligence, can locate it.’”)).
Patent Owner’s argument that there is no evidence that anyone actually
received a copy of TSE is misplaced. The proponent of a document need not
show that particular members of the interested public actually received the
information. See, e.g., In re Enhanced Sec. Research, LLC, 739 F.3d 1347,
1354 (Fed. Cir. 2014); Constant v. Advanced Micro-Devices, Inc., 848 F.2d
1560, 1569 (Fed. Cir. 1988); Blue Calypso, LLC v. Groupon, Inc., 815 F.3d
1331, 1348 (Fed. Cir. 2016). Rather, accessibility goes to the issue of
whether persons interested in the subject matter could obtain the information
if they wanted to. Id. Here, we have before us persuasive evidence that TSE
was made publically accessible by providing two copies to each of the about
200 participants (securities companies for banks) in the Tokyo Stock
Exchange, who were free to do whatever they wanted with their copies of the
publication. Ex. 1007, 0012, 0014. For these same reasons, we are not
persuaded by Patent Owner’s implicit argument that Petitioner need show
that the two copies of the TSE manual available for pick up by the 200
participant companies actually were picked up. In any event, Mr.
37

CBM2015-00179
Patent 7,533,056 B2
Kawashima testified that he personally distributed the TSE manual to some
of the participants. Ex. 2163, 60:13–24.
Patent Owner argues that the participants (securities companies for
banks) who allegedly received copies of the TSE manual are not persons of
ordinary skill in the art, which Patent Owner submits would be GUI
designers, and not traders at a stock exchange. PO Resp. 37. We are not
persuaded by Patent Owner’s argument.
The patent before us is a business method patent, the subject matter of
which is represented by both the business and technical sides of the spectrum.
Here, where the patent is directed to trading commodities on an exchange
using a computer, we must consider all interested members of the public,
which would include not only technical personnel, but traders as well. 18
Traders of commodities at securities companies for banks would be
interested members of the public.
In any event, there is sufficient evidence for us to find that the
securities companies for banks also would have employed technical
personnel as well, and even a “GUI designer.” As explained above, the
purpose of the TSE manual was to alert the securities companies of changes
to the way the trading terminals of the Tokyo Stock Exchange operated. Ex.
1007, 0012, 0014. The TSE manual includes information and instructions of
how to connect electronically to the Tokyo Stock Exchange. TSE is not

18

We note that one of the inventors of the ’056 patent has extensive
experience as a broker or trader, while the other has a legal background, and
some experience “developing game simulations” but neither are “GUI
designers.” Ex. 2167 ¶¶ 4–7; Ex. 2181 ¶¶ 4–6.
38

CBM2015-00179
Patent 7,533,056 B2
simply a “how to trade commodities” user manual as Patent Owner seems to
suggest. The strong circumstantial evidence supports finding that TSE was
made accessible to securities companies who would have employed technical
support personnel, such as computer scientists or engineers, to configure their
system to communicate electronically, and to continue to trade securities,
with the Tokyo Stock Exchange, based on the changes in operation of the
terminals explained in the TSE manual. Thus, the securities companies
would have included computer scientists or engineers, as well as traders.
Lastly, even assuming that a person of ordinary skill in the art is narrowly
limited to a “GUI designer” as Patent Owner asserts, we find that securities
companies for banks (“participants”) provided their own front-end order
entry software, and that such participants would have employed GUI
designers to formulate the front-end order entry software to facilitate trading
on the Tokyo Stock Exchange. Ex. 2169 ¶ 22; Ex. 1060, 136:17–138:1.
Patent Owner argues that because participants of the Tokyo Stock
Exchange were contractually prohibited from modifying the terminals or
software, there was no reason to provide the manual to GUI designers. PO
Resp. 37. Patent Owner has not shown sufficiently that such a contractual
provision would have prevented persons interested or even ordinarily skilled
in the subject matter from receiving copies of TSE. For all of the above
reasons, we are persuaded that TSE was publically accessible.
Patent Owner additionally argues that there is no evidence that a
person having ordinary skill in the art could have located TSE using
“reasonable diligence,” because there is no evidence that such a person
searching for TSE would find it, such as being placed in a library, indexed, or
39

CBM2015-00179
Patent 7,533,056 B2
catalogued, or directions to locate TSE. PO Resp. 38–39. We determine
above, that the record evidence supports a determination that TSE was
publically accessible to persons interested and even ordinarily skilled in the
subject matter. Patent Owner’s arguments are premised on the notion that
none of the personnel at the securities banks are interested and ordinarily
skilled in the subject matter, which we reject. Thus, Patent Owner’s
argument is moot. For all of the above reasons, we determine that TSE
qualifies as prior art.
Patent Owner’s Showing of Prior Invention
Patent Owner argues that if TSE qualifies as prior art, it nonetheless
conceived of the invention before distribution of TSE, and diligently reduced
the invention to practice thereafter. PO Resp. 41–55.
Patent Owner alleges that the invention was conceived no later than
March 1998, actually reduced to practice no later than November 30, 1998,
and constructively reduced to practice April 9, 1999, upon the filing of the
priority patent application to which the involved patent claims benefit. PO
Resp. 43 (citing Ex. 2167 ¶ 12).
Conception
“Conception must be proved by corroborating evidence which shows
that the inventor disclosed to others his completed thought expressed in such
clear terms as to enable those skilled in the art to make the invention.”
Coleman v. Dines, 754 F.2d 353, 359 (Fed. Cir. 1985).
Patent Owner relies on the declarations of the two named inventors of
the ’056 patent (Exs. 2167 (Declaration of Richard Friesen) and 2181
(Declaration of Peter C. Hart)), along with a “Trading Game Design
40

CBM2015-00179
Patent 7,533,056 B2
Document” (Ex. 2301 “Design Document”). Patent Owner argues that the
Design Document exhibited each element of claim 1. PO Resp. 45 (citing
Ex. 2167 ¶ 18; Ex. 2181 ¶ 17). In support of that assertion, Patent Owner
directs attention to an annotated version of the screen capture shown on page
“PH00000004” of the Design Document, which is relied upon to corroborate
the testimony of the inventors. Id. at 45–49. We are not persuaded by Patent
Owner’s showing for the following reasons.
First, it is difficult to discern what is shown on page “PH00000004” of
the Design Document with respect to the screen shot. The screen shot from
Exhibit 2301 is reproduced here:

41

CBM2015-00179
Patent 7,533,056 B2

As seen from above, the screen shot is blurry, and not easily readable.
This is the evidence that Patent Owner relies on to corroborate the testimony
of the named inventors of the ’056 patent for certain claim 1 elements. For
example, Patent Owner argues that for “displaying a plurality of bid
indicators representing quantity associated with the plurality of bid orders”
and “displaying a plurality of offer indicators representing quantity
associated with the plurality of offer orders,” the above screen shot
42

CBM2015-00179
Patent 7,533,056 B2
corroborates inventor testimony that these elements are met. PO Resp. 46–
48. Patent Owner annotates the above figure with three inserted boxes. See,
e.g., id. at 47. The far right vertical listing of what appears to be numbers, is
annotated with “this is a price axis.” The red bars seen above have been
annotated with “these red bars represent the quantity of pending offer orders
at a particular price” and the blue bars have been annotated with “these blue
bars represent the quantity of pending bid orders at a particular price.”
We have reviewed the Patent Owner’s arguments and evidence to
which we are directed regarding conception. The testimony of the inventors
is nearly the same as each other and to the Patent Owner Response at pages
45–50. Compare, Ex. 2167 ¶¶ 18–19 with Ex. 2181 ¶¶ 17–18. For the sheer
fact that we cannot read the blurry screen shot, we do not find that such
screen shot corroborates the testimony of the inventors. We will not simply
take the inventor’s words at face value for what the blurry screen shot shows.
In any event, we agree with Petitioner that it has not been established
sufficiently that the red and blue bars represent quantity associated with the
plurality of bid [and offer] orders. Pet. Reply 17–18. As pointed out by
Petitioner, the red and blue bars could represent the number of orders in the
market. Id.
Reduction to Practice and Diligence
Because Patent Owner has failed to show that it conceived of the
invention, we need not consider Patent Owner’s arguments with respect to its
alleged reductions to practice (both actual and constructive), which occurred
after August 1998, the date of TSE. Nonetheless, we make the following
43

CBM2015-00179
Patent 7,533,056 B2
observations regarding Patent Owner’s alleged reduction to practice and
diligence.
In order to establish an actual reduction to practice, the inventor must
establish that: (1) the inventor constructed an embodiment or performed a
process that met all of the claim limitations; and (2) the invention would
work for its intended purpose. Cooper v. Goldfarb, 154 F.3d 1321, 1327
(Fed. Cir. 1998). The inventor’s testimony must be corroborated by
independent evidence. Id. at 1330. A rule of reason applies to determine
whether the inventor’s testimony has been corroborated. Price v. Symsek,
988 F.2d 1187, 1194 (Fed. Cir. 1993). “The rule of reason, however, does
not dispense with the requirement for some evidence of independent
corroboration.” Coleman, 754 F.2d at 360. The requirement of
“independent” corroboration requires evidence other than the inventor’s
testimony. In re NTP, Inc. 654 F.3d 1279, 1291 (Fed. Cir. 2011).
It is well settled that “[t]here cannot be a reduction to practice of the
invention . . . without a physical embodiment which includes all limitations
of the claim.” UMC Elecs. Co. v. United States, 816 F.2d 647, 652 (Fed. Cir.
1987) (emphasis added). “It is equally well established that every limitation
of the [claim] must exist in the embodiment and be shown to have performed
as intended.” Newkirk v. Lulejian, 825 F.2d 1581, 1582 (Fed. Cir. 1987)
(emphasis added).
Patent Owner alleges that it reduced the invention to practice no later
than November 30, 1998. PO Resp. 55. Based on the evidence before us, we
are not persuaded that Patent Owner has demonstrated that the claimed
system was actually reduced to practice. Claim 1 requires “receiving bid and
44

CBM2015-00179
Patent 7,533,056 B2
offer information for a product from an electronic exchange” and “sending
the order for the default quantity at the desired price to the electronic
exchange.” Patent Owner acknowledges that the GUI it relies on to show an
actual reduction to practice was not connected to an electronic exchange. PO
Resp. 54 (“Because this was a simulated market, real money was not at stake
and live orders were not being transmitted to any exchange.”). Thus, Patent
Owner has failed to show that it reduced to practice all of the elements of
claim 1, which would include “receiving bid and offer information for a
product from an electronic exchange” and “sending the order for the default
quantity at the desired price to the electronic exchange.”
For similar reasons, Patent Owner has not demonstrated sufficiently
that the simulated GUI worked for its intended purpose. Cooper v. Goldfarb,
154 F.3d 1321, 1327 (Fed. Cir. 1998). Patent Owner has not directed us to
evidence to show that the GUI tested on November 24 and December 16,
1998, for example, worked for its intended purpose. Again, Patent Owner
acknowledges that “real money was not at stake and live orders were not
being transmitted to any exchange.” PO Resp. 54. Thus, having considered
all of Patent Owner’s arguments and evidence to which we are directed in
support of the arguments, we are not persuaded that Patent Owner
demonstrates sufficiently that it reduced the invention to practice no later
than November 30, 1998.
Lastly, we address Patent Owner’s contention that it was diligent from
just prior to August 1998 until it filed U.S. Patent Application No.
09/289,550 (“’550 application”) on April 9, 1999, from which the application
that matured into the ’056 patent claims priority. PO Resp. 55 (citing Ex.
45

CBM2015-00179
Patent 7,533,056 B2
2167 ¶ 37; Ex. 2181 ¶ 37). As provided above, Patent Owner has not shown
that it conceived the invention prior to August 1998, but even if it had, Patent
Owner has not established that it was reasonably diligent from a time just
prior to August 1998 until April 9, 1999, e.g., “the critical period.”
A party alleging diligence must account for the entire critical period.
Griffith, 816 F.2d at 626. Even a short period of unexplained inactivity may
be sufficient to defeat a claim of diligence. Morway v. Bondi, 203 F.2d 742,
749 (CCPA 1953); Ireland v. Smith, 97 F.2d 95, 99–100 (CCPA 1938). “A
patent owner . . . must show there was reasonably continuous diligence.”
Perfect Surgical Techniques, Inc. v. Olympus Am., Inc., 841 F.3d 1004, 1009
(Fed. Cir. 2016) (citations omitted) (vacating and remanding the Board’s
decision finding Patent Owner had not proven the inventor was reasonably
diligent in reducing his invention to practice). An inventor’s testimony
regarding his reasonable diligence must be corroborated by evidence. Brown
v. Barbacid, 436 F.3d 1376, 1380 (Fed. Cir. 2006).
Patent Owner argues that the invention was constructively reduced to
practice with the filing of the ’550 application on April 9, 1999, “a
reasonable span of diligence.” PO Resp. 55 (citing Ex. 2167 ¶ 37; Ex. 2181
¶ 37). We focus our discussion on the period from around mid-December
until April 9, 1999. Patent Owner has not directed us to sufficient evidence
showing that it was diligent for that period. For example, Mr. Freisen
testifies that no later than December 11, 1998, he met with Robert Sachs
from Fenwick & West and that over the next three months, “Mr. Sachs and I
exchanged several communications regarding patent application preparation
and prosecution strategy.” Ex. 2167 ¶ 37. The only corroborating evidence
46

CBM2015-00179
Patent 7,533,056 B2
that we are directed to during the mid-December until April 9, 1999 time
frame is an email from “Unspecified Sender.” Ex. 2329. This exhibit is only
referenced in Mr. Freisen’s declaration. It is not explained in any way by
Patent Owner or even in the context of Mr. Freisen’s declaration. We decline
the invitation to try to figure out what the email is all about. The email has
not been shown to corroborate any acts of diligence by the inventors. For
these additional reasons, Patent Owner has not accounted sufficiently for the
critical period from a time just prior to August 1998 until April 9, 1999.
Analysis
TSE describes a trading system that facilitates trading with an
electronic exchange by receiving bid and offer information, displaying it to a
user, and accepting and sending bid and offer orders. Ex. 1004, 6–13, 35. A
trading terminal displays a GUI for depicting market information on a
Board/Quotation Screen (see id. at 107). The Figure on page 107 of TSE is
reproduced below.

47

CBM2015-00179
Patent 7,533,056 B2

Figure depicting the Board/Quotation Screen
The Board/Quotation Screen includes a central order price at
column 11—a price axis. Id. at 111. To the left and right of order price
column 11, at a location corresponding to price, are bid and offer indicators
consisting of numbers representing the quantity of orders in respective
columns 12, 13, and 14. Id. at 112. The Board/Quotation screen is
automatically updated with new bid and offer information from a central
system every three seconds. Id. at 91. TSE describes a user entering an
order by double-clicking at a location along the price axis, which

48

CBM2015-00179
Patent 7,533,056 B2
automatically displays a pop-up window displaying the selected price. Id. at
134, 137. Clicking a send button sends an order to the exchange. Id. at 143.
Petitioner identifies the difference between the claimed invention and
TSE, explaining that TSE does not describe a default quantity, nor does TSE
describe graphical displays. Pet. 38–39. Petitioner relies on Togher and
Cooper to teach a default quantity and Schott to teach graphical displays. Id.
Togher describes a computer displaying transactional information and
facilitating trading with bid and offer orders. Ex. 1008, Abs., Figs. 1–3.
Togher describes receiving bid and offer information from an electronic
exchange. Id. at 6:67–7:19. A user can enter a default quantity called a
Normal Trade Size into the Trader Profile screen (Figure 4) and the quantity
may be used for subsequent orders with the same quantity. Id. at 12:7–10.
Schott describes a computer system that displays graphical indicators
representing quantities. Ex. 1009, Abs. In particular, Schott describes
representing a given quantity by graphing data in the depiction of a pie chart
or bar graph. Id. at Figs. 26C, 26D, 19A.
Cooper describes that for user interface designs, it was known to retain
a user’s last-entered quantity. Ex. 1015, 187–188.
We have reviewed the Petition and the supporting evidence to which
we are directed as to how TSE meets all of the claim limitations with the
exception of a default quantity and graphical displays. Pet. 39–60. We are
persuaded by such showing, and adopt it as our own. We also have reviewed
the Petition and the supporting evidence to which we are directed as to how
Togher and Cooper teach a default quantity and Schott teaches graphical
displays. Id. We are persuaded by such showing, and adopt it as our own.
49

CBM2015-00179
Patent 7,533,056 B2
Petitioner also has sufficiently shown why it would have been obvious
to combine TSE, Togher, Schott and Cooper. For example, and with respect
to claim 1, Petitioner argues that it would have been obvious to add Togher’s
user-modifiable default values to TSE’s electronic trading system. Petitioner
argues that the combination would have been nothing more than combining
prior art elements according to known methods to yield the predictable and
desirable result of reducing the time needed to place an order and reducing
the number of errors by reducing the number of operator actions (e.g.,
keystrokes). Pet. 45–46; Ex. 1032 ¶ 115. Petitioner argues that if the claims
require retaining a user’s last entered quantity to meet the “default quantity”
limitation, then Cooper describes this feature. In particular, Petitioner argues
that it would have been obvious to modify the combination of TSE and
Togher with Cooper by making the simple design choice to retain the user’s
last-entered quantity. Pet. 47 (citing Ex. 1032 ¶¶ 107–108). Petitioner
additionally argues that it would have been obvious to add Schott’s teaching
of displaying graphical representations of data with the graphical interface
teachings of TSE and Togher. Petitioner argues that the combination would
have been nothing more than combining prior art elements according to
known methods to yield the predictable and desirable result of reducing the
time and effort the user needs to expend to understand the displayed data.
Pet. 42; Ex. 1032 ¶ 117. Lastly, Petitioner argues, with supporting evidence,
that dependent claims 2–15 are obvious over TSE, Togher, Schott, and
Cooper. Pet. 50–60.
Notwithstanding Patent Owner’s arguments, which we address below,
we are persuaded by Petitioner’s showing, which we adopt as our own, that
50

CBM2015-00179
Patent 7,533,056 B2
claims 1–15 are unpatentable based on the combination of TSE, Togher,
Schott, and Cooper for the reasons provided by Petitioner. If a feature has
been used to improve one device, and a person of ordinary skill in the art
would have recognized that it would improve a similar device in that field or
another, implementing that feature on the similar device is likely obvious.
KSR, 550 U.S. at 417. For a patent claim that claims a structure known in the
prior art that is altered by the mere substitution of one element for another
known in the field, the combination must do more than yield a predictable
result. Id. at 416. Here, a person of ordinary skill in the art would have
recognized that the addition of Togher’s user-modifiable default values, for
example, to TSE’s electronic trading system, would have been nothing more
than combining prior art elements according to known methods to yield the
predictable and desirable result of reducing the time needed to place an order
and reducing the number of errors by reducing the number of operator
actions (e.g., keystrokes). Ex. 1032 ¶ 115.
Patent Owner’s Contentions
Patent Owner does not dispute that TSE in combination with Togher,
Cooper, and Shultz describe all of the elements of claims 1–4 and 8–15, and
that the combination would have been obvious. PO Resp. 56–68. Patent
Owner contends, however, that the failure of others to make the claimed
combination demonstrates the non-obviousness of the invention. Id. at 56–
64. Patent Owner also presents arguments with respect to claims 5–7. Id. at
64–68. We first address Patent Owner’s arguments regarding claims 5–7.
Claim 5 depends directly from claim 1 and includes displaying an
51

CBM2015-00179
Patent 7,533,056 B2
order icon at a location that corresponds to the desired price level along the
price axis, and that the order icon indicates the user’s order at the electronic
exchange. Claims 6 and 7 each depend directly from claim 5. For claim 5,
Petitioner relies on the description in TSE that after data is entered, a trader
submits the order using the “send” function to send the order to the central
system. Pet. 51 (citing Ex. 1004, 143). Petitioner explains that the order,
along with all other orders, is displayed on the client terminals. Id. (citing
Ex. 1004, 9–10; Ex. 1032 ¶ 123).
Patent Owner argues that the proper construction of “an order icon . . .
indicating the user’s order at the electronic exchange,” is an icon indicating
to the user that the user has an order (distinguishes the traders own orders) at
a particular level along the price axis. Id. at 64–65 (citing Ex. 2169 ¶¶ 62–
66). Patent Owner’s arguments are premised on a narrow construction of
claim 5. Id. at 64–67. As indicated above, in the claim interpretation section
of this opinion, we do not adopt Patent Owner’s narrow interpretation.
Claim 6 depends from claim 5 and recites “displaying the plurality of
bid indicators using a first visual characteristic; displaying the plurality of
offer indicators using a second visual characteristic; and displaying the order
icon using a third visual characteristic.” Petitioner contends that the
combination of TSE, Togher, Schott and Cooper render obvious claim 6
“because Schott teaches using different colors and textures for difference
data sets, and a POSITA would have been motivated to add these teachings
to the trading system described by TSE, Togher and Cooper.” Pet. 52–53.
Petitioner further contends that a person having ordinary skill in the art
would have been motivated to apply Schott’s technique of using different
52

CBM2015-00179
Patent 7,533,056 B2
visual characteristics such as color and texture for three different data sets to
the bids, offers, and the trader’s own orders displayed in an electronic trading
system disclosed in TSE and Togher to speed trader recognition of different
data sets. Id. at 53; Ex. 1032 ¶ 140.
Patent Owner argues that Petitioner relies on the aggregate information
to fulfill the offer indicators, bid indicators, and order icon. PO Resp. 67–68.
Patent Owner further argues that Petitioner fails to explain how the
aggregate quantity that is both the bid/offer indicators, and the order icon,
would be displayed with different visual characteristics. Id. We disagree.
As explained above, the Petition relies on Schott’s technique of using
different visual characteristics for three different data sets to the bids, offers,
and the trader’s own orders displayed. Pet. 52–53. Petitioner also provides a
motivation for using different visual characteristics for the three different
sets. Id. It is implicit through Petitioner’s showing that Petitioner proposes
having three different sets, as opposed to an aggregate number as Patent
Owner argues. Accordingly, we are not persuaded by Patent Owner’s
arguments.
E. Obviousness of Claims 1–15 over Silverman, Togher, Cooper, and
Hogan
Petitioner contends that claims 1–15 are unpatentable under 35 U.S.C.
§ 103 over Silverman, Togher, Cooper, and Hogan. To support its
contentions, Petitioner provides explanations as to how the prior art meets
each claim limitation. Pet. 60–80. Petitioner also cites the Declaration of
Kendyl A. Román for support. See Ex. 1032 ¶¶ 163–170.
53

CBM2015-00179
Patent 7,533,056 B2
Silverman describes a matching system for trading instruments in
which bids are automatically matched against offers for given trading
instruments. Ex. 1010, Abstract. Summary market information is displayed
at participant’s workstation or keystation at various client sites. Id. at 6:50–
52. The system will display the best inside price for every instrument traded
on the system, and preferably the prices are displayed together with the
quantity bid or offered at the specified price so that the trader at the
keystation can observe the market activity. Id. at 6:57–60.
Silverman describes, in connection with Figure 5, a keystation book
located at client sites which maintain copies of the best bids and offers
contained in the host book of Figure 4 and uses that information to generate
displays at the keystations. Id. at 10:3–8. Figure 5, annotated by Petitioner
with “price axis” is reproduced below.

54

CBM2015-00179
Patent 7,533,056 B2
Figure 5 of Silverman, annotated by Petitioner, showing a keystation book
Hogan describes displaying graphical indicators representing
underlying quantities. Ex. 1011, 38:4–58, Fig. 17.
Petitioner identifies the differences between the claimed invention and
Silverman, explaining that Silverman does not describe a default quantity, or
entering data graphically. Pet. 60. Petitioner also addresses the inevitable
argument from Patent Owner that Silverman’s price axis is not a price axis
and submits that it would have been obvious to add labels to the Silverman
price axis (Figure 5 labeled above) to help a user determine the scale of the
graphed data. Pet. 62; Ex. 1032 ¶ 153. Petitioner also points out that Hogan
describes selecting a value by selecting a position along an axis for a value.
Pet. 69. Petitioner relies on Togher and Cooper to teach a default quantity
(similar to the challenge based on TSE described above) and additionally
relies on Hogan to teach entering data graphically. Pet. 60.
We have reviewed the Petition and the supporting evidence to which
we are directed as to how Silverman meets all of the claim limitations with
the exception of a default quantity and graphical displays. To the extent
Silverman’s “price axis” is not considered a price axis, Petitioner has shown
sufficiently how it nonetheless would have been obvious to add labels to the
graph described by Silverman, and further has shown sufficiently that Hogan
too teaches selecting a position along an axis for a value. Pet. 60–80. We are
persuaded by such showing, and adopt it as our own. We also have reviewed
the Petition and the supporting evidence to which we are directed as to how
Togher and Cooper teach a default quantity and Hogan teaches graphical
displays, selecting a value by selecting a position along an axis for that value,
55

CBM2015-00179
Patent 7,533,056 B2
and entering data graphically. Id. We are persuaded by such showing, and
adopt it as our own.
Petitioner also has sufficiently shown why it would have been obvious
to combine Silverman, Togher, Cooper, and Hogan. For example, and with
respect to claim 1, Petitioner argues that it would have been obvious to add
Togher’s user-modifiable default values and Cooper’s teaching of retaining
the user’s last-entered quantity to Silverman’s electronic trading system for
similar reasons as it did with respect to the challenge based on TSE. Pet. 65–
66; Ex. 1032 ¶¶ 157–158, 165.
Petitioner additionally argues that it would have been obvious to add
Hogan’s GUI teachings with Silverman, Togher, and Cooper. Petitioner
argues that the combination would have been nothing more than combining
prior art elements according to known methods to yield the predictable and
desirable result of reducing the time and effort the user expends to
understand and enter data. Pet. 69–70; Ex. 1032 ¶¶ 168, 169. Lastly,
Petitioner argues, with supporting evidence, that dependent claims 2–15 are
obvious over Silverman, Togher, Cooper, and Hogan. Pet. 71–80.
Notwithstanding Patent Owner’s arguments, which we address below,
we are persuaded by Petitioner’s showing, which we adopt as our own, that
claims 1–15 are unpatentable based on the combination of Silverman,
Togher, Cooper, and Hogan for the reasons provided by Petitioner. Here,
and with respect to claim 1 in particular, a person of ordinary skill in the art
would have recognized that the addition of Togher’s user-modifiable default
values, for example, to Silverman’s electronic trading system, would have
been nothing more than combining prior art elements according to known
56

CBM2015-00179
Patent 7,533,056 B2
methods to yield the predictable and desirable result of reducing the time
needed to place an order and reducing the number of errors by reducing the
number of operator actions (e.g., keystrokes). Ex. 1032 ¶ 165. Further, a
person of ordinary skill in the art would have recognized that adding Hogan’s
GUI teachings to the Silverman and Togher combination (e.g., selecting a
value by selecting a position along an axis for that value) would have been
obvious, as the combination would have been nothing more than combining
prior art elements according to known methods to yield the predictable and
desirable result of reducing the time and effort the user expends to
understand and enter data. Ex. 1032 ¶¶ 168, 169.
Patent Owner’s Contentions
Patent Owner argues that Silverman’s Figures 4, 5, and 17 show
logical models, not a GUI. PO Resp. 68–71. Patent Owner acknowledges
that Silverman describes a display and a separate order entry tool. Id. at 70–
71 (citing Ex. 2169 ¶ 75). As explained above, Silverman describes that the
system will display the best inside price for every instrument traded on the
system, and preferably the prices are displayed together with the quantity bid
or offered at the specified price so that the trader at the keystation can
observe the market activity. Ex. 1010, 6:57–60, 15:50–55. Order entry may
be accomplished through conventional means, such as a keyboard or a
mouse. Id. at 14:63–64.
Patent Owner argues, however, that such a conventional display and
separate entry tool is not a GUI and that Silverman does not describe
implementing its figures as a GUI (arguing specifically that nowhere does
57

CBM2015-00179
Patent 7,533,056 B2
Silverman describe that data would be displayed in the manner shown in Fig.
5). PO Resp. 68–71. Based on a similar line of reasoning, Patent Owner also
argues that Mr. Román’s testimony cannot be relied upon because
Silverman’s figures were not implemented as GUIs and Mr. Román’s
testimony is based on his understanding that Silverman’s figures were
implemented as GUIs. PO Resp. 74–75 (citing Ex. 2169 ¶¶ 71–89). Patent
Owner’s arguments are not persuasive.
None of the claims recite a “GUI” or graphical user interface.
Arguably, the only claim 1 step that would be in the realm of requiring a
GUI, would be the step of “receiving a user input indicating a desired price
… the desired price being specified by selection of one of a plurality of
locations corresponding to price levels along the price axis.” But even
assuming that the claims require a GUI, Patent Owner’s arguments that
Silverman alone fails to describe a GUI are misplaced. Petitioner does not
assert that Silverman anticipates claims 1–15. Rather, the challenge is based
on the combination of Silverman, Togher, Cooper, and Hogan. Hogan
describes a GUI, and Petitioner relies on Hogan for the receiving a user input
indicating a desired price step. Pet. 67–69. Mr. Roman testifies to this as
well. Ex. 1032 ¶¶ 154–155, 159–160, 169. Accordingly, Patent Owner’s
arguments attacking Silverman alone are not persuasive. Lastly, we do not
find that Mr. Román’s testimony (see, e.g., Ex. 1032 ¶ 166) regarding what
was implemented by Reuters as further support for combining Silverman,
Togher, and Hogan discredits his other testimony (see, e.g., Ex. 1032 ¶¶ 154–
155, 159–160, 169) regarding the obviousness of the claims before us. We
credit his testimony regarding the obviousness of the claims, and moreover,
58

CBM2015-00179
Patent 7,533,056 B2
give his testimony more weight than that of Patent Owner’s witness, Mr.
Thomas, because his testimony (see, e.g., Ex. 2169 ¶¶ 80–89), like Patent
Owner’s arguments is focused narrowly on the teachings of Silverman alone.
We also have considered Patent Owner’s argument that a person
having ordinary skill in the art at the time of the invention would not have
implemented Silverman as a GUI (PO Resp. 71–73), but are not persuaded
by such argument. Patent Owner argues that implementing Silverman’s
figures as trading GUIs would not result in a useful product for a trader
because the resulting display would result in a large amount of unused screen
space. Id. (citing Ex. 2169 ¶¶ 90, 92). Patent Owner’s argument is
misplaced as the broad claims do not include any orientation limitations or
limitations regarding screen space.
We next address Patent Owner’s argument that Silverman does not
disclose the claimed “price axis.” PO Resp. 76–77. In essence, claim 1
requires displaying data (e.g., bid and offer indicators) along a price axis.
The claim 1 method further requires receiving a user input indicating a
desired price for an order by selecting one of a plurality of locations
corresponding to price levels along the price axis. First, Patent Owner’s
arguments are based on a narrow interpretation of a “price axis” which we
disagree with as discussed above in the claim construction section of this
opinion. In any event, Petitioner accounts for Patent Owner’s narrow
interpretation of “price axis.” While Petitioner characterizes the modified
Silverman Figure 5 shown above as showing a “price axis,” Petitioner also
relies on Hogan and the knowledge of a person of ordinary skill in the art to
explain that displaying indicators along a price axis was known at the time of
59

CBM2015-00179
Patent 7,533,056 B2
the invention. Pet. 61–63, 67–69; Ex. 1032 ¶¶ 153, 155, 160–161. Thus,
Patent Owner’s arguments regarding Silverman alone (see, e.g., PO Resp.
76–77) are not sufficient to show fault in the Petitioner’s reliance on
Silverman, Hogan, and the knowledge of a person of ordinary skill in the art
for the claimed price axis.
Patent Owner argues that the addition of Hogan to Silverman does not
cure Silverman’s defects or render the combination obvious. PO Resp. 77–
79. In particular, Patent Owner argues that Silverman’s figures are not
displayed (are not GUIs). As discussed above, this argument is not
persuasive. Patent Owner additionally argues that if Silverman’s Fig. 5 bars
were replaced with Hogan’s teaching of bars representing quantity, the result
would still not meet the limitation of a price axis. The argument is based on
a narrow construction as explained above, and is without merit. In any event,
Petitioner accounts for Patent Owner’s argument that Silverman does not
describe a price axis and explains that it would have been obvious to add
labels to the Silverman price axis (Figure 5 labeled above) to help a user
determine the scale of the graphed data. Pet. 62; Ex. 1032 ¶ 153. As
discussed above, we adopt Petitioner’s showing in that regard. Patent
Owner, on the other hand, does not address Petitioner’s showing that it
would have been obvious to add labels to the Silverman price axis to assist a
user to determine the scale of the graphed data—a showing we pointed out in
our Decision to Institute as well, putting Patent Owner on plenty of notice
that such a showing would be an issue for trial. Dec. 28. In summary, we
have considered all of Patent Owner’s arguments with respect to claim 1, but
determine them to be unpersuasive.
60

CBM2015-00179
Patent 7,533,056 B2
Patent Owner presents arguments with respect to claims 5–7. PO
Resp. 79–81. Claim 5 depends directly from claim 1 and includes displaying
an order icon at a location that corresponds to the desired price level along
the price axis, and that the order icon indicates the user’s order at the
electronic exchange. Claims 6 and 7 each depend directly from claim 5.
Patent Owner argues that Silverman’s Figs. 13 and 14 are not a
graphical representation (GUI) provided to a user, similar to the arguments
Patent Owner made with respect to Silverman’s Figs. 4 and 5 above. For
similar reasons provided above, we are not persuaded by this argument.
In addition, and for similar reasons discussed above, we do not agree
with Patent Owner that claim 5 requires indicating the specific user order or
indicating to the user that it is his order. Id. at 79–81. Patent Owner’s
arguments in that regard are not commensurate in scope with what is
claimed. Patent Owner does not argue for the separate patentability of claims
6 and 7.
Secondary Considerations
In its brief, Patent Owner has a section titled “The Failure of Others to
Make the Claimed Combination Demonstrates the Non-obviousness of the
Invention.” PO Resp. 56–64. That section, however, bears little resemblance
to a typical showing of secondary consideration of a failure of others to make
the claimed invention and does not appear to be particularly relevant to this
proceeding. For example, Patent Owner spends several pages (see, e.g., PO
Resp. 60–62) discussing U.S. Patent No. 6,772,132 without explaining how
that discussion is relevant to the proceeding before us. Patent Owner’s
arguments as to why a person having ordinary skill in the art would have
61

CBM2015-00179
Patent 7,533,056 B2
viewed TSE (and alternatively Silverman) as wasting screen real-estate and
would have rejected its (or Silverman’s) teachings is based on whether such
teachings would have been commercially viable, which has not been shown
to be relevant to the proceeding before us. In summary, we are not persuaded
by any of Patent Owner’s arguments spanning pages 56–64 of the Patent
Owner Response.
F. Patent Owner’s Motion to Exclude
Patent Owner moves to exclude Exhibit 1003 (TSE), Mr.
Kawashima’s deposition (Ex. 1007), and portions of Exhibits 1059 and 1060.
PO Mot. to Exclude 1, 4, 6. Exhibit 1003 is the Japanese version of the TSE
document. See, e.g., Paper 131, 2. Patent Owner seeks to exclude Exhibit
1003 because it has not been authenticated per rule 901 of the Federal Rules
of Evidence (FRE). Patent Owner recognizes that Petitioner relies on Mr.
Kawashima’s testimony (Ex. 1007) to authenticate TSE, but argues that his
testimony is hearsay. PO Mot. to Exclude 2–6. Patent Owner, however,
acquiesces that Mr. Kawashima’s testimony is not hearsay because he was
cross examined. Patent Owner also argues that Mr. Kawashima’s testimony
raises more doubt than it resolves. Id. at 6–7.
Patent Owner’s motion with respect to the exclusion of TSE (Exhibit
1003) and Mr. Kawashima’s deposition (Exhibit 1007) falls far short of what
is required in a motion. The statement of the precise relief requested is
lacking. For example, Patent Owner argues that TSE and Mr. Kawashima’s
deposition should be excluded, but also argues that Mr. Kawashima’s
deposition falls under the FRE 807 hearsay exception, and, therefore, is
admissible. See, e.g., PO Mot. to Exclude 2–6. We understand Patent
62

CBM2015-00179
Patent 7,533,056 B2
Owner’s position to be that if we exclude any of Patent Owner’s evidence,
then we also should exclude Exhibits 1003 and 1007. Id. at 6 (“To the extent
the Board excludes any of Patent Owner’s evidence from district court
litigation, which it should not, the Board should likewise exclude the 2005
Kawashima deposition transcript.”).
We are not persuaded by Patent Owner’s arguments. Patent Owner
has not met its burden to show that either Exhibit 1007 or Exhibit 1003
should be excluded from the record. In fact, Patent Owner appears to
concede that Mr. Kawashima’s testimony is not hearsay because it falls under
an exception to the hearsay rule. Nor are we persuaded by Patent Owner’s
argument that the deposition testimony of Mr. Kawashima (Ex. 1003) raises
more doubt than it resolves. PO Mot. to Exclude 6–8. In essence, Patent
Owner’s arguments go to the weight we should give Mr. Kawashima’s
testimony, which is not a proper argument for a motion to exclude. For all of
these reasons, we are not persuaded that either Exhibit 1003 or 1007 should
be excluded from the record and deny that portion of the motion seeking to
exclude those exhibits.
Patent Owner also seeks to exclude pages 57–58 of Exhibit 1059 (the
cross examination testimony of Mr. Olsen) and pages 248 and 263–269 of
Exhibit 1060 (the cross examination testimony of Mr. Thomas). We did not
and need not consider the specific pages objected to in Exhibits 1059 and
1060. We have determined that Petitioner has demonstrated, by a
preponderance of the evidence, that the challenged claims are unpatentable,
without considering the specific objected to pages or the portion of
Petitioner’s Reply that relies on such evidence and thus dismiss that portion
63

CBM2015-00179
Patent 7,533,056 B2
of the motion seeking to exclude portions of Exhibits 1059 and 1060.
Accordingly, we deny-in-part and dismiss-in-part Patent Owner’s Motion to
Exclude.
G. Petitioner’s Motion to Exclude
Petitioner moves to exclude Exhibits 2300, 2301, 2304–2316, 2318–
2324, 2326–2330, 2030, and 2032 in their entirety. Pet. Mot. to Exclude 1.
Exhibit 2327 is a portion of a deposition of Thomas Biddulph from a district
court case. Patent Owner’s witnesses, inventors Mr. Friesen and Mr. Hart
reference Exhibit 2327 in their respective declarations (Exs. 2167 and 2181)
in support of their testimony regarding an actual reduction to practice of the
claimed invention. We find it unnecessary to consider the specific objections
to the admissibility of Exhibit 2327, since Patent Owner’s arguments
regarding an actual reduction to practice of the claimed invention are not
persuasive for the reasons provided above, even assuming Exhibit 2327 to be
admissible.
Exhibits 2030 and 2032 are a jury verdict and docket entry,
respectively, associated with an earlier district court case involving Patent
Owner and a third party. Although Patent Owner relies on Exhibit 2030 in
its Response, we do not find where it relies on Exhibit 2032. In any event,
we understand Patent Owner to rely on at least Exhibit 2030 in support of its
arguments that TSE is not prior art. PO Resp. 39, n. 5. Petitioner moves to
exclude the exhibits as irrelevant and inadmissible. Pet. Mot. to Exclude 5.
We find it unnecessary to consider the specific objections to the admissibility
of Exhibits 2030 and 2032, since Patent Owner’s arguments that TSE is not
prior art are not persuasive for the reasons provided above, even assuming
64

CBM2015-00179
Patent 7,533,056 B2
Exhibits 2030 and 2032 to be admissible.
Exhibit 2301 is a document Patent Owner relies on to support prior
conception. Petitioner moves to exclude the document for lack of
authenticity. Id. at 6. We find it unnecessary to consider the specific
objections to the admissibility of Exhibit 2301, since Patent Owner’s
arguments that it conceived the invention prior to TSE are not persuasive for
the reasons provided above, even assuming Exhibit 2301 to be admissible.
Exhibits 2300, 2304–2316, 2318–2324, 2326, 2328, and 2329 are
various third-party emails. Petitioner objects to the emails for lack of
authenticity and hearsay to which no exception applies. Id. Patent Owner
relies on the emails in support of its arguments regarding diligence. We find
it unnecessary to consider the specific objections to the admissibility of
Exhibits 2300, 2304–2316, 2318–2324, 2326, 2328, and 2329, since Patent
Owner’s arguments regarding diligence are not persuasive for the reasons
provided above, even assuming Exhibits 2300, 2304–2316, 2318–2324,
2326, 2328, and 2329 to be admissible.
Accordingly, we dismiss Petitioner’s Motion to Exclude.
III. CONCLUSION 19
For all of the above reasons, we determine that Petitioner has shown
by a preponderance of the evidence that claims 1–15 of the ’056 patent are
unpatentable based on the following grounds:
claims 1–15 under 35 U.S.C. § 101 as being patent ineligible;
19

In making the obviousness conclusions, we recognize that it is the subject
matter of each claim, as a whole, that is evaluated, rather than just each
65

CBM2015-00179
Patent 7,533,056 B2
claims 1–15 under 35 U.S.C. § 103 as being unpatentable over TSE,
Togher, and Schott; and
claims 1–15 under 35 U.S.C. § 103 as being unpatentable over
Silverman, Togher, Cooper, and Hogan.
IV. ORDER
It is
ORDERED that claims 1–15 of the ’056 patent are unpatentable;
FURTHER ORDERED that Patent Owner’s Motion to Exclude
Evidence is denied-in-part and dismissed-in-part;
FURTHER ORDERED that Petitioner’s Motion to Exclude Evidence
is dismissed; and
FURTHER ORDERED that, because this is a Final Written Decision,
parties to the proceeding seeking judicial review of the Decision must
comply with the notice and service requirements of 37 C.F.R. § 90.2.

individual limitation, separately. 35 U.S.C. § 103.
66

CBM2015-00179
Patent 7,533,056 B2
PETITIONER:
Robert Sokohl
Lori Gordon
Richard Bemben
STERNE, KESSLER, GOLDSTEIN & FOX
Rsokohl-ptab@skgf.com
Lgordon-ptab@skgf.com
Rbemben-ptab@skgf.com
John Phillips
FISH & RICHARDSON P.C.
CBM41919-0007CP1@fr.com
PATENT OWNER:
Erika Arner
Joshua Goldberg
Kevin Rodkey
Rachel Emsley
Cory Bell
FINNEGAN, HENDERSON, FARABOW, GARRETT & DUNNER, LLP
Erika.arner@finnegan.com
Joshua.goldberg@finnegan.com
Kevin.rodkey@finnegan.com
Rachel.emsley@finnegan.com
cory.bell@finnegan.com
Michael Gannon
Leif Sigmond
Jennifer Kurcz
MCDONNELL BOEHNEN HULBERT & BERGHOFF LLP
gannon@mbhb.com
sigmond@mbhb.com
kurcz@mbhb.com
Steven F. Borsand
67

CBM2015-00179
Patent 7,533,056 B2
Jay Knobloch
TRADING TECHNOLOGIES INTERNATIONAL, INC.
tt-patent-cbm@tradingtechnologies.com
jay.knobloch@tradingtechnologies.com

68

Appendix

D

Trials@uspto.gov
Tel: 571-272-7822

Paper 51
Entered: August 14, 2017

UNITED STATES PATENT AND TRADEMARK OFFICE
_______________
BEFORE THE PATENT TRIAL AND APPEAL BOARD
_______________
IBG LLC, INTERACTIVE BROKERS LLC,
TRADESTATION GROUP, INC., and
TRADESTATION SECURITIES, INC.,
Petitioner,
v.
TRADING TECHNOLOGIES INTERNATIONAL, INC.,
Patent Owner.
____________
CBM2016-00032
Patent 7,212,999 B2
_______________
Before SALLY C. MEDLEY, MEREDITH C. PETRAVICK, and
JEREMY M. PLENZLER, Administrative Patent Judges.
PETRAVICK, Administrative Patent Judge.

FINAL WRITTEN DECISION
35 U.S.C. § 328(a) and 37 C.F.R. § 42.73

CBM2016-00032
Patent 7,212,999 B2
INTRODUCTION
A.

Background

IBG LLC, Interactive Brokers LLC, TradeStation Group, Inc., and
TradeStation Securities, Inc. (collectively, “Petitioner”) filed a Petition
requesting a covered business method patent review of claims 1–35 of
U.S. Patent No. 7,212,999 B2 (Ex. 1001, “the ’999 patent”). Paper 1
(“Pet.”). Trading Technologies International, Inc. (“Patent Owner”) filed a
Preliminary Response. Paper 12 (“Prelim. Resp.”).
On August 8, 2016, we instituted a covered business method patent
review (Paper 16, “Institution Decision” or “Inst. Dec.”) based upon
Petitioner’s assertion that claims 1–35 are directed to patent ineligible
subject matter under 35 U.S.C. § 101. Inst. Dec. 28. Subsequent to
institution, Patent Owner filed a Patent Owner Response (Paper 24, “PO
Resp.”) and Petitioner filed a Reply (Paper 29, “Pet. Reply”) to Patent
Owner’s Response. Pursuant to our authorization, Patent Owner filed an
additional submission addressing the Federal Circuit’s holding in
Technologies International, Inc., v. CQG, Inc., 675 Fed.Appx. 1001 (Fed.
Cir. 2017) (“CQG”) (Paper 36) and Petitioner filed a reply to that
submission (Paper 37). Petitioner filed a Motion to Exclude Evidence
(Paper 39, “Pet. MTE”), and Patent Owner filed a Motion to Exclude
Evidence (Paper 41, “PO MTE”).
We held a joint hearing of this case and several other related cases on
May 3, 2017. Paper 50 (“Tr.”).

2

CBM2016-00032
Patent 7,212,999 B2
We have jurisdiction under 35 U.S.C. § 6. This Final Written
Decision is issued pursuant to 35 U.S.C. § 328(a) and 37 C.F.R. § 42.73.
For the reasons that follow, we determine that Petitioner has shown
sufficiently that claims 1–35 of the ’999 patent are directed to patent
ineligible subject matter under 35 U.S.C. § 101.
B.

Related Proceedings

The ’999 patent is involved in the following lawsuits: TT v. IBG LLC,
No. 1:10-cv-00721 (N.D. Ill.) and TT v. TradeStation Securities, Inc., 1:10cv-884 (N.D. Ill.). Pet. 3.
Numerous patents are related to the ’999 patent and the related patents
are or were the subject of numerous petitions for covered business method
patent review and reexamination proceedings. As noted above, the Federal
Circuit has issued a non-precedential decision, CQG, which addresses
whether claims of U.S. Patent Nos. 6,766,304 (“the ’304 patent”) and
6,772,132 (“the ’132 patent”) are patent eligible under § 101. The ’999
patent at issue in this case is not related to the ’132 and ’304 patents via
continuation or divisional filings.
C.

Asserted Grounds of Unpatentability

Petitioner contends that the challenged claims are unpatentable under
35 U.S.C. § 101. Pet. 19–35.
D.

The ’999 Patent

The ’999 patent describes a graphical user interface (“GUI”) for an
electronic trading system that allows a remote trader to view trends for an

3

CBM2016-00032
Patent 7,212,999 B2
item, which assists the trader to anticipate demand for an item. Ex. 1001,
2:3–6. Figure 3A of the ’999 patent is reproduced below.

Figure 3A depicts a GUI that includes: 1) value axis 332, which
indicates the value at which an item is being traded, 2) multiple offer icons
304(1)–304(8), and 3) multiple bid icons 300(1)–300(8). Id. at 6:13–15.
The offer icons and the bid icons represent orders in the marketplace. Id.
A trader can place an order using the GUI in a variety of ways. Id. at
8:26–27. The trader can use task bar 328 to enter the required information
and submit the order using the “Place Order” button. Id. at 8:27–33.
Alternatively, the trader can select offer token 324 or bid token 320 using a
pointing device, adjust the size of the token to match a desired quantity, and
drag-and-drop the token to a location that corresponds to the desired value of
the order. Id. at 8:38–58. Either a Buy pop-up window or a Sell pop-up
4

CBM2016-00032
Patent 7,212,999 B2
window is displayed, which allows the trader to modify, cancel, or submit
the order. Id. at 8:54–65; Figs. 3d, 3e.
E.

Illustrative Claim

Claims 1 and 35 are independent claims. Claims 2–34 directly or
indirectly depend from claim 1. Claim 1 of the ’999 patent is illustrative of
the subject matter at issue.
1. A computer based method for facilitating the placement of an
order for an item and for displaying transactional information to
a user regarding the buying and selling of items in a system
where orders comprise a bid type or an offer type, and an order
is generated for a quantity of the item at a specific value, the
method comprising:
displaying a plurality of bid indicators, each
corresponding to at least one bid for a quantity of the
item, each bid indicator at a location along a first scaled
axis of prices corresponding to a price associated with the
at least one bid;
displaying a plurality of offer indicators, each
corresponding to at least one offer for a quantity of the
item, each offer indicator at a location along a first scaled
axis of prices corresponding to a price associated with the
at least one offer;
receiving market information representing a new order to
buy a quantity of the item for a specified price, and in
response to the received market information, generating a
bid indicator that corresponds to the quantity of the item
bid for and placing the bid indicator along the first scaled
axis of prices corresponding to the specified price of the
bid;
5

CBM2016-00032
Patent 7,212,999 B2
receiving market information representing a new order to
sell a quantity of the item for a specified price, and in
response to the received market information, generating
an offer indicator that corresponds to the [q]uantity of the
item for which the offer is made and placing the offer
indicator along the first scaled axis of prices
corresponding to the specified price of the offer;
displaying an order icon associated with an order by the
user for a particular quantity of the item;
selecting the order icon and moving the order icon with a
pointer of a user input device to a location associated
with a price along the first scaled axis of prices; and
sending an order associated with the order icon to an
electronic trading exchange, wherein the order is of a bid
type or an offer type and the order has a plurality of order
parameters comprising the particular quantity of the item
and the price corresponding to the location at which the
order icon was moved.
ANALYSIS
A.

Claim Construction

In a covered business method patent review, claim terms in an
unexpired patent are given their broadest reasonable construction in light of
the specification of the patent in which they appear. 37 C.F.R. § 42.300(b);
Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct. 2131, 2144–46 (2016)
(upholding the use of the broadest reasonable interpretation approach).
Under the broadest reasonable construction standard, claim terms are given
their ordinary and customary meaning, as would be understood by one of
6

CBM2016-00032
Patent 7,212,999 B2
ordinary skill in the art in the context of the entire disclosure. In re
Translogic Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir. 2007). Any special
definition for a claim term must be set forth with reasonable clarity,
deliberateness, and precision. In re Paulsen, 30 F.3d 1475, 1480 (Fed. Cir.
1994).
1.

“axis of prices” and “indicators, icons, and tokens”

Petitioner proposes constructions for the following claim terms: “axis
of prices” and “indicators, icons, and tokens,” which are recited at least in
claims 1, 9, and 35. Pet. 13–17. Patent Owner does not challenge
Petitioner’s proposed claim constructions. We have reviewed Petitioner’s
proposed constructions and determined that they are consistent with the
broadest reasonable constructions for the reason discussed in the Petition.
Id. We adopt the following claim constructions:
Claim Term
axis of prices

Construction
a reference line for plotting prices,
including labeled, unlabeled, visible,
and invisible reference lines
a symbol such as an alphanumeric
character or a graphic representation
of an item

indicators, icons, and tokens

B.

Covered Business Method Patent

Section 18 of the Leahy-Smith America Invents Act, Pub. L. No. 112–
29, 125 Stat. 284, 329 (2011) (“AIA”) provides for the creation of a
transitional program for reviewing covered business method patents.
Section 18 limits review to persons or their privies who have been sued or
charged with infringement of a “covered business method patent,” which
7

CBM2016-00032
Patent 7,212,999 B2
does not include patents for “technological inventions.” AIA § 18(a)(1)(B),
(d)(1); see 37 C.F.R. § 42.302. In compliance with 37 C.F.R. § 42.302(a),
Petitioner certifies that it has been sued for infringement of the ’999 patent.
Pet. 3.
Based on the record before us, we are apprised of no reason to change
the determination in our Institution Decision that at least claim 1 of the ’999
patent is directed to a covered business method. Inst. Dec. 6–13.
1. “Method or Corresponding Apparatus for Performing Data
Processing or Other Operations Used in the Practice,
Administration or Management of a Financial Product or
Service”
The statute defines a “covered business method patent” as
[a] patent that claims a method or corresponding apparatus for
performing data processing or other operations used in the
practice, administration, or management of a financial product or
service.
AIA § 18(d)(1); see 37 C.F.R. § 42.301(a). A covered business method
patent can be broadly interpreted to encompass patents claiming activities
that are financial in nature. Transitional Program for Covered Business
Method Patents—Definitions of Covered Business Method Patent and
Technological Invention, 77 Fed. Reg. 48734, 48735 (Aug. 14, 2012); Blue
Calypso, LLC v. Groupon, Inc., 815 F.3d 1331, 1338–41 (Fed. Cir. 2016)
(determining that a patent was a covered business method patent because it
claimed activities that are financial in nature); Unwired Planet, LLC v.
Google, Inc., 841 F.3d 1376, n. 5 (Fed. Cir. 2016) (stating that “we endorsed
the ‘financial in nature’ portion of the standard as consistent with the
8

CBM2016-00032
Patent 7,212,999 B2
statutory definition of ‘covered business method patent’ in Blue Calypso”),
Versata Development Group, Inc. v. SAP America, Inc., 793 F.3d 1306,
1324–25 (Fed. Cir. 2015) (“[The statute] on its face covers a wide range of
finance-related activities.”).
A patent need have only one claim directed to a covered business
method to be eligible for review. 77 Fed. Reg. at 48,736 (Response to
Comment 8). We take claim 1 as representative.
Petitioner contends that the ’999 patent is a covered business method
patent because the claims recite receiving and displaying market information
and sending a trade order to an electronic exchange, which are financial
activities. Pet. 4–5 (citing claim 1 of the ’999 patent); Pet. Reply 22–24.
Patent Owner does not dispute that the claims are directed to a financial
product or service and, instead, contends that the ’999 patent is not a covered
business method patent because the claims are not directed to data
processing or other business method operations. See PO Resp. 52–55.
Patent Owner contends that, regardless that some claims recite a method, the
claims of the ’999 patent are directed to a device, a GUI tool, and not a data
processing or business method claim. Id. at 59–60.
Initially we note that a covered business method patent is not limited
to only patents that claim a method, as opposed to a device. Covered
business method patents include a patent that claims “a method or
corresponding apparatus.” AIA § 18(d)(1); see 37 C.F.R. § 42.301(a).
Claim 1 of the ’999 patent recites: “A computer based method for facilitating
the placement of an order for an item and for displaying transactional
9

CBM2016-00032
Patent 7,212,999 B2
information to a user regarding the buying and selling of items . . . .” Ex.
1001, 14:7–10. As Petitioner points out, claim 1 recites steps of: 1)
displaying market information, including indicators of bids and offers in the
market, 2) receiving and displaying market information, including new bids
and new offers in the market, 3) displaying, selecting, and moving an order
icon to a location along an axis of prices, and 4) sending a trade order to an
electronic trading exchange. Pet. 4; Ex. 1001, 14:7–47.
Buying and selling items and sending a trade order to an electronic
exchange are activities that are financial in nature. A method for facilitating
the placement of an order for an item and for displaying transactional
information to a user regarding the buying and selling of items is a method
for performing data processing or other operations used in the practice,
administration, or management of a financial product or service.
Patent Owner disputes that the ’999 patent claims data processing.
PO Resp. 53–55. Patent Owner argues that the statute requires that the “data
processing” cause a significant change in the data, and that data processing
that merely displays the data, like the data processing disclosed in the ’999
patent, is not significant. Id. Patent Owner’s argument is based upon the
assumption that “data processing” in the statute is interpreted according to
the definition of “data processing” found in the glossary for class 705 of the
United States Patent Classification System. See id at 53. Patent Owner,
however, does not sufficiently explain why this definition is controlling, as
opposed to the plain meaning of “data processing.” See Ex. 1048 (dictionary
definition of “data processing” as “the converting of raw data to machine
10

CBM2016-00032
Patent 7,212,999 B2
readable form and its subsequent processing (as storing, updating,
rearranging, or printing out) by a computer.”), Ex. 1049 (dictionary
definition of “data processing” as “the rapid handling of large amounts of
information, as business data, by means of mechanical, or esp., computer
equipment”). We, thus, are not persuaded that “data processing” as recited
by the statute precludes data processing for the purpose of displaying the
data. The ’999 patent discloses processing market information for display
on a client terminal and for sending an order to an exchange. See e.g., Ex.
1001, 10:54–58 (“the order has been processed by the server 200”) 11:2–
4(“server 200 then processes the order information”), 11:42–44 (“the
process is repeated”). We, thus, are not persuaded that the ’999 patent does
not claim “performing data processing . . . used in the practice,
administration, or management of a financial product or service” (AIA §
18(d)(1)).
In any event, the statute does not limit covered business method
patents to only those that claim methods for performing data processing used
in the practice, administration, or management of a financial product or
service. It includes methods for performing “other operations” used in the
practice, administration, or management of a financial product or service.
Patent Owner’s arguments imply that “other operations” must be “business
operations.” See e.g., PO Resp. 52. The statute states that the “other
operations” are those that are “used in the practice, administration, or
management of a financial product or financial service.” AIA § 18(d)(1).
There appears to be no disagreement that the claimed method steps are
11

CBM2016-00032
Patent 7,212,999 B2
operations used in the practice, administration, or management of a
commodity or trading a commodity on an electronic exchange, e.g., a
financial service. The ’999 patent, therefore, at least claims “other
operations used in the practice, administration, or management of a financial
product or financial service” (AIA § 18(d)(1)).
Patent Owner additionally contends that the Legislative History
confirms that the claimed invention is not a covered business method. PO
Resp. 58–61. We are not persuaded by Patent Owner’s argument. Although
the legislative history includes certain statements that certain novel software
tools and graphical user interfaces that are used by the electronic trading
industry worker are not the target of § 18 of the AIA (see Ex. 2126, S5428,
S5433), the language of the AIA, as passed, does not include an exemption
for user interfaces for commodities trading from covered business method
patent review. Indeed, “the legislative debate concerning the scope of a
CBM review includes statements from more than a single senator. It
includes inconsistent views . . . .” Unwired Planet, 841 F.3d at 1381. For
example, in contrast to the statements cited by Patent Owner, the legislative
history also indicates that “selling and trading financial instruments and
other securities” is intended to be within the scope of covered business
method patent review. See Ex. 2126, S5432 (statements of Sen. Schumer).
“[T]he legislative history cannot supplant the statutory definition actually
adopted. . . . The authoritative statement of the Board’s authority to conduct
a CBM review is the text of the statute.” Unwired Planet, 841 F.3d at 1381.
Each claimed invention has to be evaluated individually to determine if it is
12

CBM2016-00032
Patent 7,212,999 B2
eligible for a covered business method patent review. A determination of
whether a patent is eligible for a covered business method patent review
under the statute is made on a case-by-case basis. 37 C.F.R. § 42.301(b).
For the reasons stated above, we are persuaded by Petitioner that the
’999 patent “claims a method or corresponding apparatus for performing
data processing or other operations used in the practice, administration, or
management of a financial product or service” and meets that requirement of
§ 18(d)(1) of the AIA.
2. Exclusion for Technological Inventions
Even if a patent includes claims that would otherwise be eligible for
treatment as a covered business method, review of the patent is precluded if
the claims cover only “technological invention[s],” as defined by 37 C.F.R.
§42.301(b). The definition of “covered business method patent” in §
18(d)(1) of the AIA does not include patents for “technological inventions.”
To determine whether a patent is for a technological invention, we
consider “whether the claimed subject matter as a whole [1] recites a
technological feature that is novel and unobvious over the prior art; and [2]
solves a technical problem using a technical solution.” 37 C.F.R. §
42.301(b). The following claim drafting techniques, for example, typically
do not render a patent a “technological invention”:
(a) Mere recitation of known technologies, such as computer
hardware, communication or computer networks, software,
memory, computer-readable storage medium, scanners, display
devices or databases, or specialized machines, such as an ATM or
point of sale device.
13

CBM2016-00032
Patent 7,212,999 B2
(b) Reciting the use of known prior art technology to accomplish a
process or method, even if that process or method is novel and
non-obvious.
(c) Combining prior art structures to achieve the normal, expected,
or predictable result of that combination.
Office Patent Trial Practice Guide, 77 Fed. Reg. 48,756, 48,763–64 (Aug.
14, 2012).
Both prongs must be satisfied in order for the patent to be excluded as
a technological invention. See Versata, 793 F.3d at 1326–7; Apple Inc. v.
Ameranth, Inc., 842 F.3d 1229, 1240 (Fed. Cir. 2016).
Petitioner contends that the ’999 patent is not for a technological
invention because the claims fail to recite any technological feature that is
novel and unobvious over the prior art, and do not solve a technical problem
with a technical solution. Pet. 3–9. In particular, Petitioner argues that the
claims recite trading software that is implemented using conventional
computer hardware, servers, and networks, directing attention to a
description in the ’999 patent that generically refers to “personal computers,
terminals as part of a network, or any other computing device” and no
specific hardware to carry out the invention. Id. at 6–7 (citing Ex. 1001,
4:34–36). Petitioner also argues that electronic trading was well known as
of the filing date. Id. at 7.
Patent Owner disagrees (PO Resp. 56–58), but fails to explain
sufficiently how the claimed subject matter recites a technological feature
that is novel and unobvious over the prior art or solves a technical problem
using a technical solution.
14

CBM2016-00032
Patent 7,212,999 B2
We are persuaded by Petitioner’s contentions that at least claim 1 of
the ’999 patent does not recite a novel and non-obvious technological
feature. For example, the “BACKGROUND OF THE INVENTION”
section of the ’999 patent explains that it was well known for an exchange to
record all transactions for a particular item and to replay or post to the
individual traders outstanding bids with the highest values and outstanding
offers with the lowest value, along with a quantity specified for each order,
to facilitate trading a commodity. Ex. 1001, 1:31–41. There is no indication
in the ’999 patent that the inventors invented gathering market information,
displaying it to a trader, and using the information to facilitate trading a
commodity. See PO Resp. 57–58 (“This is correct.”). The use of a
computer to perform these functions also was known in the art at the time of
the invention, and the ’999 patent does not claim any improvement of a
computing device.
Patent Owner argues that the ’999 patent is for a technological
invention because the claims are directed to a novel and nonobvious GUI
tool that improves, and transforms, a computer so it can perform functions it
previously could not. PO Resp. 56–58. We disagree that claim 1, for
example, is directed to a novel and nonobvious GUI tool that improves, and
transforms, a computer so it can perform functions it previously could not.
Patent Owner’s arguments in that regard are conclusory, and not directed to
any specific language from the claims themselves. As explained above,
claim 1 is directed to a method for facilitating the placement of an order for
an item and for displaying transactional information to a user regarding the
15

CBM2016-00032
Patent 7,212,999 B2
buying and selling of items, that requires receiving and displaying market
information, including indicators of bids and offers in the market and
displaying, selecting, and moving an order icon to a location along an axis of
prices, and sending a trade order to an electronic trading exchange. Ex.
1001, 14:7–47. Moreover, there is no specific computer, program, or
processing described in the ’999 patent beyond what was known in the art at
the time of the invention.
Given the above, we determine that claim 1 does not recite a
technological feature that is novel and unobvious over the prior art. Because
both prongs must be satisfied for a patent to be excluded from covered
business method patent review for being a technological invention, we find
that the ’999 patent is eligible for a covered business method patent review
for at least the reason that claim 1 fails to recite a technological feature that
is novel and unobvious.
Notwithstanding our determination above, we also are persuaded by
Petitioner that the ’999 patent does not solve a technical problem with a
technical solution.
Petitioner also argues that the claimed subject matter does not solve a
technical problem using a technical solution, because the problem is a
financial one and the solution is to rearrange available market data on a
display. Pet. 8–9. In contrast, Patent Owner argues that the claimed subject
matter recites a new GUI design (a new technology) that addressed the
problem with the old GUI design, and, thus, is directed to solving a technical
problem using a technical solution. PO Resp. 56–58. Patent Owner states
16

CBM2016-00032
Patent 7,212,999 B2
“GUI design is a technology, so new GUIs designed to improve
conventional GUIs are necessarily technological solutions to technological
problems.” Id. at 56.
We are persuaded by Petitioner that the problem disclosed in the ’999
patent is not a technical one. The ’999 patent’s specification highlights the
problem and importance of informing a trader of certain stock market events
so that the trader may use such information to facilitate trading a
commodity. Ex. 1001, 2:19–26. The ’999 patent states:
The successful trader anticipates the rise or fall of the value of
an item and performs his or her own transaction before[]the rest
of the market is aware of the item’s potential gain or loss in
value. Thus, anticipation of the market is specifically of the
future demand for an item of interest is critical to the success of
a trader.
Ex. 1001, 1:20–26.
The ’999 patent explains that traders use latest order information and
other information, including historical transaction data, to anticipate the
market and that “it is often difficult for a trader to quickly assemble this
information from diverse and often unrelated sources or even effectively
process all of this information in order to make an informed transaction
decision.” Id. at 1:51–54. Informing a trader of certain stock market trends
or events is more of a financial problem than a technical problem. The ’999
patent solves this problem by “present[ing] this information in an intuitive
format, allowing the trader to make informed decisions quickly.” Id. at
2:39–41. We are persuaded by Petitioner that the ’999 patent does not solve
a technical problem with a technical solution. Further, as discussed above,
17

CBM2016-00032
Patent 7,212,999 B2
claim 1 requires the use of only known technology.
Patent Owner proffers the testimony of Eric Gould-Bear and Dan
Olsen to show that GUIs are technology and the claimed invention is a
technical solution to a technical problem. See, e.g., PO Resp. 19–21 (citing
Ex. 2168 ¶¶ 23–38, Ex. 2174 ¶¶ 13–15, Ex. 2169 ¶¶ 16–18 testimony of Eric
Gould-Bear, Dan Olsen, and Christopher Thomas, respectively). The
testimony of Mr. Gould-Bear, Dr. Olsen, and Mr. Christopher Thomas is
unpersuasive because, although their testimony addresses related patents, it
does not specifically address the claimed invention of the ’999 patent. For
example, Mr. Gould-Bear’s testimony is directed to U.S. Patent No
7,904,374. See Ex. 2168 ¶ 1. Likewise, Dr. Olsen’s testimony is not
directed to the claimed invention of the ’999 patent. See Ex. 2174 ¶ 6, Ex.
2169 ¶ 2. The claims of U.S. Patent No 7,904,374 recite features not recited
by the claims of the ’999 patent.
Given this, we are persuaded that at least claim 1 does not solve a
technical problem using a technical solution and does not satisfy the second
prong of 37 C.F.R. § 42.301(b).
3. Conclusion
In view of the foregoing, we conclude that the ’999 patent is a covered
business method patent under AIA § 18(d)(1) and is eligible for review
using the transitional covered business method patent program.
C.

Section 101 Patent-Eligible Subject Matter

Petitioner challenges claims 1–35 of the ’999 patent as directed to
patent-ineligible subject matter under 35 U.S.C. § 101. Pet. 19–35. Patent
Owner disagrees. PO Resp. 3–50
18

CBM2016-00032
Patent 7,212,999 B2
Under 35 U.S.C. § 101, we must first identify whether an invention
fits within one of the four statutorily provided categories of patenteligibility: “processes, machines, manufactures, and compositions of
matter.” Ultramercial, Inc. v. Hulu, LLC, 772 F.3d 709, 713–14 (Fed. Cir.
2014).
Initially, we note that Petitioner asserts that independent claim 35 of
the ’999 patent is invalid because it encompasses a transitory, propagating
signal that is encoded, which is subject matter that does not fall into any of
the four statutory classes of § 101. Pet. 25 (citing In re Nuijten, 550 F.3d
1346, 1352 (Fed. Cir. 2007)); Pet. Reply 18. In our Institution Decision, we
determined that the broadest reasonable interpretation, in light of the
specification of the ’999 patent, encompasses transitory media, but we noted
that our construction was preliminary and specifically indicated that “[t]he
broadest reasonable interpretation, in light of the specification, of ‘recorded’
is an issue that requires further development of the record.” Inst. Dec. 15.
Patent Owner responds that there is no evidence to support
Petitioner’s contention that one skilled in the art would have understood
“computer readable medium having program code recorded thereon” to
encompass a signal at the time of the invention. PO Resp. 48. Petitioner
responds to Patent Owner’s contentions by simply asserting that “the Board
should apply the same BRI of ‘computer readable medium’ that the PTO has
applied in thousands of matters.” Pet. Reply 22–24 (citing Manual of Patent
Examining Procedures § 2106, Ex parte Mewherter, 107 USPQ2d
1857(PTAB 2013) (precedential)).
19

CBM2016-00032
Patent 7,212,999 B2
Petitioner’s response is unhelpful. Petitioner fails to offer sufficient
evidence or persuasive argument as to how one skilled in the art would have
understood the phrase “computer readable medium having program code
recorded thereon” as it relates to the ’999 patent. At oral hearing, when
asked why no evidence was provided in this regard, Petitioner had no
explanation other than “it would be difficult . . . because this is a term of art
in the patent field” and “you can[not] go to an IEEE dictionary and find
necessarily a dictionary definition that would be helpful here.” Tr. 71:4–10.
Accordingly, on this record, we are not persuaded by Petitioner that at
the time of the invention one skilled in the art would have understood
“computer readable medium having program code recorded thereon” as
encompassing transitory, propagating signals.
Even if claim 35 fits within one of the categories of patent-eligibility,
we are persuaded that claims 1–35 do not recite patent-eligible subject
matter for the reasons that follow.
1. Eligibility
Patent-eligible subject matter is defined in § 101 of the Patent Act,
which recites:
Whoever invents or discovers any new and useful process,
machine, manufacture, or composition of matter, or any new and
useful improvement thereof, may obtain a patent therefor, subject
to the conditions and requirements of this title.
There are, however, three judicially created exceptions to the broad
categories of patent-eligible subject matter in § 101: laws of nature, natural
phenomena, and abstract ideas. Alice Corp. Pty. Ltd. v. CLS Bank Int’l, 134
20

CBM2016-00032
Patent 7,212,999 B2
S. Ct. 2347, 2354 (2014); Mayo Collaborative Servs. v. Prometheus Labs.,
Inc., 132 S. Ct. 1289, 1293 (2012). Although an abstract idea, itself, is
patent-ineligible, an application of the abstract idea may be patent-eligible.
Alice, 134 S. Ct. at 2355. Thus, we must consider “the elements of each
claim both individually and ‘as an ordered combination’ to determine
whether the additional elements ‘transform the nature of the claim’ into a
patent-eligible application.” Id. (citing Mayo, 132 S. Ct. at 1297–98). The
claim must contain elements or a combination of elements that are
“sufficient to ensure that the patent in practice amounts to significantly more
than a patent upon the [abstract idea] itself.” Id. (citing Mayo, 132 S. Ct. at
1294).
2. Abstract Idea
“The ‘abstract idea’ step of the inquiry calls upon us to look at the
‘focus of the claimed advance over the prior art’ to determine if the claim’s
‘character as a whole’ is directed to excluded subject matter.” Affinity Labs
of Texas v. DirectTV, LLC, 838 F.3d 1253, 1257 (Fed. Cir. 2016) (quoting
Elec. Power Grp., LLC v. Alstom S.A., 830 F.3d 1350, 1353 (Fed. Cir.
2016); see also Enfish, LLC v. Microsoft Corp., 822 F.3d 1327, 1335 (Fed.
Cir. 2016). “The § 101 inquiry must focus on the language of the Asserted
Claims themselves.” Synopsys, Inc. v. Mentor Graphics Corp., 839 F.3d
1138, 1149 (Fed. Cir. 2016); see also Accenture Global Servs., GmbH v.
Guidewire Software, Inc., 728 F.3d 1336, 1345 (Fed. Cir. 2013)
(admonishing that “the important inquiry for a § 101 analysis is to look to
the claim”); Content Extraction & Transmission LLC v. Wells Fargo Bank,
21

CBM2016-00032
Patent 7,212,999 B2
Nat’l Ass’n, 776 F.3d 1343, 1346 (Fed. Cir. 2014) (“We focus here on
whether the claims of the asserted patents fall within the excluded category
of abstract ideas.”).
According to Petitioner, the challenged claims are directed to the
abstract idea of graphing (or displaying) bids and offers to assist a trader to
make an order. Pet. 19–20. This is consistent with claim 1 of the ’999
patent. Claim 1 is representative of independent claims 1 and 35. Claim 1
recites a “method for facilitating the placement of an order for an item and
for displaying transactional information to a user regarding the buying and
selling of items.” Claim 1 recites multiple steps of receiving and displaying
market information, including indicators of bids and offers in the market, of
new bids and offers in the market, and of an order by the user. Claim 1 also
recites steps that require sending an order to an electronic trading exchange.
The focus of the claim is on collecting and displaying market order
information so that a user (i.e., a trader) can place an order. The disclosure of
the purported problem solved by the ’999 patent is consistent with this
focus. The ’999 patent discloses that the difference between its system and
“conventional systems” is that its system displays all of the outstanding bid
and offer orders and not just the highest bid and lowest offer to a trader. Ex.
1001, 2:15–19, 2:28–38. A trader having such information is at an
advantage because the trader can better anticipate the market and future
demand for an item when placing an order. Id. at 1:26–58. Collecting
information and displaying the information, without more, is within the
realm of abstract ideas. Electric Power Group, LLC v. Alstom S.A., 830 F.2d
22

CBM2016-00032
Patent 7,212,999 B2
1350, 1352 (Fed. Cir. 2016).
Claim 1 does not recite any limitation that specifies how the computer
implements the steps. See PO Resp. 57 (“the claims are to the functioning of
GUI tool, not to the underlying computer by itself or to how instructions in
software to provide a particular interface to an application are translated by
the computer to control the individual pixels of a screen.”) For example,
claim 1 recites displaying an arrangement of the market information. Claim
1 requires displaying bid and offer indicators along a scaled axis of prices.
Id. at 14:13–22. The ’999 patent does not disclose an unconventional or
improved method of mapping the bid indicators, offer indicators, or scaled
price axis to the display. As Petitioner points out, numerous prior art
references disclose that plotting bids and offers along a price axis was
conventional in the electronic trading art. See Pet. Reply 4 (citing Ex. 1016,
0107, Ex. 1023, Fig. 2b, Ex. 1022, Figs. 4–5, Ex. 1050, Fig. 5A).
We agree with Petitioner that the abstract idea of graphing (or
displaying) bids and offers to assist a trader to make an order is a
fundamental economic practice or a process that can be performed using pen
and paper. Pet. 23; see also Ex. 1012 ¶¶ 69–71, 81 (supporting testimony of
Kendyl Roman). The ’999 patent discloses that it was known for traders on
an exchange to use information, such as highest bid, lowest offer, historical
transaction data, etc., when making a trade. See Ex. 1001, 1:13–58.
Exhibit 1027 discloses that long before the ’999 patent, traders maintained
books that plotted bids and asks (e.g., the market depth) along a price axis.
See Ex. 1027, 44–46. Figure 4-2 of Exhibit 1027 is reproduced below.
23

CBM2016-00032
Patent 7,212,999 B2

Figure 4-2 depicts a page of a book of a trader. Id. at 44–45. Orders to buy
or sell a commodity are plotted along a prices axis. For example, Figure 4-2
shows the best bid at 22¼ and the best ask at 22⅝. Id. at 44.
Given this, we determine that placing an order based on displayed
market information, such as the inside market and a few other orders, as well
as updating the market information is a fundamental economic and
conventional business practice.
The claims at issue here are like the claims at issue in Affinity Labs. In
Affinity Labs, the claim at issue recited an application that enabled a cellular
telephone to present a GUI displaying a list of media sources that included
selectable items for selecting a regional broadcasting channel. Affinity Labs,
838 F.3d at 1255–56. The claim also recited that the cellular telephone was
enabled to transmit a request for the selected regional broadcasting channel.
Id. at 1256. The claims at issue here are also like the claims at issue in
24

CBM2016-00032
Patent 7,212,999 B2
Apple, Inc. v. Ameranth, Inc., 842 F.3d 1229 (Fed. Cir. 2016). In Ameranth,
the claim at issue recited a GUI that displayed menu items in a specific
arrangement, a hierarchical tree format. Menu items were selected to
generate a second menu from a first menu. Ameranth 842 F.3d at 1234. In
both Affinity Labs and Ameranth, the court determined that the claims were
not directed to a particular way of programming or designing the software,
but instead merely claimed the resulting systems. The court thus determined
that the claims were not directed to a specific improvement in the way
computers operate. Affinity Labs, 838 F.3d at 1260–61; Ameranth, 842 F.3d
at 1241. Here, the claims also recite the resulting display and are not
directed to specific improvements in the way the computers operate.
“Though lengthy and numerous, the claims [that] do not go beyond requiring
the collection, analysis, and display of available information in a particular
field, stating those functions in general terms, without limiting them to
technical means for performing the functions that are arguably an advance
over conventional computer and network technology” are patent ineligible.
Elec. Power Group, 830 F.3d at 1351. “Generally, a claim that merely
describes an ‘effect or result dissociated from any method by which [it] is
accomplished’ is not directed to patent-eligible subject matter.” Ameranth,
842 F.3d at 1244 (quoting Internet Patents Corp. v. Active Network, Inc.,
790 F.3d 1343, 1348 (Fed. Cir. 2015)).
Claim 1 of the ’999 patent is unlike the claims at issue in DDR
Holdings, LLC v. Hotels.com, L.P., 773 F.3d 1245 (Fed. Cir. 2014) and
Enfish. In DDR Holdings, the court determined that the claims did not
25

CBM2016-00032
Patent 7,212,999 B2
embody a fundamental economic principle or a longstanding commercial
practice. The claims at issue in DDR Holdings were directed to retaining
website visitors, which the court determined was a problem “particular to the
Internet.” DDR Holdings, 773 F.3d at 1257. The court also determined that
the invention was “necessarily rooted in computer technology in order to
overcome a problem specifically arising in the realm of computer networks”
and that the claimed invention did not simply use computers to serve a
conventional business purpose. Id. In Enfish, the claim at issue was
directed to a data storage and retrieval system for a computer memory.
Enfish, 822 F.3d at 1336–37. The court determined that the claims were
directed to an improvement in the functioning of a computer and were not
simply adding conventional computer components to well-known business
practices. Id. at 1338. Here, in contrast, claim 1 is directed to a fundamental
economic principle or a longstanding commercial practice and not directed
to an improvement in the computer: it is directed simply to the use of a
display in a method for facilitating the placement of an order for an item and
for displaying transactional information to a user regarding the buying and
selling of items.
Further, claim 1 of the ’999 patent is unlike the claims at issue in
McRO, Inc. v. Bandai Namco Games America Inc., 837 F.3d. 1299 (Fed.
Cir. 2016). In McRO, the court held that claims that recited “a specific
asserted improvement in computer animation” were not directed to an
unpatentable abstract idea because they go “beyond merely organizing
existing information into a new form or carrying out a fundamental
26

CBM2016-00032
Patent 7,212,999 B2
economic practice.” McRO, 837 F.3d at 135. Here, the claims merely
organize existing market information along a price axis.
Patent Owner argues that the claims of the ’999 patent are similar to
those of the ’304 patent and the ’132 patent found to be eligible in CQG.
Paper 36. The claims of the ’999 patent are different from and are broader in
some aspects than the claims of the ’304 patent and ’132 patent. See Paper
37, 1. For example, claim 1 of the ’999 patent does not require a static price
axis or single action order entry. Id. In CQG, the court indicated that even
those narrower claims are on the line between patent eligibility and
ineligibility (see id. at *4 (noting the “close question[] of eligibility”)). The
specification of the ’999 patent is different from those in the ’304 patent and
the ’132 patent. Thus, comparing the claims of the patents involved in CQG
is not particularly helpful here.
3. Inventive Concept
To be patent eligible, a claim directed to an abstract idea must recite
additional elements that constitute an inventive concept. Alice, 134 S. Ct. at
2357. One looks to “[t]he elements of each claim both individually and ‘as
an ordered combination’ to determine whether the additional elements
‘transform the nature of the claim’ into a patent-eligible application.” Id. at
2355 (quoting Mayo, 132 S. Ct. at 1297–98). The additional elements must
be more than “well-understood, routine, conventional, activity.” Mayo, 132
S. Ct. at 1298.
Petitioner contends that claim 1 does not recite an inventive concept.
Pet. 25–28; Pet. Reply 15–18. Patent Owner disagrees. PO Resp. 24–26.
27

CBM2016-00032
Patent 7,212,999 B2
Claim 1 does not recite elements or a combination of elements that are
“sufficient to ensure that the patent in practice amounts to significantly more
than a patent upon the [abstract idea] itself.” Alice, 134 S. Ct. at 2355 (citing
Mayo, 132 S. Ct. at 1294). Receiving market information is nothing more
than a routine data gathering step. See Ex. 1001, 1:31–35. Routine data
gathering does not transform the abstract idea into a patent-eligible
invention. See CyberSource Corp. v. Retail Decisions, Inc., 654 F.3d 1366,
1370 (Fed. Cir. 2011) (holding “[t]he mere collection and organization of
data” patent-ineligible). Displaying information as indicators along a scaled
price axis is well-understood, routine, conventional activity (see Ex. 1016,
0107, Ex. 1023, Fig. 2b, Ex. 1022, Figs. 4–5, Ex. 1027, Ex. 1050, Fig. 5A)
that does not add significantly more to the abstract idea. See Mayo, 132 S.
Ct. at 1298,
Patent Owner contends that combination of displaying market
information and selecting and moving an icon to place an order is an
inventive concept that transforms the abstract idea into a particular
application. PO Resp. 24–26. Patent Owner relies upon the testimony of
Mr. Christopher Thomas to show that “the claimed combination did not exist
prior to the invention in either the physical world or as a GUI.” Id. at 22
(citing Ex. 2169 ¶¶ 41, 46–53). Mr. Thomas’s testimony is unpersuasive
because, as discussed above, it does not specifically address the claimed
invention of the ’999 patent. See Ex. 2169 ¶¶ 1, 43 (discussing U.S. Patent
No 7,904,374). Selecting and moving an icon is a well-understood, routine,
conventional activity that does not add significantly more to the abstract
28

CBM2016-00032
Patent 7,212,999 B2
idea. See Ex. 1029, 247–249 (disclosing that drag-and-drop (i.e., clicking
and hold a button while moving some object across a screen) is old and well
known). Conventional post-solution activity is not sufficient to transform
the abstract idea into patent-eligible subject matter. See Parker v. Flook,
437 U.S. 584, 590–92 (1978). The claim requires nothing more than a
generic computer to perform the method of claim 1.
The individual elements of the claim do not transform the nature of
the claim into a patent-eligible application. They do not add significantly
more to the abstract idea or fundamental economic practice. Contrary to
Patent Owner’s argument, the claim simply recites the use of a generic
computer with routine and conventional functions. Even considering all of
the elements as an ordered combination, the combined elements also do not
transform the nature of the claim into a patent-eligible application.
For the reasons discussed above, claims 1 and 35 of the ’999 patent
are not directed to patent eligible subject matter under 35 U.S.C. § 101.
Petitioner contends that the additional elements recited by dependent
claims 2–34 do not add significantly more to the abstract idea so as to render
the claims patent-eligible. Pet. 33–35. Patent Owner makes no arguments
specifically directed to the additional elements of these claims. We also
have considered the other claims of the ’999 patent and, for similar reasons,
the claims 2–34 are not directed to patent eligible subject matter.
D.

Motions to Exclude

Petitioner moves to exclude various ones of Patent Owner’s Exhibits.
Pet. MTE 2–10. Because the outcome of this trial does not change based on
29

CBM2016-00032
Patent 7,212,999 B2
whether or not we exclude those exhibits, we dismiss Petitioner’s Motion to
Exclude as moot.
Patent Owner moves to exclude certain testimony of its declarant Mr.
Christopher Thomas. PO MTE 1–8 (seeking to exclude Ex. 1047, 248, 263–
269). Because we did not rely upon this testimony in our decision, we
dismiss Patent Owner’s Motion to Exclude as moot.
CONCLUSION
For the foregoing reasons, we determine that Petitioner has shown, by
a preponderance of the evidence, that claims 1–35 of the ’999 patent are
patent-ineligible under 35 U.S.C. § 101.
ORDER
For the reasons given, it is:
ORDERED that claims 1–35 of the ’999 patent are patent-ineligible
under 35 U.S.C. § 101;
FURTHER ORDERED that Petitioner’s Motion to Exclude Evidence
and Patent Owner’s Motion to Exclude Evidence are dismissed; and
FURTHER ORDERED that, because this is a Final Written Decision,
parties to the proceeding seeking judicial review of the decision must
comply with the notice and service requirements of 37 C.F.R. § 90.2.

30

CBM2016-00032
Patent 7,212,999 B2
PETITIONER:
Robert Sokohl
Lori Gordon
Richard Bemben
STERNE, KESSLER, GOLDSTEIN & FOX
Rsokohl-ptab@skgf.com
Lgordon-ptab@skgf.com
Rbemben-ptab@sdgf.com
PATENT OWNER:
Leif R. Sigmond, Jr.
Cole Richter
MCDONNELL BOEHNEN HULBERT & BERGHOFF LLP
gannon@mbhb.com
richter@mbhb.com

31

